<html>
<title> - PKEMRA IMPLEMENTATION: AN EXAMINATION OF FEMA'S PREPAREDNESS AND RESPONSE MISSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 

   PKEMRA IMPLEMENTATION: AN EXAMINATION OF FEMA'S PREPAREDNESS AND 
                            RESPONSE MISSION

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
               COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2009

                               __________

                            Serial No. 111-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                        U.S. GOVERNMENT PRINTING OFFICE
54-475 PDF                      WASHINGTON : 2010
---------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001











                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                      Lanier Avant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Conner, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             PETE OLSON, Texas
LAURA RICHARDSON, California         ANH ``JOSEPH'' CAO, Louisiana
WILLIAM L. OWENS, New York           MICHAEL T. McCAUL, Texas
BILL PSCRELL, JR., New Jersey        PETER T. KING, New York (ex 
DINA TITUS, Nevada                   officio)
BENNIE G. THOMPSON, Mississippi (ex 
officio)

               Veronique Pluviose-Fenton, Staff Director

                      Stephen Vina, Staff Director

                         Daniel Wilkins, Clerk

               Amanda Halpern, Minority Subcommittee Lead

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     3
The Honorable Anh ``Joseph'' Cao, a Representative in Congress 
  from the State of Louisiana....................................    60
The Honorable Emmanuel Cleaver, a Representative in Congress from 
  the State of Missiouri.........................................    64
The Honorable Laura Richardson, a Representative in Congress from 
  the State of California........................................    57
The Honorable Dina Titus, a Representative in Congress from the 
  State of Nevada................................................    62

                               Witnesses

Mr. Corey Gruber, Acting Deputy Administrator, National 
  Preparedness Directorate, Federal Emergency Management Agency 
  (FEMA):
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. William ``Bill'' Jenkins, Director, Homeland Security and 
  Justice, U.S. Government Accountability Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Daniel Kaniewski, Deputy Director, Homeland Security Policy 
  Institute, The George Washington University:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43
Mr. Richard Skinner, Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
Ms. Mary Troupe, Executive Director, Mississippi Coalition of 
  Citizens with Disabilities:
  Oral Statement.................................................    36
  Prepared Statement.............................................    39

                                Appendix

Questions and Responses
  Responses from Mr. Richard L. Skinner..........................    69




   PKEMRA IMPLEMENTATION: AN EXAMINATION OF FEMA'S PREPAREDNESS AND 
                            RESPONSE MISSION

                              ----------                              


                        Tuesday, March 17, 2009

             U.S. House of Representatives,
          Subcommittee on Emergency Communications,
                                Preparedness, and Response,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Richardson, Cleaver, 
Titus, Rogers, and Cao.
    Mr. Cuellar. [Presiding.] Good morning. The Subcommittee on 
Emergency Communications, Preparedness and Response will come 
to order.
    The subcommittee is meeting today to receive testimony 
regarding the FEMA implementation, examination of the FEMA's 
preparedness and response mission.
    Good morning on behalf of the members of the subcommittee. 
Let me welcome the witnesses from the Department of Homeland 
Security inspectors generals' office, the Government 
Accountability Office, the Federal Emergency Management Agency 
FEMA representative of the Mississippi--also, the 
representative of the Mississippi disability community, and the 
George Washington University's homeland security institute.
    Today's hearing will examine the implementation of the Post 
Katrina Emergency Management Reform Act of 2006, the PKEMRA. 
The genesis of this--PKEMRA law can be traced to what we 
collectively call as one of the nation's most embarrassing 
episodes that we have had.
    In August of 2005, the Hurricane Katrina affected more than 
a 500,000 people located within approximately 90,000 square 
miles, spanning over the states of Louisiana and Mississippi 
and Alabama, ultimately resulted in over 1,500 deaths and 
resulted in the largest natural disaster relief and recovery 
operation undertaken in the United States.
    Hurricane Katrina revealed colossal inadequacy at the 
federal, at the state, at the local government levels to 
prepare for, respond to, and recover from a large-scale 
incident.
    In response, Congress passed this act to address the 
shortcomings identified with the government's response to the 
storm. Most notable, this act retained FEMA within the 
department and tasked it to lead it and support the nation's 
risk-based, comprehensive emergency-based management system of 
preparedness, of protection, and response, and recovery, and 
mitigation.
    In doing so, Congress went ahead and reintegrated the 
preparedness and response and recovery operations into one 
entity, FEMA. In particular, this particular act made FEMA a 
distinct agency within DHS and placed restrictions on the 
secretary's authority to reorganize it.
    This act directed the FEMA administrator to respond 
directly to the secretary of homeland security, and this act 
created a direct line between the FEMA administrator and the 
president during times of emergency.
    I understand that there are those who have called for 
FEMA's removal from the department and would like to act as if 
Congress never passed this particular act. The fact of the 
matter is that enhancing the nation's capacity to respond to 
large-scale incidents should not be an ``us-versus-them'' 
battle.
    We can choose to ignore the great strides that FEMA has 
made in their preparedness and response to the ice storms, to 
the fire, tornadoes, and floods since this particular act was 
enacted. We can choose to discount the reality that Congress--
not once, but twice--decided to locate FEMA within the 
department. We did it with this particular act and with the 
Homeland Security Act of 2002.
    Some may choose to dig in their heels regarding FEMA's 
location. I, however, will defer to the first responders 
community who has said that they need FEMA at DHS so they can 
be full partners to respond to the nation's emergencies.
    These groups are--some of them are the Congressional Fire 
Services Institute, the International Association of Fire 
Chiefs, the International Association of Fire Fighters, the 
International Association of Chiefs of Police, the National 
Fraternal Order of Police, the National Sheriffs' Association, 
the National Troopers Coalition, and the National Volunteer 
Fire Councils.
    In short, this committee will carry on with the people's 
work and conduct oversight into FEMA's implementation of this 
particular act.
    Two weeks ago, this subcommittee held a forward-looking 
hearing and heard from a panel of witnesses that gave us their 
expertise on how public assistance from FEMA can be leveraged 
by state, local governments to expedite and make more efficient 
the recovery process.
    Today, we are also looking ahead by examining the status of 
implementing this act and how this act is working to strengthen 
FEMA within the Department of Homeland Security and what 
suggestions they have to strengthen this act with authorizing 
legislation.
    With that, I want to welcome the following witnesses.
    Our first witness is Richard Skinner, the inspector general 
at the Department of Homeland Security. Mr. Skinner will 
discuss his February 11th memo to Secretary Napolitano, which 
centered on how this act strengthened FEMA within DHS and why 
it is in the nation's best interest for FEMA to remain at the 
department.
    Next, the subcommittee will hear from William Jenkins, the 
director of Homeland Security and Justice, U.S. Government 
Accountability Office, GAO. Mr. Jenkins will explain the GAO's 
assessment of FEMA's implementation of this particular act.
    Our third witness is Mr. Corey Gruber, acting deputy 
administrator at the National Preparedness Directorate at FEMA, 
will discuss FEMA's implementation of this act, as well as 
provide the subcommittee suggestions for legislation to improve 
FEMA's capacity under the law.
    Our fourth witness is Ms. Mary Troupe, the executive 
director of the Mississippi Coalition of Citizens with 
Disabilities. Ms. Troupe will provide us with some suggestions 
about how to strengthen the disability coordinator office 
established under this particular act.
    Our final witness is Mr. Daniel Kaniewski, deputy director 
of the Homeland Security Policy Institute at the George 
Washington University. Mr. Kaniewski will discuss how this 
particular act has restored FEMA's capacity to prepare for, 
respond to, and recover from large-scale events.
    As the subcommittee receives the testimony from the panel, 
I want to note that a lot of time, energy, and resources have 
been invested in this particular act and in FEMA itself. So I 
am looking forward to testimony that illustrate to the American 
people that the investments in this particular act and FEMA 
benefit the nation as a whole.
    With that, I want to thank the witnesses for coming today, 
and I look forward for a robust discussion centered on the 
forward vision of FEMA, DHS, and, indeed, our nation.
    The chairman recognizes the ranking member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    And I will thank the witnesses for being here. I know that 
this is not always convenient, and you put a lot of time, 
energy into these opening statements and preparing for these 
questions. So please know that your attendance and 
participation is valued and appreciated.
    As you heard the chairman, today's hearing is going to be 
held on the Department of Homeland Security's implementation of 
the Post Katrina Emergency Management Reform Act, which became 
public law in 2006. The reforms in that law, in addition to the 
other reforms that DHS has implemented are helping to 
strengthen FEMA's preparedness and response capabilities, as 
well as to stabilize it within the department.
    The Post Katrina Reform Act established FEMA as a distinct 
entity within DHS, created new leadership positions with clear 
requirements, brought new missions to FEMA, restored 
responsibility that had been removed, and enhanced FEMA's 
authority to prepare and respond to disasters.
    I strongly feel, while more work remains to be done, FEMA 
has made significant progress over the last 2 years. For 
example, throughout the 2008 hurricane season, FEMA leveraged 
resources from other DHS operational components to prepare and 
respond.
    TSA, CBP, Coast Guard and ICE conducted pre-event planning 
activities and post-event response activities. In the 2 weeks 
after Hurricane Ike, FEMA coordinated DHS response operations 
and assigned 125 missions to other DHS components and federal 
agencies.
    Now, of course, FEMA still has work to do. I am interested 
in hearing from the witnesses on how--we can continue to 
improve its overall performance by developing better logistics 
capabilities, training and performance standards for its 
employees, and a stronger financial management structure. It is 
important to look at ways FEMA can build more equal 
partnerships and enhance communications with states and 
localities, as well.
    The Post Katrina Reform Act strengthened FEMA's regional 
office structure with heads of the 10 regional offices 
reporting directly to the FEMA administrator. I look forward to 
hearing from our witnesses on how we can continue to improve 
communications and coordination between FEMA regions and state 
and local emergency response organizations.
    Thank you, Mr. Chairman. And I yield back.
    Mr. Cuellar. Thank you, Mr. Rogers.
    Other members of the subcommittee are reminded that, under 
the committee rules, that opening statements may be submitted 
for the record.
    I now welcome the panel of witnesses. Our first witness is 
Mr. Richard Skinner, who serves as the inspector general at the 
Department of Homeland Security.
    Our second witness is William Jenkins, the director of the 
Homeland Security and Justice at the U.S. department of 
accountability office, GAO.
    The third witness, again, members, is Mr. Corey Gruber, the 
active deputy administrator of the National Preparedness 
Directorate of FEMA.
    And, of course, our fourth witness is Ms. Mary Troupe, the 
executive director of the Mississippi Coalition of Citizens 
with Disabilities.
    And, again, our final witness is Mr. Daniel Kaniewski, the 
deputy director of the Homeland Security Policy Institute at 
George Washington.
    So we are--again, we want to all thank you for being here 
with us. We are pleased to--you have taken your time, provided 
your testimony.
    And without objections, members, the witnesses' full 
statements will be inserted in the record. And I will now ask 
each witness to summarize his or her statement for 5 minutes, 
beginning with Mr. Skinner.

STATEMENT OF RICHARD SKINNER, INSPECTOR GENERAL, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Skinner. Thank you, and good morning, Chairman Cuellar, 
Ranking Member Rogers, Congressman Cao. It is a pleasure to be 
here today, and I thank you for inviting me to participate in 
this very important hearing.
    As you said, I previously submitted a formal statement for 
the record. And this morning what I would like to do is just 
recap some of the points I made in that statement.
    First, I would like to say, in my opinion, FEMA is stronger 
today than any time in its history. This, I believe, is due to 
three events: first, the merger of FEMA into DHS in 2003; 
second, the lessons learned from Hurricane Katrina; and, 
finally, the passage of the Post Katrina Reform Act.
    When FEMA merged into DHS in March 2003, I believe everyone 
will agree that DHS fumbled the ball in its treatment of FEMA. 
When it was transferred into DHS, FEMA was treated as a 
stepchild. Its disaster preparedness responsibilities were 
bifurcated into natural disasters and terrorist acts.
    Preparedness for acts of terrorism was removed outside of 
FEMA altogether. Funds and resources were siphoned off out of 
the agency to support programs aimed at preventing and 
protecting America against another terrorist attack, such as 9/
11. In essence, the all-hazards approach to emergency 
management was abandoned.
    It is also important to understand that FEMA brought with 
it its many material weaknesses. For example, it was not 
equipped to deal with catastrophe disasters. It did not have a 
national housing strategy. It was not prepared to handle acts 
of terrorists, such as pandemic flu or improvised nuclear 
explosives, and it did not have a strong management support 
function, acquisitions, logistics, financial management, or 
information technology.
    As far back as 1992, when Hurricane Andrew devastated 
southern Florida, my office completed a number of reviews 
relating to FEMA preparedness and response operations. These 
reviews identified serious deficiencies in FEMA's disaster 
preparedness and response programs. Unfortunately, many of 
these weaknesses were never adequately addressed, contributing 
to many of the problems that FEMA experienced after Hurricane 
Katrina.
    FEMA and the department have come a long way since then. 
And the impetus behind these improvements were the lessons 
learned from Hurricane Katrina and the passage of the Post 
Katrina Reform Act.
    Hurricane Katrina put the spotlight on FEMA and exposed its 
many shortcomings preparing for and responding to a 
catastrophic-type event. The Department of Homeland Security, 
including FEMA, took the lessons learned from the response to 
Hurricane Katrina and, with the legislative mandates of the 
Post Katrina Reform Act, began forming the foundation for 
critical improvements necessary for the nation to prepare and 
respond to any disaster, natural or manmade. In other words, 
FEMA and the department has returned to the all-hazards 
approach to emergency management.
    The Post Katrina Act not only set the tone for the 
important role that FEMA plays in the department in the 
nation's emergency management framework; it strengthened FEMA's 
position in the department and helped it enhance its 
preparedness and response functions, both structurally and 
operationally.
    It is important to remember, however, that the act is less 
than 3 years old. FEMA is certainly making progress in 
implementing the provisions of the act, but major changes, such 
as those called for in the act, requires time.
    Let me get back to why I believe FEMA's placement within 
DHS makes it a stronger organization. First, it is the wealth 
of resources available to FEMA through the other DHS 
components. These connections create synergies that were never 
available to FEMA as a standalone agency or independent agency. 
In DHS, FEMA is coupled with components that have far-reaching 
responsibilities and capabilities.
    And, Congressman Rogers, I believe you hit on these: The 
search-and-rescue capabilities of the Coast Guard; the 
satellite imaging capabilities at CBP, Customs and Border 
Protection; the law enforcement capabilities within Immigration 
and Customs Enforcement, ICE; and transportation capabilities 
that were provided by TSA, the Transportation Security 
Administration.
    All these assets were deployed and used during FEMA's 
recent response to Hurricanes Ike and Gustav this past year. 
And the fact that FEMA and these components of DHS have an 
opportunity during times of rest to plan, train, and exercise 
together, and to build capabilities that are capable of 
crossing jurisdictions, allows it to have the kind of 
capabilities of support in an emergency that would not be the 
case had FEMA been a standalone agency.
    To illustrate, prior to the establishment at DHS, Coast 
Guard and FEMA interaction was infrequent. In 2006, a number of 
joint exercises has increased 354 percent, from 13 in the years 
1999 to 2000 to 59 in the years 2003 to 2006.
    Another area of interconnectedness includes DHS's grant 
programs. Since Hurricane Katrina, FEMA now administers almost 
all of DHS's grants, both those focused on natural hazards and 
those focused on terrorism, as well as security programs, such 
as the Port Security Grant Program, Transportation Security 
Grant Program, and buffer security grant programs.
    Pulling FEMA out of DHS would almost certainly disrupt the 
grants' function in the short term, and it could result in, 
once again, separating out emergency management grants from 
terrorist grants, which we know from experience leads to 
inefficiency, duplication and waste.
    When DHS was created 5 years ago, 22 disparate agencies 
were merged into one large organization. These agencies brought 
into their mission--brought their missions, processes, systems 
and cultures and their own set of management challenges. 
Merging them into a single organization was a complex 
undertaking, as we all know, and this type of undertaking is 
not accomplished quickly.
    Likewise, the Post Katrina Reform Act, enacted just a 
little less than--just a little over 2-1/2 years ago, brought 
major changes to DHS and to FEMA particular. These reforms have 
not had time to work. But I really believe and I firmly believe 
that they will work, if given a chance.
    I was pleased to hear Secretary Napolitano say recently 
that DHS will take an all-hazards approach to risk management. 
She recognizes that while terrorism is and will continue to be 
a major concern within the department, it is not the only 
concern.
    Under her leadership and with the continued oversight and 
support provided by the Congress, I am confident that the 
department and FEMA together, under one roof, will continue to 
mature and grow into a world-class organization.
    Chairman Cuellar, this concludes my opening remarks. I 
would be happy to answer any questions that you or the 
committee may have.
    [The statement of Mr. Skinner follows:]

                Prepared Statement of Richard L. Skinner

    Good morning Chairman Cuellar, Ranking Member Rogers, and members 
of the subcommittee. Thank you for inviting me to testify today about 
the Post-Katrina Emergency Management Reform Act of 2006 (Post-Katrina 
Act) and how implementation of the Act has strengthened the Federal 
Emergency Management Agency's (FEMA) position in the Department of 
Homeland Security (DHS) and has helped FEMA enhance its preparedness 
and response functions. For my testimony, I will draw primarily from a 
report recently released by my office titled, ``FEMA: In or Out?'' This 
report examines the arguments for why FEMA should remain a part of the 
department, but also outlines the arguments being made by some for 
making FEMA an independent agency.

Post-Katrina Emergency Management Reform Act of 2006
    Recognizing FEMA's shortcomings in preparing for and responding to 
hurricanes Katrina and Rita in 2005, Congress passed the Post-Katrina 
Act in October 2006. The Act contained numerous provisions to help 
strengthen FEMA's position and capabilities. I would like to outline 
just a few of them here. But before I do, I want to highlight the 
enactment date of the Post-Katrina Act- October 4, 2006. This is just 
under two and a half years ago. FEMA is certainly making progress in 
implementing provisions of the Act, but major changes take time.
    The Post-Katrina Act brought change to FEMA, both structurally and 
operationally. Some of the structural changes are absolutely critical 
to FEMA's success as a component of DHS. First, the Act specifies that 
the FEMA Administrator is ``the principal advisor to the President, the 
Homeland Security Council, and the Secretary for all matters relating 
to emergency management in the United States.'' It also requires that 
the FEMA Administrator report directly to the Secretary of Homeland 
Security without having to report through another official. Both of 
these provisions set the tone for the important role that FEMA and the 
FEMA Administrator play in the Department and in the nation's emergency 
management framework.
    Additionally, the Act requires that FEMA be maintained as a 
distinct entity within DHS, exempts FEMA from the scope of the 
secretary's reorganization authority, and affords FEMA specific 
protections from changes to its mission, including functional or asset 
transfers; and, the Act returned to FEMA many of its functions that had 
been moved into DHS' Preparedness Directorate. This last provision, in 
particular, addressed the concern that had been expressed by many in 
the emergency management community that preparedness and response 
functions were being separated under DHS, to the detriment of both FEMA 
and citizens who may face a disaster.
    Responsibility for allocating and managing DHS grants is also now 
assigned to FEMA, a matter of importance when considering whether FEMA 
should remain a component of DHS. This question, ``FEMA In or Out,'' is 
the subject of the rest of my statement.

FEMA: In or Out
    How the federal government should engage with state, local and 
tribal partners in the realm of emergency management has been the 
subject of debate for at least the past 60 years.\1\ Whether FEMA 
should be a part of DHS or whether it should be pulled out and made a 
stand-alone agency has been debated since the concept of a Department 
of Homeland Security was introduced, not post-9/11, but by the Hart-
Rudman Commission earlier in 2001.
---------------------------------------------------------------------------
    \1\ Henry B. Hogue and Keith Bea, Federal Emergency Management and 
Homeland Security Organization: Historical Developments and Legislative 
Options, Congressional Research Service (RL33369), June 1, 2006, p. 4.
---------------------------------------------------------------------------
    Congress debated the ``FEMA In or Out'' question, most notably, 
during consideration of two crucial pieces of legislation, the 
legislation that created the department, the Homeland Security Act of 
2002, and the legislation passed in the wake of Hurricane Katrina, the 
Post-Katrina Act. In both instances, after much consideration and 
debate, Congress voted to include FEMA in DHS. There are good reasons 
for this decision, and I will outline some of them here, including the 
nation's current vulnerability to terrorism, the synergy and resources 
FEMA enjoys as part of DHS, and the importance of avoiding the 
stovepiping of preparedness and response functions. But before I turn 
to these, let's look at what some are calling for regarding FEMA's 
placement in the government.

Arguments for Making FEMA a Stand-Alone Agency
    Despite generally positive reviews of FEMA's performance in recent 
disasters, calls to return FEMA to its independent-agency status have 
been renewed. In November 2008, the U.S. Council of the International 
Association of Emergency Managers (IAEM-USA) formally adopted the 
position that FEMA's independent agency status should be restored, with 
the agency reporting directly to the President. The organization 
further urged that the FEMA Director/Administrator be included as a 
member of the President's Cabinet.
    Don Kettl, a Professor of Political Science at the University of 
Pennsylvania, makes an interesting argument, suggesting that calls for 
FEMA's removal may be based on a faulty premise&ndash; that James Lee 
Witt transformed FEMA from a troubled agency to a successful one&ndash; 
under Witt, FEMA was independent&ndash; therefore, FEMA should be 
restored to independent status. Kettl points out, however, that FEMA 
did not always perform well in the past, even when it was an 
independent agency. FEMA was an independent agency when it was roundly 
criticized for its response to Hurricane Andrew in 1992. Problems were 
also recognized during the TOPOFF 2000 exercise, again while FEMA was 
an independent agency.\2\
---------------------------------------------------------------------------
    \2\ Donald F. Kettl, Testimony before the U.S. Senate Committee on 
Homeland Security and Governmental Affairs, National Emergency 
Management: Where Does FEMA Belong? June 8, 2006.
---------------------------------------------------------------------------
    Kettl suggests that Witt's success in managing FEMA flowed from his 
leadership abilities.\3\ Restructuring FEMA in and of itself does not 
translate to better leadership. I will note that David Walker, when he 
was Comptroller General, also stated when discussing FEMA's placement 
in government, that it is leadership and resources that have more 
influence on the success of an agency.\4\
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ Aimee Curl, ``Senate Panel Unlikely to Recommend Taking FEMA 
Out of DHS,'' FederalTimes.com, March 15, 2006, available at http://
www.federaltimes.com/index.php?S=1598146.
---------------------------------------------------------------------------
    Those who would like to see FEMA removed from DHS are calling for 
three basic elements: (1) independent agency status, (2) including the 
FEMA Administrator in the President's Cabinet, and (3) giving the FEMA 
Administrator a direct line to the President.
    Addressing the third element first, the FEMA Administrator already 
has a direct line to the President during a disaster. Congress 
recognized this shortcoming in the aftermath of Hurricane Katrina and 
legislated this relationship in the Post-Katrina Act. GAO, in its 
report being discussed today, found that the FEMA Administrator does 
give advice directly to the President during meetings.\5\
---------------------------------------------------------------------------
    \5\ Government Accountability Office, Letter to Congressional 
Requesters, Actions Taken to Implement the Post-Katrina Emergency 
Management Reform Act of 2006 (GAO-09-59R), November 21, 2008.
---------------------------------------------------------------------------
    The critical thing to note here, however, is that having a direct 
line to the President does not necessarily equate to having the ear of 
the President. By most accounts, James Lee Witt did have the ear of 
President Clinton, but this likely stemmed more from his personal 
relationship with the President than from his status as FEMA Director. 
The Chairman of this committee, Mr. Thompson, pointed out in a recent 
letter to President Obama, that the Post-Katrina Act ``assures that 
there will be direct access but it cannot assure that the relationship 
with the President will be strong or that the Administrator will have 
the presidents confidence.''\6\
---------------------------------------------------------------------------
    \6\ Memorandum from Congressman Bennie G. Thompson to President-
elect Barack H. Obama, Re: A Strong, Effective Federal Emergency 
Management Agency, December 19, 2008.
---------------------------------------------------------------------------
    The second element, including the FEMA Director in the Cabinet, is 
a decision that cannot be legislated. While not defined in law, the 
Cabinet traditionally includes the Vice President and the heads of 15 
executive departments. The President has the discretion to accord 
Cabinet-level rank to other officials. Currently, in addition to the 
heads of the 15 executive departments, Cabinet-level status has been 
given to the White House Chief of Staff, the Director of OMB, the 
United States Trade Representative, the Administrator of the 
Environmental Protection Agency, and the Director of the Office of 
National Drug Control Policy. Executives who do not currently have 
Cabinet-level status include the Director of the Central Intelligence 
Agency, the Administrator of the Small Business Administration, and the 
Administrator of the National Aeronautics and Space Administration. The 
Post-Katrina Act does explicitly state that the President ``may 
designate the Administrator to serve as a member of the Cabinet in the 
event of natural disasters, acts of terrorism, or other man-made 
disasters,'' but Cabinet-level status, just like direct access, does 
not by itself lead to more or less success for an agency.
    The first element of the argument, granting FEMA independent agency 
status, will not necessarily solve FEMA's problems or address the 
concerns of those who would like to see FEMA removed from the 
Department of Homeland Security. I mentioned before that FEMA did not 
always perform well even when it was an independent agency. According 
to Kettl, ``Structure matters. But leadership counts far more.'' \7\
---------------------------------------------------------------------------
    \7\ Kettl, Testimony before the U.S. Senate Committee on Homeland 
Security and Governmental Affairs, National Emergency Management: Where 
Does FEMA Belong? p. 3.
---------------------------------------------------------------------------
    All of these elements-independence, Cabinet-level status, direct 
line to the President&ndash; can have an impact on an agency, but I 
believe Comptroller General Walker was right in stating that the bigger 
impact comes from leadership and resources.

Arguments for Keeping FEMA in DHS

    Vulnerability to Terrorism
    Our past two presidents, Bill Clinton and George W. Bush, and the 
current U.K. Prime Minister, Gordon Brown, all had to deal with a major 
terrorist attack in their respective countries during their first year 
in office. While there have been no recent reports of a specific 
imminent threat, some argue that the United States faces an increased 
risk of a terrorist event during the first year of the new 
presidency.\8\ Since last fall, then-Director of National Intelligence 
Mike McConnell,\9\ then-Vice President-elect Biden,\10\ and then-
President-elect Obama have each made statements to this effect. Then-
President-elect Obama said in an interview last November that it was 
``important to get a national security team in place, because 
transition periods are potentially times of vulnerability to a 
terrorist attack.'' \11\
---------------------------------------------------------------------------
    \8\ Homeland Security Presidential Transition Initiative, 
Protecting the Homeland from Day One: A Transition Plan, Prepared by 
Third Way and the Center for American Progress and Action Fund, 
November 2008.
    \9\ Peter Bergen, ``Safe at Home,'' The New York Times, December 
14, 2008.
    \10\ Michael Abramowitz, ``Biden Warns World Will `Test' Obama, 
Prompting McCain Response,'' The Washington Post, October 20, 2008, 
available at http://voices.washingtonpost.com/the-trail/2008/10/20/
biden_warns_world_will_test_ob.html.
    \11\ Don Gonyea, ``Obama: Seamless Security Transition A 
Priority,'' Morning Edition, November 17, 2008, available at http:/
www.npr.org/templates/story/story.php?storyId=97078485.
---------------------------------------------------------------------------
    We simply cannot predict whether there will be a terrorist attack 
in this country in the next year. Given that there is an elevated risk 
of this happening, however, we must consider whether it makes sense to 
make major changes to our homeland security apparatus during this 
period.
    I want to note here that the talk of removing FEMA from DHS 
generally focuses on the perceived benefits to FEMA-on which not all 
sides agree. What is not always included in the debate is consideration 
of the effect that FEMA's removal would have on the department.
    Since 2003, a number of support functions for the different 
components of DHS have been interwoven. These include financial 
management, information technology systems, and some procurement 
functions. A reorganization would impact not only FEMA, which would 
have to reconstitute itself as a stand-alone agency, but also DHS as a 
whole, which would have to adjust to losing an important component. 
Professor Kettl warned in 2006 that ``FEMA has gone through a long and 
wrenching series of reorganizations. . . . Change for the sake of 
change could simply induce organizational whiplash and further 
destabilize an already unstable organization.'' \12\ John Harrald, co-
director of the Institute for Crisis, Disaster, and Risk Management at 
The George Washington University, testified at a hearing that pulling 
FEMA out of DHS would mean a difficult transition period and the 
rewriting of doctrine and the redesign of systems, and warned that 
``natural hazards and terrorists are not going to wait for us to 
reorganize yet again.'' \13\
---------------------------------------------------------------------------
    \12\ Kettl, Testimony before the U.S. Senate Committee on Homeland 
Security and Governmental Affairs, National Emergency Management: Where 
Does FEMA Belong?, p.2.
    \13\ John R. Harrald, Testimony before the U.S. Senate Committee on 
Homeland Security and Governmental Affairs, National Emergency 
Management: Where Does FEMA Belong? June 8, 2006.

Ongoing Reviews
    It is clear that removing FEMA from DHS at this point would cause 
considerable upheaval, to both FEMA and the department. Such action 
should not be taken without very careful consideration.
    At this time, the Quadrennial Homeland Security Review (QHSR) is 
underway at DHS, and the first QHSR report is due in December 2009. 
This comprehensive review of the department was mandated by Congress in 
the Implementing the Recommendations of the 9/11 Commission Act of 2007 
(P.L. 110-53).
    The National Academy of Public Administration has just begun an 
independent assessment of preparedness and response integration with a 
focus on FEMA's 10 regional offices, and will provide recommendations 
on the integration, synchronization, and strengthening of preparedness 
programs between FEMA and its regional offices.
    Experts have cautioned that making major structural changes 
involving the Department of Homeland Security should only take place 
following a detailed strategic review and should not occur early in 
President Obama's term.\14\ The formal recommendation of the Homeland 
Security Presidential Transition Initiative is that, ``A decision to 
remove FEMA should be deferred until the completion of the Quadrennial 
Homeland Security Review in late 2009. Maintaining the status quo in 
the first year avoids unnecessary instability and confusion at a time 
of elevated risk. It also provides time for the new administration to 
consult with congressional leadership and build support for any major 
changes that may be contemplated within the QHSR process.'' \15\
---------------------------------------------------------------------------
    \14\ Homeland Security Presidential Transition Initiative, 
Protecting the Homeland from Day One, Introduction.
    \15\ Ibid, p. 15.

Synergy and Resources
    A primary benefit to FEMA of being part of the 200,000-plus person 
Department of Homeland Security is the wealth of resources available to 
FEMA through other DHS components. These connections create synergies 
that were never available to FEMA as a stand-alone agency. In DHS, FEMA 
is coupled with components that have far-reaching responsibilities and 
capabilities, including search and rescue, communications, law 
enforcement, intelligence, and infrastructure protection.
    The Government Accountability Office (GAO) has cited areas of 
interconnectedness, including grants, through which Urban Area Security 
Initiative and State Homeland Security Program funding can be used for 
mass evacuation planning; interoperable communications; DHS Science & 
Technology expertise for the Equipment Standards Program; and a huge 
surge capacity of personnel that can be tapped in case of a 
disaster.\16\ And in fact, FEMA did tap into DHS' vast personnel 
resources during last year's hurricane season.
---------------------------------------------------------------------------
    \16\ Government Accountability Office, Letter to Congressional 
Requesters, Actions Taken to Implement the Post-Katrina Emergency 
Management Reform Act of 2006.
---------------------------------------------------------------------------
    Until DHS was formed, interagency planning for disaster response 
was not well-coordinated. In contrast, Admiral Thad Allen testified in 
2006 that since DHS' creation, the relationship between the Coast Guard 
and FEMA has been greatly strengthened. Prior to the establishment of 
DHS, Coast Guard and FEMA interaction was infrequent. By 2006, however, 
the number of joint exercises had increased 354%, from 13 in the years 
1999-2002 to 59 in the years 2003-2006.\17\
---------------------------------------------------------------------------
    \17\ Admiral Thad W. Allen, FEMA's Placement in the Federal 
Government, Testimony before the U.S. Senate Committee on Homeland 
Security and Governmental Affairs, June 8, 2006.
---------------------------------------------------------------------------
    Another way FEMA and DHS mutually benefit from FEMA being part of 
the department, is the DHS components, including FEMA, have 
opportunities during ``down times'' to plan, train and exercise 
together and to build capabilities. These capabilities now span 
throughout DHS components and allow for better coordination when 
disaster strikes. Those joint capabilities were evidenced in recent 
disasters.
    In the wake of Hurricane Katrina, the Coast Guard, the 
Transportation Security Administration (TSA), U.S. Customs and Border 
Protection (CBP), U.S. Immigration and Customs Enforcement (ICE), and 
the Secret Service were all vital players in the response and recovery 
effort.\18\ More recently, in responding to Hurricanes Gustav and Ike, 
FEMA was supported by multiple components of the Department of Homeland 
Security. CBP provided security for the transit of life-sustaining 
goods and provided aerial assets that allowed surveying of damage. In 
the past, FEMA relied on DOD for aerial surveillance, which cost 
considerably more than using CBP. TSA supported 20 FEMA commodity 
distribution locations, augmenting FEMA staff with 366 additional 
employees in the field. The Coast Guard performed land, maritime, and 
air search-and-rescue missions. As Secretary of DHS, Michael Chertoff 
argued that when it is necefor FEMA to quickly call upon other 
agencies, the quickest way to accomplish this is notby reaching to 
other departments, it is when the Secretary can immediately order 
assistance from all of the elements and capabilities of the entire 
Department of Homeland Security.\19\
---------------------------------------------------------------------------
    \18\ Homeland Security Secretary Michael Chertoff, Building an 
Integrated Preparedness and Emergency Management System: The Case for 
Keeping FEMA Within the Department of Homeland Security, Testimony 
before the U.S. Senate Committee on Homeland Security and Governmental 
Affairs, June 8, 2006.
    \19\ Remarks by Homeland Security Secretary Michael Chertoff at 
Johns Hopkins University, December 3, 2008, available at http://
www.dhs.gov/xnews/releases/pr_1228482474306.shtm.
---------------------------------------------------------------------------
    Finally, it is important to discuss DHS grants and their importance 
to the emergenmanagement community. When FEMA initially joined DHS, 
many of its grants functions were transferred to other parts of DHS. 
Since Hurricane Katrina, FEMA administers almost all DHS grants, both 
those focused on natural hazards and those focused on terrorism. 
Pulling FEMA out of DHS would almost certainly disrupt grants function 
in the short term, and it could result in once again separating out 
``emergency management'' grants from ``terrorism'' grants, which we 
know from experience leads to inefficiency, duplication, and waste. The 
synergies that have been realized in homeland security grants should be 
an important consideration when degating the merits of removing FEMA 
from DHS.

Preparedness and Response
    The well-recognized cycle of emergency management includes 
preparedness, response, recovery, and mitigation. This is true of all 
emergency management, whether for naturaor manmade hazards. I like to 
think of these elements as a four-legged stool. Remove one of the 
elements, and the stool becomes unstable. Some would suggest that we 
need two stools-one labeled crisis management and one labeled 
consequence management. The problem is that we know from the past that 
this structure simply does not work well. It is evident in the 
``stovepipes'' that existed prior to the creation of DHS.
    Some in the emergency management community suggest that FEMA is 
involved with consequence management, dealing with the response, while 
the rest of DHS is focused opreventing or protecting against a response 
(crisis management). They suggest further that these different 
functions should be under different roofs. Former Secretary Cherargues, 
and I agree, that this ``is a profound misunderstanding of how one 
plans and prepares and executes in the face of a possible emergency and 
an actual emergency because the truth is emergencies don't come neatly 
packaged in stovepipes and if there's any lesson we've learned in 
dealing with terrorism or dealing with any other crisis, it is that 
stove-piping is the enemy of efficient and effective response.'' \20\ 
Mr. Chairman, it isjust common sense. We have tried stovepipes. They 
don't work, and in fact they put us in a worse position when it comes 
to preparing for, preventing when possible, respoto, and recovering 
from disasters. And it does not matter whether the disaster is a 
hurricane, a terrorist bombing, or the pandemic flu.
---------------------------------------------------------------------------
    \20\ Ibid.
---------------------------------------------------------------------------
    The Hart-Rudman Commission also warned against the stovepiping of 
crisis management and consequence management, saying it is ``neither 
sustainable nor wise.'' \21\ The duplicative command structures that 
are fostered by this division lead to confusion and delay. I would add 
that this duplication wastes time, energy, and resources. Preparedness 
and response are fundamental to homeland security. If FEMA is removed, 
a duplicate agency would most certainly be created in DHS, because 
preparedness and response are so fundamental to DHS' mission that it 
could not operate effectively without them.
---------------------------------------------------------------------------
    \21\ The United States Commission on National Security/21st 
Century, Road Map for National Security: Imperative for Change: The 
Phase III Report of the U.S. Commission on National Security/21st 
Century, February 15, 2001, p. 20.
---------------------------------------------------------------------------
    Finally, on this topic let me point out that for local frontline 
first responders, there is no line between terrorist and non-terrorist 
hazards; first responders must focus on all-hazards-plus. The federal 
approach and structure should match this local approach.\22\
---------------------------------------------------------------------------
    \22\ Kettl, Testimony before the U.S. Senate Committee on Homeland 
Security and Governmental Affairs, National Emergency Management: Where 
Does FEMA Belong? p. 7.

It Takes Years for a Complex Organization to Develop
    When DHS was created 5 years ago, 22 disparate agencies were merged 
into one large organization. These agencies brought their own missions, 
processes, systems, and cultures. Merging them into a single 
organization was a complex undertaking, and this type of undertaking is 
not accomplished quickly. GAO has reported that its work on mergers and 
acquisitions shows that successful transformation of a large 
organization can take at least 5 to 7 years, even for organizational 
mergers that are less complex than DHS.\23\
---------------------------------------------------------------------------
    \23\ Government Accountability Office, Department of Homeland 
Security: Progress Report on Implementation of Mission and Management 
Functions (GAO-07-454), August 2007.
---------------------------------------------------------------------------
    As an example, GAO points to the creation of the Department of 
Defense. The most recent major DOD restructuring began 20 years ago 
with the Goldwater-Nichols Act of 1986, but DOD continues to face 
serious management challenges. DHS is only six years old, an infant in 
organizational development. Pulling FEMA out of DHS will take both FEMA 
and the department back years in development, impeding our progress in 
building a strong homeland security structure in this country.
    The Post-Katrina Act was enacted just a little over 2 years ago, 
bringing major changes to DHS, and to FEMA in particular. These reforms 
have not had time to work, and restructuring now would only set the 
department and FEMA back further.

Success Depends on Leadership More Than Structure
    The success of an organization is often more about the 
organization's leadership than its structure. The Hart-Rudman 
Commission recognized this when first considering a restructuring of 
national security policy. ``Organizational reform is not a panacea. 
There is no perfect organizational design, no flawless managerial fix. 
The reason is that organizations are made up of people, and people 
invariably devise informal means of dealing with one another in accord 
with the accidents of personality and temperament. Even excellent 
organizational structure cannot make impetuous or mistaken leaders 
patient or wise, but poor organizational design can make good leaders 
less effective.'' \24\
---------------------------------------------------------------------------
    \24\ The United States Commission on National Security/21st 
Century, Road Map for National Security, p. vi.
---------------------------------------------------------------------------
    It is interesting to note that when people talk about FEMA's 
``successful years,'' these years are invariably linked with James Lee 
Witt. Credit for turning the organization around is generally ascribed 
to Witt personally, not to an outside force mandating reorganization. 
The President has announced his intent to nominate Craig Fugate as the 
next FEMA Administrator, and I believe this will provide a strong 
leader for the agency. Leaving FEMA in DHS will couple this important 
leadership with the considerable resources of the department.

Conclusion
    In 2001, the Hart-Rudman Commission, addressing the topic of 
military intervention abroad, warned that in policymaking it is 
important to avoid the ``CNN effect.'' \25\ This admonition is all the 
more important today, when the country faces an increased threat of 
terrorism and has experienced a number of serious disasters over the 
past few years.
---------------------------------------------------------------------------
    \25\ The United States Commission on National Security/21st 
Century, Seeking a National Strategy: A Concert for Preserving Security 
and Promoting Freedom: The Phase II Report on a U.S. National Security 
Strategy for the 21st Century, April 15, 2000, p. 7.
---------------------------------------------------------------------------
    Just over 5 years ago, the approach to and structure for homeland 
security were completely revamped. Have things gone perfectly since? 
Clearly, the answer is no, but that is not enough justification to 
undertake a major reorganization that would have far-reaching effects, 
particularly before a careful study of the potential consequences can 
be carried out.
    Former Secretary Chertoff has pointed out the dangers of thinking 
short-term, stating, ``I would say that one of the lessons I've 
learned, maybe `the' lesson I learned in the last eight years is we've 
had three major catastrophic events, 9/11, Hurricane Katrina, and the 
financial meltdown. In each case, the real nub of the problem was 
[that] leaders made decisions looking only at the short term and 
sacrificing the long term.'' \26\
---------------------------------------------------------------------------
    \26\ Remarks by Homeland Security Secretary Michael Chertoff at 
Johns Hopkins University, December 3, 2008.
---------------------------------------------------------------------------
    Now is not the time to think short term, particularly when it comes 
to our homeland security. Terrorism is not a threat only in the short 
term, and natural disasters certainly are not, so we need to be 
thinking long term. Thinking long term requires giving the Department 
of Homeland Security the time any large organization needs to mature. 
Thinking long term means giving the reforms introduced by the Post-
Katrina Act time to work. Thinking long term means resisting the ``CNN 
effect'' and ensuring that FEMA is positioned to continue as a vital 
component of our homeland security and emergency management 
infrastructure.
    Chairman Cuellar, this concludes my prepared remarks. I would be 
happy to answer any questions that you or the Committee Members may 
have. Thank you.

    Mr. Cuellar. Thank you, Mr. Skinner.
    At this time, I would like to recognize Mr. Jenkins to 
summarize his statement for 5 minutes.

STATEMENT OF WILLIAM JENKINS, JR., DIRECTOR, HOMELAND SECURITY 
       AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jenkins. Chairman Cuellar, Ranking Member Rogers, and 
other distinguished members of the subcommittee, I am pleased 
to be here today to discuss our work to identify and describe 
the actions FEMA and DHS have taken to implement the several 
hundred provisions of the Post Katrina Emergency Management 
Reform Act of 2006.
    It is important to note that our number did not include 
assessing how effective these actions have been in improving 
the nation's preparedness and ability to respond to a 
catastrophic disaster. Rather, our objective was to provide a 
comprehensive catalogue of the actions taken to implement the 
act's many provisions.
    The Post Katrina Act charges FEMA with leading and 
supporting the nation in a risk-based, comprehensive emergency 
management system of preparedness, protection, response, 
recovery, and mitigation. That is a tall order.
    Essentially, an effective national preparedness effort is 
designed to integrate and define what needs to be done, by 
whom, where, based on what standards, how it should be done, 
and how well it should be done. This requires comprehensive 
planning, coordination, and the effective integration of the 
actions and resources of many partners, both governmental and 
nongovernmental.
    The many reports on the preparedness and response to 
Hurricane Katrina, including ours, essentially identified three 
broad areas that needed to be strengthened: leadership, 
capabilities and accountability.
    We highlighted several key problem areas, including 
emergency communication, evacuations, logistics, mass care and 
shelter, planning and training, and human capital. The Post 
Katrina Act's provisions addresses each of these areas, as well 
as others, and FEMA has taken actions in each of these areas.
    The act changed FEMA's organizational structure and 
responsibilities, enhanced its position and that of the FEMA 
administrator within DHS. Although FEMA and DHS have taken more 
actions to implement some of the act's provisions than others, 
they have taken at least some actions to implement each of the 
act's many provisions.
    Implementing the number and magnitude of the changes 
required by the Post Katrina Act posed and continues to pose a 
significant challenge for FEMA. Although much has been done, 
much remains to be done.
    Examples of work in progress but not yet completed include: 
the development and implementation of a comprehensive point-to-
point logistics system; several key supporting documents for 
the national response framework, such as the partner guides for 
key federal and non-federal response leaders that were 
originally scheduled to be issued by June of last year; the 
operational supplements for the catastrophic and mass 
evacuation incident annex; a plan to be submitted to Congress 
for establishing and implementing a surge capacity force; and a 
revision of the target capabilities and defining key metric for 
them.
    None of these tasks are simple, and all require stakeholder 
input and coordination. Between April and September of this 
year, we will be issuing reports on the national communication 
system, the national preparedness program, coordination among 
urban area security initiative area jurisdictions, and 
community preparedness.
    Each of these are components of the robust emergency 
preparedness and response system for the nation that was 
envisioned by the Post Katrina Reform Act.
    That concludes my statement, Mr. Chairman. I would be 
pleased to respond to any questions you or other members of the 
committee may have.
    [The statement of Mr. Jenkins follows:]

                Prepared Statement of William O. Jenkins

    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to participate in today's hearing to 
discuss the efforts of the Federal Emergency Management Agency (FEMA) 
and the Department of Homeland Security (DHS) to strengthen emergency 
management by implementing provisions of the Post-Katrina Emergency 
Management Reform Act of 2006 (Post-Katrina Act), which Congress 
enacted in October 2006 to address shortcomings in the preparation for 
and response to Hurricane Katrina.\1\ My remarks today are grounded in 
our prior work on FEMA's and DHS's response to Hurricane Katrina and 
the actions they have taken to implement the Post-Katrina Act.\2\ In 
September 2006, we identified leadership, capabilities, and 
accountability as elements that FEMA and DHS needed to strengthen to 
respond to catastrophic disasters. This testimony discusses these three 
elements in terms of our 2006 findings about select issues within the 
elements; provisions of the Post-Katrina Act that relate to those 
issues; the actions we reported in November 2008 that FEMA and DHS have 
taken to implement those provisions; and where possible, updates to 
these actions as of March 2009.
---------------------------------------------------------------------------
    \1\ The Post-Katrina Act was enacted as Title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355 (2006). The provisions of the Post-Katrina Act are codified 
in numerous sections of the U.S. Code. The applicable U.S. Code 
citations are included in this statement. The provisions of the Post-
Katrina Act became effective upon enactment, October 4, 2006, with the 
exception of certain organizational changes related to FEMA, most of 
which took effect on March 31, 2007.
    \2\ The results of this work were included in products published 
from February 2006 through November 2008. GAO, Emergency Preparedness 
and Response: Some Issues and Challenges Associated with Major 
Emergency Incidents, GAO-06-467T (Washington, D.C.: February 2006); 
GAO, Catastrophic Disasters: Enhanced Leadership, Capabilities, and 
Accountability Controls Will Improve the Effectiveness of the Nation's 
Preparedness, Response, and Recovery System, GAO-06-618 (Washington, 
D.C.: September 2006); and GAO, Actions Taken to Implement the Post-
Katrina Emergency Management Reform Act of 2006, GAO-09-59R 
(Washington, D.C.: November 2008).
---------------------------------------------------------------------------
    To conduct our 2006 work on Hurricane Katrina we visited the areas 
affected by Hurricanes Katrina and Rita--Alabama, Louisiana, 
Mississippi, and Texas--and interviewed the governors of those states 
and the mayor of New Orleans. We also interviewed senior federal 
officials. To conduct our 2008 work about actions to implement 
provisions of the Post-Katrina Act, we analyzed the text of the act and 
identified well over 300 discrete provisions within the legislation 
that called for FEMA or DHS action to implement requirements or 
exercise authorities. We reviewed agency documents and discussed the 
act's implementation with numerous senior level program officials at 
FEMA and DHS to identify the actions that had been taken. In March 
2009, we consulted program officials about the status of select actions 
to provide updates in this statement.
    We conducted our work in accordance with generally accepted 
government auditing standards. More detailed information on our scope 
and methodology appears in our published work.
    This statement provides information about select actions related to 
our 2006 work on the response to Hurricane Katrina that FEMA and DHS 
have taken to implement the Post-Katrina Act. The actions described are 
drawn from our November 2008 report and, where possible, March 2009 
updates from program officials. As we reported in November 2008, for 
most of the provisions we examined, FEMA and DHS had at least 
preliminary efforts underway to address them. We also identified a 
number of areas that still required action, and noted that it was clear 
that FEMA and DHS have work remaining to implement the act.

&Background
    On August 29, 2005, and in the ensuing days, Hurricanes Katrina, 
Rita, and Wilma devastated the Gulf Coast region of the United States. 
Hurricane Katrina alone affected more than a half million people 
located within approximately 90,000 square miles spanning Louisiana, 
Mississippi, and Alabama, and ultimately resulted in over 1,600 deaths.
    Hurricane Katrina severely tested disaster management at the 
federal, state, and local levels and revealed weaknesses in the basic 
elements of preparing for, responding to, and recovering from a 
catastrophic disaster. Beginning in February 2006, reports by the House 
Select Bipartisan Committee to Investigate the Preparation for and 
Response to Hurricane Katrina, the Senate Homeland Security and 
Governmental Affairs Committee, the White House Homeland Security 
Council, the DHS Inspector General, DHS, and FEMA all identified a 
variety of failures and some strengths in the preparation for, response 
to, and initial recovery from Hurricane Katrina. Our findings about the 
response to Hurricane Katrina in a March 2006 testimony and a September 
2006 report focused on the need for strengthened leadership, 
capabilities, and accountability to improve emergency preparedness and 
response.\3\
---------------------------------------------------------------------------
    \3\ See GAO, Hurricane Katrina GAO's Preliminary Observations 
Regarding, Preparedness, Response and Recovery, GAO-06-442T 
(Washington, D.C.: Mar. 8, 2006) and GAO-06-618.
---------------------------------------------------------------------------
    The Post-Katrina Act was enacted to address various shortcomings 
identified in the preparation for and response to Hurricane Katrina. 
The act enhances FEMA's responsibilities and its autonomy within DHS. 
FEMA is to lead and support the nation in a risk-based, comprehensive 
emergency management system of preparedness, protection, response, 
recovery, and mitigation. Under the act, the FEMA Administrator reports 
directly to the Secretary of Homeland Security; FEMA is now a distinct 
entity within DHS; and the Secretary of Homeland Security can no longer 
substantially or significantly reduce the authorities, 
responsibilities, or functions of FEMA or the capability to perform 
them unless authorized by subsequent legislation. The act further 
directs the transfer to FEMA of many functions of DHS's former 
Preparedness Directorate. The statute also codified FEMA's existing 
regional structure, which includes 10 regional offices, and specified 
their responsibilities. It also contains a provision establishing in 
FEMA a National Integration Center, which is responsible for the 
ongoing management and maintenance of the National Incident Management 
System (NIMS)--which describes how emergency incident response is to be 
managed and coordinated--and the National Response Plan (NRP)--now 
revised and known as the National Response Framework (NRF). In 
addition, the act includes several provisions to strengthen the 
management and capability of FEMA's workforce. For example, the statute 
calls for a strategic human capital plan to shape and improve FEMA's 
workforce, authorizes recruitment and retention bonuses, and 
establishes requirements for a Surge Capacity Force.
    The Post-Katrina Act extends beyond changes to FEMA's 
organizational and management structure and includes legislative 
reforms in other emergency management areas that were considered 
shortcomings during Hurricane Katrina. For example, the Post-Katrina 
Act includes an emergency communications title that requires, among 
other things, the development of a National Emergency Communications 
Plan, as well as the establishment of working groups within each FEMA 
region dedicated to emergency communications coordination. The act also 
addresses catastrophic planning and preparedness; for example, it 
charges FEMA's National Integration Center with revising the NRF's 
catastrophic incident annex, and it makes state catastrophic planning a 
component of one grant program. In addition, the act addresses 
evacuation plans and exercises and the needs of individuals with 
disabilities.
    In November 2008, we reported the actions FEMA and DHS had taken in 
response to more than 300 distinct provisions of the Post-Katrina Act 
that we had identified. We also reported on areas where FEMA and DHS 
still needed to take action and any challenges to implementation that 
FEMA and DHS officials identified during our discussions with them. In 
general, we found that FEMA and DHS had made some progress in their 
efforts to implement the act since it was enacted in October 2006. For 
most of the provisions we examined, FEMA and DHS had at least 
preliminary efforts under way to address them. We also identified a 
number of areas that still required action, and noted that it was clear 
that FEMA and DHS had work remaining to implement the provisions of the 
act. Throughout this statement, unless otherwise noted, the actions 
reported that DHS and FEMA have taken to address provisions of the 
Post-Katrina Act are drawn from our November 2008 report.

Leadership
    Our 2006 report noted that in preparing for, responding to, and 
recovering from any catastrophic disaster, the legal authorities, roles 
and responsibilities, and lines of authority at all levels of 
government must be clearly defined, effectively communicated, and well 
understood in order to facilitate rapid and effective decision making. 
We further noted that the experience of Hurricane Katrina showed the 
need to improve leadership at all levels of government to better 
respond to a catastrophic disaster. Specifically, we reported that in 
the response to Hurricane Katrina there was confusion regarding roles 
and responsibilities under the NRP, including the roles of the 
Secretary of Homeland Security and two key federal officials with 
responsibility for disaster response--the Principal Federal Official 
(PFO), and the Federal Coordinating Officer (FCO).

Updating the National Response Framework and Clarifying the Role of the 
FEMA Administrator
    The Post-Katrina Act clarified FEMA's mission within DHS and set 
forth the role and responsibilities of the FEMA Administrator. These 
provisions, among other things, required that the FEMA Administrator 
provide advice on request to the President, the Homeland Security 
Council, and the Secretary of Homeland Security, and that the FEMA 
Administrator report directly to the Secretary of Homeland Security 
without having to report through another official.\4\
---------------------------------------------------------------------------
    \4\ See generally 6 U.S.C.  313-14. For specific information on 
the Administrator's reporting relationship and role as principal 
advisor on emergency management, see 6 U.S.C.  313(c).
---------------------------------------------------------------------------
    As a result of the limitations in the NRP revealed during the 
response to Hurricane Katrina and as required by the Post-Katrina Act, 
DHS and FEMA undertook a comprehensive review of the NRP. The result of 
this process was the issuance, in January 2008, of the NRF (the name 
for the revised NRP).\5\ The NRF states that it is to be a guide to how 
the nation conducts an all-hazards response and manages incidents 
ranging from the serious but purely local to large-scale terrorist 
attacks or catastrophic natural disasters. The NRF became effective in 
March 2008.
---------------------------------------------------------------------------
    \5\ The Post-Katrina Act predated the NRF and referred to the NRF's 
predecessor, the NRP, which was then the name of the document that 
served as the nation's comprehensive framework for the management of 
domestic incidents where federal involvement was necessary. Because the 
Post-Katrina Act encompasses any successor plan to the NRP, it applies 
to the NRF just as it did the NRP. See 6 U.S.C.  701(13). Therefore, 
this statement uses the term NRF, rather than NRP, in discussing any 
relevant Post-Katrina Act provisions and the status of their 
implementation, unless otherwise appropriate.
---------------------------------------------------------------------------
    As reflected in the NRF and confirmed by FEMA's Office of Policy 
and Program Analysis and FEMA General Counsel, there is a direct 
reporting relationship between the FEMA Administrator and the Secretary 
of Homeland Security. According to officials in FEMA's Office of Policy 
and Program Analysis, the FEMA Administrator gives emergency management 
advice as a matter of course at meetings with the President, the 
Secretary of Homeland Security, and the Homeland Security Council.
    The NRF also states that the Secretary of Homeland Security 
coordinates with other appropriate departments and agencies to activate 
plans and applicable coordination structures of the NRF, as required. 
The FEMA Administrator assists the secretary in meeting these 
responsibilities. FEMA is the lead agency for emergency management 
under NRF Emergency Support Function #5, which is the coordination 
Emergency Support Function for all federal departments and agencies 
across the spectrum of domestic incident management from hazard 
mitigation and preparedness to response and recovery.

Clarifying the Roles of the PFO and FCO
    We reported in 2006 that in response to Hurricane Katrina, the 
Secretary of Homeland Security initially designated the head of FEMA as 
the PFO, who then appointed separate FCOs for Alabama, Louisiana, and 
Mississippi. It was not clear, however, who was responsible for 
coordinating the overall federal effort at a strategic level. Our 
fieldwork indicated that the lack of clarity in leadership roles and 
responsibilities resulted in disjointed efforts of federal agencies 
involved in the response, a myriad of approaches and processes for 
requesting and providing assistance, and confusion about who should be 
advised of requests and what resources would be provided within 
specific time frames.
    The Post-Katrina Act required that the Secretary of Homeland 
Security, through the FEMA Administrator, provide a clear chain of 
command in the NRF that accounts for the roles of the FEMA 
Administrator, the FCO, and the PFO.\6\ According to the NRF, the 
Secretary of Homeland Security may elect to designate a PFO to serve as 
his or her primary field representative to ensure consistency of 
federal support as well as the overall effectiveness of federal 
incident management. The NRF repeats the Post-Katrina Act's prohibition 
that the PFO shall not direct or replace the incident command structure 
or have directive authority over the FCO or other federal and state 
officials. Under the NRF, the PFO's duties include providing 
situational awareness and a primary point of contact in the field for 
the secretary, promoting federal interagency collaboration and conflict 
resolution where possible, presenting to the secretary any policy 
issues that require resolution, and acting as the primary federal 
spokesperson for coordinated media and public communications.
---------------------------------------------------------------------------
    \6\ U.S.C.  1A319(c).
---------------------------------------------------------------------------
    According to DHS officials, at the time of our 2008 report, no PFO 
had been operationally deployed for any Stafford Act event since the 
response to Hurricane Katrina. DHS's appropriations acts for fiscal 
years 2008 and 2009 have each included a prohibition that ``none of the 
funds provided by this or previous appropriations acts shall be used to 
fund any position designated as a Principal Federal Official'' for any 
Stafford Act declared disasters or emergencies.\7\ Our Office of 
General Counsel plans to address the implications of this funding 
prohibition in future work.\8\
---------------------------------------------------------------------------
    \7\ The Robert T. Stafford Disaster Relief and Emergency Assistance 
Act (Stafford Act) , 42 U.S.C.  5121-5208, primarily establishes the 
programs and processes for the federal government to provide major 
disaster and emergency assistance to states, local governments, tribal 
nations, individuals, and qualified private nonprofit organizations. 
Upon a governor's request, the President can declare an ``emergency'' 
or a ``major disaster'' under the Stafford Act, which triggers specific 
types of federal relief.
    \8\ The funding prohibition is set forth at Consolidated 
Appropriations Act, 2008, Pub. L. No. 110-161, Div. E, Title V,  541, 
121 Stat. 1844, 2079 (2007) and Consolidated Security, Disaster 
Assistance, and Continuing Appropriations Act, 2009, Pub. L. No. 110-
329, Div. D,  1A526, 122 Stat. 3574 (2008).

    According to the NRF, the primary role and responsibilities of the 
FCO include four major activities:
         1Arepresenting the FEMA Administrator in the field and 
        discharging all FEMA responsibilities for the response and 
        recovery efforts under way;
         administering Stafford Act authorities, including the 
        commitment of FEMA resources and the issuance of mission 
        assignments to other federal departments or agencies;
         coordinating, integrating, and synchronizing the federal 
        response, within the Unified Coordination Group at the Joint 
        Field Office; and
         interfacing with the State Coordinating Officer and other 
        state, tribal, and local response officials to determine the 
        most urgent needs and set objectives for an effective response 
        in collaboration with the Unified Coordination Group.

Updating the Catastrophic Incident Annex and Supplement
    The Catastrophic Incident Annex to the NRP (now NRF) was a source 
of considerable criticism after Hurricane Katrina. The purpose of this 
annex is to describe an accelerated, proactive national response to 
catastrophic incidents and establish protocols to pre-identify and 
rapidly deploy essential resources expected to be urgently needed. Lack 
of clarity about the circumstance under which the annex should be 
activated contributed to issues with clear roles and lines of 
responsibility and authority. Because questions surrounded whether the 
annex should apply only to events that occur with little or no notice 
rather than events with more notice that have the potential to evolve 
into incidents of catastrophic magnitude, like a strengthening 
hurricane, it did not provide a clear guidance about the extent to 
which the federal government should have been involved in the 
accelerated response role that it describes. We noted in 2006 that our 
review of the NRP and its catastrophic incident annex--as well as 
lessons from Hurricane Katrina--demonstrated the need for DHS and other 
federal agencies to develop robust and detailed operational plans to 
implement the catastrophic incident annex and its supplement in 
preparation for and response to future catastrophic disasters.
    Under the Post-Katrina Act, FEMA's National Integration Center is 
statutorily responsible for revising the Catastrophic Incident Annex 
and for finalizing and releasing an operational supplement--the 
Catastrophic Incident Supplement.\9\ The annex was revised and released 
in November 2008.\10\ Officials from FEMA's National Preparedness 
Directorate told us in March 2009 that operational annexes of the 
Catastrophic Incident Supplement are being updated to reflect the 
current response capabilities of the federal government. FEMA officials 
told us that the annex and its operational supplement were not 
activated during the 2008 hurricane season because none of the storms 
resulted in a catastrophic incident that would require their use.
---------------------------------------------------------------------------
    \9\ 6 U.S.C.  319(b)(2)(C)
    \10\ The Catastrophic Incident Annex is available online via the 
NRF Resource Center, www.fema.gov/nrf.

Capabilities
    In our 2006 report, we noted that developing the capabilities 
needed for large-scale disasters is part of an overall national 
preparedness effort that is designed to integrate and define what needs 
to be done, where, based on what standards, how it should be done, and 
how well it should be done. The response to Hurricane Katrina 
highlighted the limitations in the nation's capabilities to respond to 
catastrophic disasters. Various reports from Congress and others, along 
with our work on FEMA's performance before, during, and after Hurricane 
Katrina suggested that FEMA's human, financial, and technological 
resources and capabilities were insufficient to meet the challenges 
posed by the unprecedented degree of damage and the resulting number of 
hurricane victims. Among other things, in 2006 we reported on problems 
during Hurricane Katrina with (1) emergency communications, (2) 
evacuations, (3) logistics, (4) mass care, (5) planning and training, 
and (6) human capital.

Emergency Communications
    Our 2006 report noted that emergency communications is a critical 
capability common across all phases of an incident. Agencies'' 
communications systems during a catastrophic disaster must first be 
operable, with sufficient communications to meet internal and emergency 
communication requirements. Once operable, they then should have 
communications interoperability whereby public safety agencies (e.g., 
police, fire, emergency medical services) and service agencies (e.g., 
public works, transportation, hospitals) can communicate within and 
across agencies and jurisdictions in real time as needed. Hurricane 
Katrina caused significant damage to the communication infrastructure--
including commercial landline and cellular telephone systems--in 
Louisiana and Mississippi, which further contributed to a lack of 
situational awareness for military and civilian officials.
    Among other provisions aimed at strengthening emergency 
communications capabilities, the Post-Katrina Act established an Office 
of Emergency Communications (OEC) within DHS. The statutory 
responsibilities of OEC include, but are not limited to, conducting 
outreach, providing technical assistance, coordinating regional 
emergency communications efforts, and coordinating the establishment of 
a national response capability for a catastrophic loss of local and 
regional emergency communications.\11\
---------------------------------------------------------------------------
    \11\ 6 U.S.C.  571.

Stakeholder Outreach
    OEC's stakeholder outreach efforts have included coordinating with 
150 individuals from the emergency response community to develop the 
National Emergency Communications Plan. OEC officials stated that the 
outreach was primarily carried out through several organizations that 
represent officials from federal, state, and local governments and 
private-sector representatives from the communications, information 
technology, and emergency services sectors.

Technical Assistance
    Through the Interoperable Communications Technical Assistance 
Program, OEC has been working with Urban Area Working Groups and states 
to assess their communications infrastructure for gaps and determine 
technical requirements that can be used to design or enhance 
interoperable communications systems. According to the Deputy Director 
of OEC, OEC provided technical assistance to 13 recipients of the 2007 
Urban Area Security Initiative grants by providing guidance on 
technical issues such as engineering solutions and drafting requests 
for proposals, as well as providing best practices information. In 
addition, OEC offered assistance to states and territories in 
developing their Statewide Communication Interoperability Plans and, as 
of August 1, 2008, had conducted plan development workshops for the 30 
states and five territories that requested such help.

Coordinating Regional Communications
    Officials from OEC stated that they have been coordinating to 
minimize any overlap between the roles and responsibilities of various 
DHS regional staff offices related to emergency communications. 
According to the officials, officials from these regional staff offices 
plan to attend and share information through the Regional Emergency 
Communications Coordination Working Groups--also established by the 
Post-Katrina Act.\12\ OEC officials said that OEC had hired a federal 
employee to represent OEC at working group meetings. In addition, OEC 
officials stated their intention to hire regional interoperability 
coordinators for each of the 10 FEMA regions in fiscal year 2009 to 
work with FEMA on the activities of the working groups.
---------------------------------------------------------------------------
    \12\ 6 U.S.C.  575(a).
---------------------------------------------------------------------------
    FEMA officials told us in March 2009 that FEMA's Disaster Emergency 
Communications Division has filled one national and nine regional 
positions to coordinate the working groups. FEMA's Region II has not 
yet filled the regional position. As of March 2009, all working groups, 
with the exception of Regions II and IX, have been established. 
According to FEMA officials, the eight established groups have had 
various levels of activity, with the number of meetings ranging from 
one time (Regions VI and X) to eight times (Regional IV). No updated 
information about specific efforts to minimize overlap or to achieve 
the Post-Katrina Act objectives for the working groups was provided.

Establishing a National Response Capability
    To establish a national response capability for a catastrophic loss 
of local and regional emergency communications, OEC officials told us 
they had been working with FEMA and the National Communications System 
(NCS) \13\ to coordinate policy and planning efforts relating to the 
existing response capability managed through the NRF's Communication 
Annex, Emergency Support Function 2.\14\ According to OEC officials, an 
example of this coordination was the inclusion of continuity of 
emergency communications and response operations in the National 
Emergency Communications Plan.
---------------------------------------------------------------------------
    \13\ Established by Presidential Memorandum on August 21, 1963, the 
National Communications System was created to be a single unified 
communications system to serve the President, Department of Defense, 
diplomatic and intelligence activities, and civilian leaders. The 
National Communications System mandate included linking, improving, and 
extending the communications facilities and components of various 
federal agencies, focusing on interconnectivity and survivability. NCS 
membership currently stands at 24 federal department and agency members 
and is managed by the DHS Under Secretary for National Protection and 
Programs.
    \14\ Emergency Support Function 2 provides a structure for 
coordinating federal actions to assist in the restoration of public 
communications infrastructure, public safety communications systems, 
and first responder networks.
---------------------------------------------------------------------------
    The officials also said that OEC would represent NCS in regions 
where the system has no presence and would support the system's 
private-sector coordination role, as appropriate. In addition, the 
Director and Deputy Director of OEC told us that OEC, FEMA, and the NCS 
were developing a strategy that involved the OEC's regional 
interoperability coordinators providing technical support, playing a 
role as needed in Emergency Support Function 2, and providing response 
capabilities within their designated regions, among other things.
    FEMA officials told us in March 2009 that FEMA and NCS have worked 
closely to develop revised operating procedures that define their roles 
and responsibilities under Emergency Support Function 2. In addition, 
they said that NCS recently hired three Regional Emergency 
Communications Coordinators with responsibility for coordinating with 
regional, private-sector communications providers. The NCS coordinators 
are working with FEMA regional coordinators to ensure that 
infrastructure communications restoration efforts are supported by and 
consistent with FEMA tactical communications support to state and local 
response efforts.
    To improve the national response capability, FEMA officials also 
reported in March 2009 that they had defined an integrated response 
framework and five critical disaster emergency communications incident 
support functions--mission operations, facilities, tactical, 
restoration, and planning and coordination. Additionally, the officials 
also reported acquiring assets, assessing networks, and establishing 
prescripted mission assignments to enhance response capabilities. 
Finally, the officials said that FEMA Disaster Emergency Communications 
Division has coordinated the development of 24 state and territory 
disaster emergency communications annexes. They noted that some of 
these state and territorial annexes were used in Hurricanes Gustav and 
Ike, as well as during the Presidential Inauguration to support 
response activities, understand state and local communications 
capabilities, and prepare for any shortfalls that may arise.
    In terms of tactical support, FEMA officials told us that FEMA's 
Mobile Emergency Response Support mission carried out a variety of 
support activities during Hurricanes Gustav and Ike. For example, among 
other activities reported by the officials, FEMA provided mobile 
emergency communications infrastructure to support continuity of local 
government and supported maintenance and repair of communications 
equipment for local first responders on Galveston Island.

Evacuations
    We reported in 2006 that by definition, a catastrophic disaster 
like Hurricane Katrina would impact a large geographic area 
necessitating the evacuation of many people--including vulnerable 
populations, such as hospital patients, nursing home residents, and 
transportation-disadvantaged populations who were not in such 
facilities.

Transportation Assistance
    The Post-Katrina Act amended the Stafford Act to authorize 
transportation assistance to relocate displaced individuals to and from 
alternate locations for short- or long-term accommodations, or to 
return them to their predisaster primary residences.\15\ FEMA officials 
in the Disaster Assistance Directorate told us that they have developed 
a draft policy for implementing the transportation assistance 
authority. They noted that it would require implementation of proposed 
regulatory changes before becoming effective, and as of March 2009, it 
was on hold due to these required changes. In addition, they noted that 
according to FEMA's July 2006 Mass Sheltering and Housing Assistance 
Strategy, if the scale of the evacuation overwhelms affected states' 
sheltering capabilities, FEMA will coordinate and provide air or 
surface transportation in support of interstate evacuation. If the 
evacuated area is without extensive damage to residences, as stated in 
the strategy, FEMA will coordinate and fund return mass transportation 
to the point of transportation origin. If the evacuated area suffered 
extensive damage to residences, eligible evacuees are authorized, with 
host state consent, to use FEMA funding known as Other Needs Assistance 
to purchase return transportation when they are able to do so.
---------------------------------------------------------------------------
    \15\ 42 U.S.C  5189c.

Mass Evacuation Planning and Technical Assistance
    The Post-Katrina Act authorized grants made to state, local, and 
tribal governments through the State Homeland Security Program or the 
Urban Area Security Initiative to be used to establish programs for 
mass-evacuation plan development and maintenance, preparation for 
execution of mass evacuation plans, and exercises.\16\ According to the 
Director of Grants Development and Administration, FEMA informed state, 
local, and tribal governments that they may use the grant awards to 
assist mass evacuation planning via the fiscal year 2008 Homeland 
Security Grant Program written guidance, which covers both grants.
---------------------------------------------------------------------------
    \16\ 6 U.S.C.  321a.
---------------------------------------------------------------------------
    The act also required the FEMA Administrator, in coordination with 
the heads of other federal agencies, to provide evacuation preparedness 
technical assistance to state, local, and tribal governments.\17\ FEMA 
developed the Mass Evacuation Incident Annex to the NRF, which provides 
an overview of mass evacuation functions, agency roles and 
responsibilities, and overall guidelines for the integration of 
federal, state, tribal, and local support for the evacuation of large 
numbers of people during incidents requiring a coordinated federal 
response. However, according to officials in FEMA's Disaster Operations 
Directorate, as of March 10, 2009, FEMA had not finalized the Mass 
Evacuation Incident Annex Operational Supplement to the NRF to provide 
additional guidance for mass evacuations.
---------------------------------------------------------------------------
    \17\ 6 U.S.C.  721.
---------------------------------------------------------------------------
    Officials in FEMA's Disaster Operations Directorate also noted that 
the states participating in FEMA's Catastrophic Disaster Planning 
Initiative-- an effort to strengthen response planning and capabilities 
for select scenarios (e.g., a Category 5 hurricane making landfall in 
southern Florida)--benefit from detailed federal, state, and local 
catastrophic planning that includes examination of evacuation topics. 
These states include Florida, Louisiana, California, and the eight 
Midwestern states in the New Madrid Seismic Zone. National Preparedness 
Directorate officials also told us that FEMA had conducted mass 
evacuation workshops in Georgia and Florida and had provided technical 
assistance to the state of Louisiana, helping to develop a mass 
evacuation plan. FEMA officials told us that this plan--the Gulf Coast 
Evacuation Plan--was successfully implemented during Hurricane Gustav 
to evacuate 2 million people from New Orleans within 48 hours of the 
incident using a multimodal approach (air, bus, and rail) and to enable 
their return within 4 days.
    The Post-Katrina Act requires FEMA to provide mass evacuation 
planning assistance to institutions that house individuals with special 
needs upon request by a state, local, or tribal government.\18\ FEMA 
officials in the Disaster Operations Directorate told us that they had 
not received any requests for such assistance. These officials said 
that the draft Mass Evacuation Incident Annex Operational Supplement 
will include a tab on evacuation issues related to people with special 
needs and, once issued, can provide guidance to hospitals, nursing 
homes, and other institutions that house individuals with special 
needs. Officials from FEMA's National Preparedness Directorate also 
noted that the Homeland Security Preparedness Technical Assistance 
Program provides technical assistance upon request to jurisdictions 
interested in planning for mass evacuations. Additionally, they said 
the directorate was developing evacuation and reentry planning guidance 
for use by state and local governments, which is scheduled for interim 
release in the summer of 2009.
---------------------------------------------------------------------------
    \18\ 6 U.S.C.  321a(c)(2).

Evacuation for Special Needs Populations
    In establishing a Disability Coordinator within FEMA to ensure that 
the needs of individuals with disabilities are addressed in emergency 
preparedness and disaster relief, the Post-Katrina Act charged the 
Disability Coordinator with specific evacuation-related 
responsibilities, among other things. First, the act required the 
coordinator to ensure the coordination and dissemination of model 
evacuation plans for individuals with disabilities. Second, the act 
charged the coordinator with ensuring the availability of accessible 
transportation options for individuals with disabilities in the event 
of an evacuation.\19\ At the time of our 2008 report, FEMA had efforts 
under way for each provision, but provided little specific detail on 
the status of those efforts. The Disability Coordinator told us that 
FEMA was in the process of developing model evacuation plans for people 
with disabilities. She also told us that FEMA had begun to work with 
state emergency managers to help develop evacuation plans that include 
accessible transportation options, and that FEMA was working with 
states to develop paratransit options as well as to coordinate the use 
of accessible vans for hospitals and nursing homes.
---------------------------------------------------------------------------
    \19\ 6 U.S.C.  321b(b)(4), (b)(8).

Family and Child Locators
    In 2006, we conducted work examining the nation's efforts to 
protect children after the Gulf Coast hurricanes and identified 
evacuation challenges for this population. We noted that thousands of 
children were reported missing to the National Center for Missing and 
Exploited Children, which used its trained investigators to help locate 
missing children after the evacuation. Officials from this Center 
stated that both the American Red Cross and FEMA had some information 
on the location of children in their databases; however, they said it 
was difficult to obtain this information because of privacy concerns. 
These officials told us that standing agreements for data sharing among 
organizations tracking missing children, the Red Cross, and FEMA could 
help locate missing persons more quickly.
    The Post-Katrina Act established two mechanisms to help locate 
family members and displaced children. First, the act established the 
National Emergency Child Locator Center within the National Center for 
Missing and Exploited Children and enumerated the responsibilities of 
the center, among other things, to provide technical assistance in 
locating displaced children and assist in the reunification of 
displaced children with their families.\20\ Second, the act required 
the FEMA Administrator to establish the National Emergency Family 
Registry and Locator System to help reunify families separated after an 
emergency or major disaster.\21\
---------------------------------------------------------------------------
    \20\ 6 U.S.C.  774.
    \21\ 6 U.S.C.  775.
---------------------------------------------------------------------------
    The National Emergency Child Locator Center and the Family Registry 
and Locator System have each established a hotline and a Web site. The 
family locator system has a mechanism to redirect any request to search 
for or register displaced children to the National Emergency Child 
Locator Center.
    FEMA officials told us in March 2009 that the family locator system 
was activated and used during Hurricanes Gustav and Ike after it was 
determined that the coastal evacuations of Louisiana and Texas would 
involve millions of people. Once activated, FEMA's Public Affairs 
Office informed the media in the affected areas about the availability 
of the service. Officials noted that use of the family locator system 
during Hurricane Gustav resulted in 558 registrants and 862 searches, 
and use during Hurricane Ike resulted in 1,162 registrants and 1,034 
searches. The National Emergency Child Locator Center was not 
activated, but three referrals (one during Hurricane Gustav and two 
during Hurricane Ike) were forwarded to the National Center for Missing 
and Exploited Children through the family locator system Web site.
    At the time of our 2008 report, FEMA had established a memorandum 
of understanding (MOU), effective March 6, 2007, with the following 
organizations: the Department of Justice, the Department of Health and 
Human Services, the National Center for Missing and Exploited Children, 
and the American Red Cross that, among other things, requires signatory 
agencies to participate in a cooperative agreement, and for FEMA, 
through the National Emergency Family Registry and Locator System, to 
provide relevant information to the National Emergency Child Locator 
Center. The Disaster Assistance Directorate Unit Leader told us that 
the child locator center was, at that time, in the process of 
finalizing cooperative agreements with federal and state agencies and 
other organizations such as the American Red Cross to help implement 
its mission. FEMA officials told us that, as of March 2009, a 
cooperative agreement between FEMA and the National Center for Missing 
and Exploited Children was being finalized. They said they expected the 
agreement to be tested during the 2009 hurricane season.

Logistics
    We reported in 2006 that our work and that of others indicated that 
logistics systems--the capability to identify, dispatch, mobilize, and 
demobilize and to accurately track and record available critical 
resources throughout all incident management phases--were often totally 
overwhelmed by Hurricane Katrina. Critical resources apparently were 
not available, properly distributed, or provided in a timely manner. 
The result was duplication of deliveries, lost supplies, or supplies 
never being ordered.
    FEMA is responsible for coordinating logistics during disaster 
response efforts, but during Hurricane Katrina, FEMA quickly became 
overwhelmed, in part because it lacked the people, processes, and 
technology to maintain visibility--from order through final delivery--
of the supplies and commodities it had ordered. Similarly, our 2006 
work examining the coordination between FEMA and the Red Cross to 
provide relief to disaster victims found that FEMA did not have a 
comprehensive system to track requests for assistance it received from 
the Red Cross on behalf of voluntary organizations and state and local 
governments for items such as water, food, and cots.The Post-Katrina 
Act required FEMA to develop an efficient, transparent, and flexible 
logistics system for procurement and delivery of goods and services 
necessary for an effective and timely emergency response.\22\
---------------------------------------------------------------------------
    \22\ 6 U.S.C.  724.

Logistics Management
    In November 2008, we reported that FEMA had taken multiple actions 
to improve its logistics management. First, seeking to develop an 
effective and efficient logistics planning and operations capability, 
FEMA elevated its logistics office from the branch to the directorate 
level, establishing the Logistics Management Directorate (LMD) in April 
2007.
    Second, FEMA and the U.S. General Services Administration--FEMA's 
colead for Emergency Support Function 7 \23\--sponsored the National 
Logistics Coordination Forum in March 2008. The forum was intended to 
open a dialogue between the sponsors and their logistics partners, and 
to discuss how to better involve the private sector in planning for and 
recovering from disasters. The forum was attended by representatives 
from other federal agencies, public and private sector groups, 
nongovernmental organizations, and other stakeholders.
---------------------------------------------------------------------------
    \23\ Under Emergency Support Function 7: Logistics Management and 
Resource Support, FEMA is responsible for providing a comprehensive 
national disaster logistics planning, management, and sustainment 
capability that uses the resources of federal partners, public and 
private groups, and other stakeholders to meet disaster response and 
recovery needs.
---------------------------------------------------------------------------
    Third, to improve its supply chain management, FEMA brought in a 
supply chain expert from the United Parcel Service through its Loaned 
Executive Program. FEMA also has a Private Sector Office to exchange 
information on best practices and to facilitate engagement with the 
private sector. In addition, FEMA established a Distribution Management 
Strategy Working Group in January 2008 to analyze and develop a 
comprehensive distribution and supply chain management strategy.
    Finally, in 2007, FEMA conducted the Logistics Management 
Transformation Initiative, a comprehensive assessment of FEMA's 
logistics planning, processes, and technology. LMD officials intend for 
this initiative to help inform the development of a long-term strategy 
to transform FEMA's business processes and identify information 
technology development opportunities. According to LMD officials, FEMA 
plans to complete this transformation by 2009, and review and refine 
business processes by 2014.
    We noted in our November 2008 report, as an area to be addressed, 
that the DHS Office of Inspector General reported in May 2008 that, 
while FEMA had developed a logistics planning strategy that calls for 
developing three levels of logistics plans (strategic, operational, and 
tactical), the FEMA Incident Logistics Concept of Operations and a 
Logistics Management Operations Manual were still in draft.

Total Asset Visibility
    Our 2006 findings about logistics challenges included FEMA's 
inability to maintain visibility over supplies, commodities, and 
requests for assistance. As of August 1, 2008, FEMA had fully 
implemented Total Asset Visibility (TAV) programs in FEMA Regions IV 
and VI to manage and track, electronically and in real time, the 
movement of its disaster commodities and assets. At that time, 
according to FEMA LMD officials, TAV was partially available in the 
other eight FEMA regions. FEMA officials told us in March 2009 that the 
strategy to fully implement TAV by 2011 was undergoing a comprehensive 
review. LMD had restricted spending to critical mission functions, 
pending completion of the review. In the meantime, they said LMD would 
focus on capabilities that could have the most significant impact 
during the 2009 hurricane season, specifically, the aspect of TAV used 
for warehouse management and the aspect that would allow FEMA to use 
the system to order materials and from and track shipments of its 
response partners. Initially LMD is working with four partners--the 
Defense Logistics Agency, the General Services Administration, the U.S. 
Army Corps of Engineers, and the American Red Cross. According to LMD 
officials, at the time of our November 2008 report, the aspect of TAV 
FEMA uses for warehouse management was only available at distribution 
centers in Atlanta, Georgia, and Fort Worth, Texas. The officials 
stated that FEMA expected to deploy the warehouse management portion of 
TAV to the other six FEMA distribution centers--in Berryville, 
Virginia; Frederick, Maryland; San Jose, California; Guam; Hawaii; and 
Puerto Rico--in fiscal years 2009 and 2010. Further, the officials said 
that shipments from FEMA's logistics partners were not yet tracked 
through TAV, but FEMA and the four initial partners were working to 
provide full visibility of critical shipments to disaster areas.
    FEMA officials told us in March 2009 that during Hurricanes Gustav 
and Ike, they used TAV to create and track commodity requirements 
fulfilled by FEMA or its partners and to track FEMA shipments in-
transit. The officials noted that they were not able to track shipments 
from partners before they arrived at FEMA sites but that deficiency 
could be corrected when the partner-tracking aspect of TAV was fully 
implemented. They also said they used TAV's warehouse management 
system, where available, to track and manage shipments, receipts and 
inventory for eight critical commodities daily. Other commodities that 
could not yet be tracked through TAV's warehouse management system had 
to be manually entered into the system. Finally, they said they used 
TAV to track in-transit visibility of ambulances, buses, and temporary 
housing units.
    In March 2009, FEMA officials also shared four major lessons 
learned and planned corrective actions resulting from the response to 
Hurricanes Ike and Gustav. The four lessons learned related to: (1) 
inconsistent use of TAV in the field during Hurricane Ike, (2) lack of 
TAV specialists to support all distribution sites, (3) slow and 
unreliable connectivity to the TAV system, and (4) use of standard 
operating procedures. To address inconsistent use of TAV, FEMA 
officials say they have increased standardized training and awareness 
at all levels within FEMA and have developed a TAV communications plan 
intended increase awareness of TAV capabilities. To address issues with 
the availability of TAV specialists, FEMA officials told us they have 
identified and screened additional TAV specialists, are planning to 
hire additional Disaster Assistance Employees, and are planning to 
crosstrain additional employees. To address connectivity issues, FEMA 
officials said they are testing use of portable satellite equipment and 
scanners that are hardwired to a satellite. They also said they are 
seeking to use extended wireless access to support operations during 
the 2009 hurricane season. To address issues with standard operating 
procedures, FEMA officials said they are reviewing and updating the 
procedures and reemphasizing the appropriate use of TAV through 
training.

Mass Care
    Mass care is the capability to provide immediate shelter, feeding 
centers, basic first aid, and bulk distribution of needed items and 
related services to affected persons. As we reported in 2006, during 
Hurricane Katrina, charities and government agencies that provide human 
services, supported by federal resources, helped meet the mass care 
needs of the hundreds of thousands of evacuees. The Post-Katrina Act 
contained multiple provisions aimed at strengthening capabilities to 
provide for immediate mass care and sheltering needs, particularly for 
special needs populations.

Accelerated Federal Assistance
    The Post-Katrina Act amended the Stafford Act to authorize the 
President to provide accelerated federal assistance in the absence of a 
specific request where necessary to save lives, prevent human 
suffering, or mitigate severe damage in a major disaster or emergency. 
The act required the President to promulgate and maintain guidelines to 
assist governors in requesting the declaration of an emergency in 
advance of a disaster event.\24\ FEMA issued an interim Disaster 
Assistance Policy in July 2007, which provides guidelines to assist 
governors in requesting the declaration of an emergency in advance of a 
disaster.
---------------------------------------------------------------------------
    \24\ 42 U.S.C.  5170a(5), 5192(a)(8), (c).
---------------------------------------------------------------------------
    According to officials in FEMA's Disaster Operations Directorate, 
FEMA has established a program to preposition goods and services in 
advance of a potential disaster. For example, the officials explained 
that FEMA was able to respond quickly to a state that had been affected 
by ice storms because the agency, acting without an initial request 
from the state, had prepositioned goods in advance of the storms. FEMA 
officials told us FEMA was reviewing a draft policy directive that 
would allow FEMA to provide federal assistance without a declaration if 
a state would agree to assume the normal cost share after a declaration 
has been made or to assume total cost if no declaration is made.

Special Needs Populations
    In establishing a Disability Coordinator within FEMA to ensure that 
the needs of individuals with disabilities are addressed in emergency 
preparedness and disaster relief, the Post-Katrina Act charged the 
coordinator with coordinating and disseminating best practices for 
special needs populations.\25\ The Disability Coordinator shared with 
us two such practices that were in progress at the time of our November 
2008 report. First, FEMA was developing ``go kits'' for people with 
developmental impairments, the hearing impaired, and the blind. The go 
kits are to contain visual and hearing devices. For example, the go kit 
for the hearing impaired will include a teletypewriter, a keyboard with 
headphones, and a clipboard with sound capabilities. The go kits are to 
be stored in the regions and include a list of their contents and 
directions for use. Second, the Disability Coordinator said FEMA was 
developing a handbook for federal, state, and local officials to use in 
the field to help them better accommodate those with disabilities.
---------------------------------------------------------------------------
    \25\ 6 U.S.C. 321b(b)(4).
---------------------------------------------------------------------------
    In addition, the Post-Katrina Act required that the FEMA 
Administrator, in coordination with the National Advisory Council, the 
National Council on Disabilities, the Interagency Coordinating Council 
on Preparedness and Individuals with Disabilities, and the Disability 
Coordinator, develop guidelines to accommodate individuals with 
disabilities.\26\
---------------------------------------------------------------------------
    \26\ 6 U.S.C. 773.
---------------------------------------------------------------------------
    FEMA has published a reference guide titled Accommodating 
Individuals with Disabilities in the Provisions of Disaster Mass Care, 
Housing, and Human Services. The reference guide describes existing 
legal requirements and standards relating to access for people with 
disabilities, with a focus on equal access requirements related to mass 
care, housing, and human services. The reference guide states that it 
is not intended to satisfy all of the guideline requirements contained 
in the Post-Katrina Act.
    In addition to the reference guide, FEMA released for public 
comment guidance titled Interim Emergency Management Planning Guide for 
Special Needs Populations. This interim guidance--also known as the 
Comprehensive Preparedness Guide (CPG) 301--addressed some of the 
requirements contained in the Post-Katrina Act, such as access to 
shelters and portable toilets and access to emergency communications 
and public information. However, it did not address other requirements, 
such as access to first-aid stations and mass-feeding areas.
    FEMA officials told us in March 2009 that they had received final 
comments on CPG 301 and expected to release the final document in 
spring 2009. In addition, FEMA officials stated that they have 
developed additional guidance for the Functional Needs Support Unit, 
which they expect to publish by the end of March 2009. According to the 
interim version of CPG 301, the Functional Needs Support guidance will 
serve as a template for developing sheltering plans for special needs 
populations. Once the Functional Needs Support program is in place, the 
Functional Needs Support Unit can be used in shelters, so that trained 
and certified shelter staff will be assigned to serve as caregivers and 
provide the assistance normally supplied by a family member or 
attendant. FEMA officials told us that the agency will contract to 
provide training to states and localities on how to implement the 
Functional Needs Support guidance--such as how to provide staff, 
caregivers, durable medical equipment, and facility access.
    FEMA officials stated that, in the absence of completed guidance 
for the 2008 hurricane season, shelters received the Justice 
Department's Americans with Disabilities Act Checklist for Emergency 
Shelters. They also said that the 2008 hurricane season highlighted the 
need for a standardized but scalable approach to sheltering special 
needs populations, with attention given to durable medical equipment, 
caregivers, trained staff, and special diets for evacuees.

Planning and Exercises
    As we reported in 2006, ensuring that needed capabilities are 
available requires effective planning and coordination, as well as 
training and exercises, in which the capabilities are realistically 
tested, and problems identified and lessons learned and subsequently 
addressed in partnership with other federal, state, and local 
stakeholders. Clear roles and coordinated planning are necessary, but 
not sufficient by themselves to ensure effective disaster management. 
It is important to test the plans and participants' operational 
understanding of their roles and responsibilities through robust 
training and exercise programs.

National Exercise and Training Programs
    The Post-Katrina Act required the FEMA Administrator, in 
coordination with the heads of appropriate federal agencies, the 
National Council on Disabilities, and the National Advisory Council, to 
carry out a national training program and a national exercise 
program.\27\ FEMA's National Preparedness Directorate has established a 
National Exercise Program. According to officials from FEMA's National 
Preparedness Directorate, the National Exercise Program conducts four 
Principal-Level Exercises and one National-Level Exercise annually. 
These FEMA officials said that the Principal-Level Exercises are 
discussion-based (i.e., tabletop or seminar) to examine emerging issues 
and that one is conducted in preparation for the annual National-Level 
Exercise. The National-Level Exercises are operations-based exercises 
(drills, functional exercises, and full-scale exercises) intended to 
evaluate existing national plans and policies, in concert with other 
federal and nonfederal entities. We have ongoing work examining the 
National Exercise Program, and we expect to publish a report on the 
results of our work this spring.
---------------------------------------------------------------------------
    \27\ 6 U.S.C.  748.
---------------------------------------------------------------------------
    FEMA's Deputy for National Preparedness told us that DHS and FEMA 
were developing the Homeland Security National Training Program to 
oversee and coordinate homeland security training programs, increase 
training capacity, and ensure standardization across programs.

National Exercise Simulation Center
    The Post-Katrina Act also required the President to establish a 
National Exercise Simulation Center (NESC) that uses a mix of live, 
virtual, and constructive simulations to, among other things, provide a 
learning environment for the homeland security personnel of all federal 
agencies, and that uses modeling and simulation for training, 
exercises, and command and control functions at the operational 
level.\28\
---------------------------------------------------------------------------
    \28\ 6 U.S.C.  764.
---------------------------------------------------------------------------
    According to FEMA officials, FEMA has been using FEMA Simulation 
Centers, Department of Defense facilities, and other facilities to 
support exercise simulation while it develops the NESC. For example, 
FEMA officials said that FEMA has provided initial exercise simulation 
support for exercises requiring the two highest levels of federal 
interagency participation in the National Exercise Program. According 
to an official in FEMA's National Integration Center, the NESC is 
currently under development and is estimated to take 3 to 4 years to 
fully establish.

Remedial Action Management Program
    The Post-Katrina Act also required the FEMA Administrator, in 
coordination with the National Council on Disabilities and the National 
Advisory Council, to establish a remedial action management program to, 
among other things, track lessons learned and best practices from 
training, exercises, and actual events.\29\
---------------------------------------------------------------------------
    \29\ 6 U.S.C.  750.
---------------------------------------------------------------------------
    FEMA launched the Remedial Action Management Program (RAMP) in 2003 
and released it as a Web application for all FEMA intranet users in 
January 2006. RAMP uses FEMA facilitators to conduct sessions 
immediately after exercises or events, and these facilitators are 
responsible for developing issue descriptions for remedial actions. In 
addition, FEMA has a related program called the Corrective Action 
Program (CAP) that is to be used for governmentwide corrective action 
tracking by federal, state, and local agencies. While RAMP is FEMA's 
internal remedial action program, CAP is designed to serve as an 
overarching program for linking federal, state, and local corrective 
actions. FEMA developed RAMP prior to enactment of the Post-Katrina 
Act. However, FEMA has not yet established any mechanisms to coordinate 
ongoing implementation of RAMP or CAP with the National Council on 
Disabilities or the National Advisory Council. We have ongoing work 
related to FEMA's efforts to track corrective actions from exercises 
and actual events. We plan to publish a report this spring.

Human Capital Issues
    In 2006, we reported that the various Congressional reports and our 
own work on FEMA's performance before, during, and after Hurricane 
Katrina suggest that FEMA's human resources were insufficient to meet 
the challenges posed by the unprecedented degree of damage and the 
resulting number of hurricane victims.

Surge Capacity
    The Post-Katrina Act requires the FEMA Administrator to prepare and 
submit to Congress a plan to establish and implement a Surge Capacity 
Force for deployment to disasters, including catastrophic incidents. 
The act requires the plan to include procedures for designation of 
staff from other DHS components and executive agencies to serve on the 
Surge Capacity Force. It also required that the plan ensure that the 
Surge Capacity Force includes a sufficient number of appropriately 
credentialed individuals capable of deploying to disasters after being 
activated, as well as full-time, highly trained, credentialed 
individuals to lead and manage.\30\
---------------------------------------------------------------------------
    \30\ 6 U.S.C.  711.
---------------------------------------------------------------------------
    The Director of FEMA's Disaster Reserve Workforce explained that 
unlike in the military model, FEMA's disaster reservists are the 
primary resource for disaster response and recovery positions, filling 
70--80 percent of all Joint Field Office positions. FEMA has 
interpreted Surge Capacity Force to include its Disaster Reserve 
Workforce of 5,000--6,000 reserve Disaster Assistance Employees, who 
are full-time and contract staff. If additional capacity is necessary, 
another approximately 2,000 Disaster Assistance Employees are available 
to perform immediate, nontechnical functions that require large numbers 
of staff. Other sources FEMA has identified include local hires--
additional staff hired from the affected area to perform the same 
functions as disaster reservists; contract support for activities that 
require specialized skill sets and for general disaster assistance 
functions; other full-time FEMA staff detailed to perform disaster 
assistance work; and other resources--particularly employees from other 
DHS components--detailed to perform disaster assistance work. FEMA's 
Disaster Reserve Workforce provided information on the deployment of 
FEMA workforce in response to Hurricanes Gustav and Ike, as outlined in 
table 1.

                      Table 1: Workforce Deployment during Hurricanes Ike and Gustav, 2008
----------------------------------------------------------------------------------------------------------------
   Disaster  reserve                                           Permanent full    Temporary full
       workforce            Local  hire           Other             time              time            Total
----------------------------------------------------------------------------------------------------------------
               1,987                  4                  1               486               46            2,524
               3,127                213                  2               519               62            3,923
----------------------------------------------------------------------------------------------------------------

<SUP>Source</SUP> FEMA.
    </SUP>FEMA contracted to perform a baseline assessment and 
preliminary design for professionalizing the Disaster Reserve Workforce 
and its supporting program management function, including FEMA's Surge 
Capacity Force planning. The contractor developed a preliminary design 
for the Disaster Reserve Workforce, which included an organizational 
concept, workforce size and composition, concept of operations, and a 
policy framework. An Interim Surge Capacity Force Plan was announced in 
a meeting of the DHS Human Capital Council in March 2008 and 
communicated to the heads of DHS components in a May 2008 memorandum 
from the FEMA Administrator.
    Despite the initial actions FEMA has taken to assess its baseline 
capabilities and draft an interim Surge Capacity Force Plan, according 
to the Director of the Disaster Workforce Division, FEMA has not yet 
provided Congress with a plan for establishing and implementing a Surge 
Capacity Force. The director stated that her goal is to submit a plan 
to implement a surge capacity force by summer 2009 with timelines and 
information on select--but not all--positions in the disaster reserve 
workforce.
    In May 2008, FEMA sent a list of job titles and positions needed in 
the Surge Capacity Force to all DHS Human Capital Officers and asked 
them to identify approximately 900 employees throughout DHS for the 
Surge Capacity Force. According to the director of the Disaster Reserve 
Workforce Division, the initial DHS Agency Surge Capacity designation 
lists were submitted in June 2008. However, she stated that upon 
review, there were inconsistencies with the different agencies' 
interpretation of requirements for personnel, training, and skill sets. 
Therefore, a Surge Capacity Force Working Group met to review surge 
staffing requirements and to develop a timeline for the development of 
processes and a Concept of Operations Plan. Agency participants in the 
working group included FEMA, the Transportation Security 
Administration, and U.S. Citizenship and Immigration Services. The 
Disaster Reserve Workforce Division told us that, as of March 2009, a 
draft of the Concept of Operations Plan was being reviewed within these 
three component agencies and a final product is expected to be 
delivered for DHS review by June 30, 2009. According to the Disaster 
Reserve Workforce Division, because internal FEMA resources were 
sufficient to respond effectively to Hurricanes Gustav and Ike, FEMA 
did not require the assistance of other federal agency employees for 
those events.
    The Disaster Reserve Workforce Division, in partnership with FEMA's 
Emergency Management Institute, has been developing standardized 
credentialing plans, which will incorporate existing position task 
books for the Disaster Assistance Employee workforce (a total of 230 
positions organized in 23 cadres). FEMA officials told us in March 2009 
that they had either initiated development of or completed 
credentialing plans for 102 positions. They said they expected to 
complete the remaining credentialing plans for all cadres and positions 
by spring 2010. Disaster Reserve Workforce Division officials explained 
that development of the credentialing plans in conjunction with the 
position task books will highlight gaps in the training curriculum that 
will assist in prioritizing curriculum development.
    Apart from the Disaster Reserve Workforce Division's credentialing 
initiative, the FEMA workforce is to be credentialed by the National 
Preparedness Directorate's NIMS credentialing program, the 
administrative process for validating the qualifications of personnel, 
assessing their background, and authorizing their access to incidents 
involving mutual aid between states. FEMA officials told us in March 
2009 that the NIMS Credentialing Guideline was posted to the Federal 
Register and issued for public comment on December 22, 2008, and the 
comment period closed on January 21, 2009. They said comments have been 
collected and were to be adjudicated March 11, 2009. According to the 
officials, following adjudication, the guideline is to be revised and 
submitted to the Executive Secretariat for formal FEMA adoption and 
release. According to FEMA officials, experiences from the 2008 
hurricane season confirmed the basic need for the credentialing 
program.

Strike Teams and Emergency Response Teams
    The Post-Katrina Act requires each FEMA Regional Office to staff 
and oversee one or more strike teams within the region to serve as the 
focal point of the federal government's initial response efforts and to 
build federal response capabilities within their regions.\31\ The act 
also requires the President, acting through the FEMA Administrator to 
establish emergency response teams (at least three at the national 
level and a sufficient number at the regional level).\32\
---------------------------------------------------------------------------
    \31\ 6 U.S.C.  317(c)(2)(D).
    \32\ 42 U.S.C.  5144(b)(1).
---------------------------------------------------------------------------
    According to Disaster Operations Directorate officials, ``strike 
teams'' and ``emergency response teams,'' the Post-Katrina Act's terms 
for the support teams deployed to assist in major disasters and 
emergencies under the Stafford Act, are now called Incident Management 
Assistance Teams (IMAT). IMATs are interagency national- or regional-
based teams composed of subject matter experts and incident-management 
professionals, and are designed to manage and coordinate national 
response emergencies and major disasters. According to the officials, 
Regional Administrators oversee IMATs based within their regions. IMAT 
personnel are intended to be permanent, full-time employees whose 
duties and responsibilities are solely focused on their IMAT functions. 
The officials said that the IMATs' other functions include working with 
state and local emergency managers to plan, prepare, and train for 
disasters; running exercises; and building relationships with emergency 
managers and other IMAT personnel. National IMATs are to consist of 26 
positions, including a designated team leader and senior managers for 
operations, logistics, planning, and finance and administration 
sections. This sectional organization mirrors the incident command 
structure presented in the NIMS.
    FEMA has established a national IMAT in the National Capital Region 
and a second national IMAT in Sacramento, California, according to FEMA 
officials in the Disaster Operations Directorate. At the regional 
level, Disaster Operations Directorate officials said that IMATs had 
been established in FEMA Regions II, IV, V, and VI. According to these 
officials, they are in the process of establishing a fifth regional 
IMAT in Region VII, to become operational later this year. They said 
that FEMA's intention is to establish IMATs in all 10 regions by the 
end of fiscal year 2010 and a third national team in fiscal year 2011.
    According to FEMA officials in the Disaster Operations Directorate, 
although the National IMAT established in the National Capital Region 
was fully staffed, when we reported in November 2008, some IMAT 
positions were not yet filled with permanent full-time employees, but 
rather with FEMA detailees who had been selected for their advanced 
training and expertise. In general, the detailees were to provide 
guidance and support to the permanent full-time employees until the 
teams were fully staffed with personnel capable of managing their 
respective IMATs.
    According to officials in FEMA's Disaster Operations Directorate, 
at the time of our November 2008 report, FEMA had procured personal 
equipment for IMAT members and had ordered communications vehicles. In 
addition, the National IMAT had participated in the National-Level 
Exercise 2008. Also, Disaster Operations Directorate officials told us 
that IMATs supported a number of disasters and special events in 2008 
(including recent storms and hurricanes and the Democratic and 
Republican National Conventions).
    FEMA has established mandatory training courses for all IMAT 
personnel, in addition to the standard training required for all FEMA 
employees. According to officials in FEMA's Disaster Operations 
Directorate, they have been implementing a credentialing program for 
the IMATs. FEMA planned to incorporate training and credentialing for 
all hazards by identifying core competencies required for each IMAT 
position and assessing the competencies against existing task 
descriptions to guide the development of mandatory training and 
credentialing plans. According to these officials, as of March 2009, a 
draft of the credentialing plan was under review and they indicated 
that the credentialing process will be consistent with FEMA's Disaster 
Workforce Credentialing Plan.
    At the time of our November 2008 report, Disaster Operations 
Directorate officials told us that FEMA was finalizing an IMAT doctrine 
and a Concept of Operations Plan. However, FEMA did not describe to us 
how it established or intended to establish target capabilities for the 
IMATs, which are required by the Post-Katrina Act as the basis for 
determining whether the IMATs consist of an adequate number of properly 
planned, organized, equipped, trained, and exercised personnel.\33\
---------------------------------------------------------------------------
    \33\ 3342 U.S.C.  5144(b)(2)-(3).

Accountability
    Our 2006 report noted that when responding to the needs of the 
victims of a catastrophic disaster, FEMA must balance controls and 
accountability mechanisms with the immediate need to deliver resources 
and assistance in an environment where the agency's initial response 
efforts must focus on life-saving and life-sustaining tasks. We 
reported in February 2006 that weak or nonexistent internal controls in 
processing applications left the government vulnerable to fraud and 
abuse, such as duplicative payments.\34\ We estimated that through 
February 2006, FEMA made about 16 percent ($1 billion) in improper and 
potentially fraudulent payments to applicants who used invalid 
information to apply for disaster assistance.
---------------------------------------------------------------------------
    \34\ See GAO, Expedited Assistance for Victims of Hurricanes 
Katrina and Rita: FEMA's Control Weaknesses Exposed the Government to 
Significant Fraud and Abuse, GAO-06-403T (Washington, D.C.: Feb. 13, 
2006).
---------------------------------------------------------------------------
    The Post-Katrina Act required the development of a system, 
including an electronic database, to counter improper payments in the 
provision of assistance to individuals and households.\35\
---------------------------------------------------------------------------
    \35\ 42 U.S.C.  5174(i).
---------------------------------------------------------------------------
    FEMA has established a process to identify and collect duplicative 
Individual and Households Program (IHP) payments. This process 
includes, among other things, FEMA's disaster assistance database 
automatically checking specific data fields in every applicant record 
for potentially duplicate applications, having a FEMA caseworker and a 
supervisor review potentially duplicate applications to determine if 
FEMA is entitled to collect a payment already made, and notifying the 
applicant of FEMA's decision to collect a duplicate payment while 
providing an appeal process for the applicant.
    In addition, FEMA provides applicants with a copy of its 
application and a program guide, Help after a Disaster: Applicant's 
Guide to the Individuals and Households Program. Updated and reissued 
in July 2008, this guide provides applicants with information on the 
proper use of IHP payments.
    Moreover, according to FEMA, the agency established identity 
verification processes, which include verifying that the applicant's 
social security number is valid, matches the applicant's name, and does 
not belong to a deceased individual. Further, FEMA reported that it has 
implemented procedures to validate that the address an applicant 
reports as damaged was the applicant's primary residence during the 
time of the disaster and that the address is located within the 
disaster-affected area.
    According to FEMA's Information Technology Report submitted to 
Congress in September 2007 under section 640 of the Post-Katrina 
Act,\36\ FEMA uses the National Emergency Management Information System 
to perform numerous disaster-related activities, including providing 
disaster assistance to individuals and communities. Although this 
system interfaces with FEMA's financial accounting system through a 
special module, FEMA has not yet taken action to ensure that applicant 
information collected in the system is integrated with disbursement and 
payment records to determine ineligible applicants.
---------------------------------------------------------------------------
    \36\ 6 U.S.C.  727(b).
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, this concludes my 
statement. I would be pleased to respond to any questions you a or 
other Members of the Committee may have.

    Mr. Cuellar. Thank you, Mr. Jenkins, for your testimony.
    At this time, I recognize Mr. Gruber to summarize his 
statement for 5 minutes.

           STATEMENT OF COREY GRUBER, ACTING DEPUTY 
     ADMINISTRATOR, NATIONAL PREPAREDNESS DIRECTORATE, FEMA

    Mr. Gruber. Good morning, Chairman Cuellar, Ranking Member 
Rogers, and other distinguished members of the subcommittee.
    It is a privilege to appear before you today on behalf of 
the department and FEMA. As always, we appreciate your interest 
in emergency management and your continued support, and 
particularly for FEMA's progress in implementing the provisions 
of the Post Katrina Emergency Management Reform Act, which I 
will refer to as PKEMRA.
    While some system-wide reforms will take time, we are proud 
of the progress that we have made to date in becoming a more 
engaged, agile, responsive, and trusted leader and partner. I 
would like to highlight a few of our primary achievements and 
progress.
    FEMA has developed and deployed incident management 
assistance teams that are often the earliest federal presence 
on scene, serving as liaisons to state and local officials, and 
providing situational awareness and needs assessments.
    The national IMAT east and the region four IMAT were 
recently supported to 2008 inauguration activities. In 
collaboration with our other federal partners, we simplified 
and unified the application process for disaster assistance. We 
expanded our capability to register those in need of aid, while 
also strengthening our ability to detect and limit fraud and 
abuse in assistance programs.
    In 2007, the president directed FEMA to establish a single 
application process for all the systems programs. We completed 
this disaster assistance improvement plan on December 31st of 
2008. This online disaster relief application can be accessed 
at disasterassistance.gov.
    We recently completed the pilot--the public assistance 
pilot program, authorized by PKEMRA, and expect a report on the 
effectiveness of that program to be delivered to Congress in 
short order.
    FEMA established a national emergency family register and 
locator system and a national emergency child locator center to 
help those displaced find their loved ones. We have worked with 
our partners to provide basic life support, first aid, and 
education, as well as all-hazards preparedness training to 
children grades one through seven, caregivers, parents, and 
responders.
    The agency also supports team community emergency response 
training, which targets high school students.
    PKEMRA enabled FEMA to strengthen its partnerships that 
encompass the entire emergency management community through the 
establishment of a small state and rural advocate and a 
national disability coordinator.
    FEMA's greatly benefited from the establishment of the 
National Advisory Council, which provides valuable council on a 
number of initiatives early in the concept development phase to 
solicit feedback and gain stakeholder buy-in before initiatives 
are completed.
    In 2007, FEMA released a national response framework, which 
provides a clear picture of the resources available through the 
federal government and identifies the agencies and programs 
that are brought to bear in disaster response.
    FEMA is implementing for the first time a national planning 
system that will bring consistency to planning at federal, 
regional, state, and local levels. FEMA has greatly improved 
evacuation planning capabilities. We have completed a mass 
evacuation and incident annex to the NRF, and a supporting 
supplement is under development.
    Using the plan, FEMA assisted its partners with the 
evacuation of more than 2 million people in 48 hours in the 
face of Hurricane Gustav and large-scale medical evacuations 
from Louisiana and Texas.
    Florida has successfully used a plan developed as part of 
FEMA's catastrophic planning initiative in preparation for 
Tropical Storm Fay and Hurricane Hanna.
    One of FEMA's primary reforms during 2007 was empowering 
and increasing the capability and capacity of its regions. One 
of the most significant initiatives is the creation of regional 
advisory councils, our federal preparedness coordinators, 
regional operational planners, and enhanced regional response 
coordination centers.
    FEMA's Logistics Management Directorate has contributed 
significantly to FEMA's forward-leaning posture by putting 
place contracts and interagency agreements that provide an 
enhanced logistics capability.
    The Logistics Management Directorate is upgrading its 
national distribution centers, which are the core of FEMA's 
supply chain transformation. We have made considerable strides 
in contract management and the oversight aspects of 
acquisition, and we are committed to streamlining the process 
of getting disaster aid to victims and determined to be good 
stewards of the disaster relief fund.
    To this end, in 2007, we implemented new software that 
communicates real-time data to case workers to prevent 
duplicate housing payments to applicants already receiving 
assistance through direct housing.
    I think the success of PKEMRA rests in the fact that the 
legislation capitalized on the nature and the prevailing 
instincts and the strengths of our federated system. It has 
empowered FEMA.
    Thank you again for having me today. I am happy to answer 
any questions the committee may have.
    [The statement of Mr. Gruber follows:]

                   Prepared Statement of Corey Gruber

Introduction
    Good Morning Chairman Cuellar, Ranking Member Rogers, and other 
distinguished members of the Subcommittee. It is a privilege to appear 
before you today on behalf of the Department of Homeland Security (DHS) 
and the Federal Emergency Management Agency (FEMA). As always, we 
appreciate your interest in, and continued support of emergency 
management, specifically FEMA's progress in implementing the many 
reforms mandated by the Post Katrina Emergency Management Reform Act, 
hereinafter referred to as PKEMRA.
    As you well know, PKEMRA provided the necessary provisions and 
guidance to help expand the scope of the agency's mission, transform it 
into the nation's preeminent emergency management and preparedness 
agency, and provide the means and authority to build a more nimble and 
flexible national emergency response system. The Act also clarified 
FEMA's responsibilities and its unique role within DHS. PKEMRA also 
greatly expanded our ability to meet our preparedness mission. We 
appreciate the Subcommittee's involvement in building this blueprint, 
which effectively positions FEMA to perform its vital role in helping 
our stakeholders to safeguard the Nation from disruptions by man or 
nature.
    The shortcomings that prompted the PKEMRA clearly didn't happen 
overnight. The implementation of over 250 PKEMRA provisions along with 
the reforms from DHS and FEMA's internal organizational assessments 
have led to the adoption of new ways to prepare our society for a host 
of 21st century challenges. They have transformed the agency into a 
``New FEMA.'' By strengthening its coordination internally and with 
other DHS components, as well as with Federal partners outside of the 
Department, FEMA has improved the Nation's ability to prepare for and 
respond to major disasters and, in particular, those catastrophic 
events that exceed the considerable response capacity of our State, 
local and Tribal partners. Thanks to PKEMRA, FEMA has more tools and 
capacity to lead a risk-based, comprehensive emergency management 
system and address preparedness, protection, response, recovery and 
mitigation missions. These improvements can be seen day-in and day-out 
in FEMA's operations, planning, and assistance.
    While some system-wide reforms will take time, we are proud of the 
progress we have made to date in becoming a more engaged, agile, 
responsive, and trusted leader and partner.

    I'd like to highlight some of our primary achievements and 
progress:
Improving Response Operations, Readiness and Emergency Communications
    The operational tempo we and our partners have faced since 
Hurricane Katrina have given us ample opportunity to test and implement 
many new or enhanced operational capabilities. Upgrades to our national 
and regional operations centers have dramatically improved our 
connectivity and ability to conduct effective coordination and 
integration with other Federal departments and agencies and State 
governments. This has facilitated our ability to develop situational 
awareness and a common operating picture, enabling effective decision-
making. The upgrades to the National Response Coordination Center 
(NRCC) at FEMA headquarters have given us new and improved abilities to 
coordinate and exchange information.
    FEMA has developed and deployed Incident Management Assistance 
Teams (IMATs), our next generation rapidly deployable interagency 
national and regional emergency response ``strike'' teams that are 
often the earliest Federal presence on scene, serving as liaisons to 
State and local officials, providing situational awareness and needs 
assessments. Currently, two National and four Regional IMATs are 
operational. The National and Regional IMATs were instrumental in 
providing on-scene situational awareness during the 2008 hurricane 
responses. All IMATs were deployed to support the responses in Texas 
and Louisiana. Critical on-scene command, control, and communications 
support was provided by IMATs and the Mobile Emergency Response Support 
(MERS) for Houma, Louisiana government officials and the Mayor of 
Galveston, Texas during last year's hurricanes. The National IMAT-East 
and Region IV IMAT recently supported the 2009 Inauguration activities. 
FEMA also manages other disaster response teams and assets that can be 
rapidly deployed to support State and local response operations 
including Urban Search and Rescue (US&R) Task Forces, our Mobile 
Emergency Response Systems (MERS), and Emergency Response Teams (ERT). 
The IMAT hurricane deployments were complementedcomplemented, for 
example, by Urban Search and Rescue (US&R) Task Forces that supported 
Search and Rescue missions--including more than 3,000 rescues in both 
Louisiana and Texas. FEMA can now rapidly deploy telecommunications 
assets during a disaster response to support communications operability 
and interoperability. We are upgrading outdated equipment and procuring 
tactical response vehicles and have also provided direct assistance to 
Gulf and East Coast States in developing State and regional 
communications plans for hurricane season. Our MERS assets continued to 
provide communications support to States/locals, as well as our 
response teams and other interagency response teams.

Improving Assistance to Disaster Affected Areas and Populations
    FEMA, in collaboration with a number of Federal partners, 
simplified and unified the application process for disaster survivors. 
We expanded our capability to register those in need of aid, to include 
providing mobile registration centers that can be on hand to help those 
without access to phones or computers, while also strengthening our 
ability to detect and limit fraud and abuse of assistance programs.
    In 2007, the President directed FEMA to establish a single 
application process for all Federal disaster assistance programs. FEMA 
led an interagency task force in developing and delivering the Disaster 
Assistance Improvement Plan (DAIP) on December 31, 2008. DAIP is an 
online coordinated disaster application process. Disaster survivors can 
access the DAIP at Disaster Assistance.gov.
    Also in 2007, FEMA partnered with the U.S. Department of Housing 
and Urban Development (HUD) to create and pilot the new Disaster 
Housing Assistance Program (DHAP). This new program for eligible 
individuals and households displaced by Hurricanes Katrina and Rita is 
a temporary housing rental assistance and case management program 
administered by HUD on behalf of FEMA. The program's interaction with 
disaster victims is administered by HUD through its existing national 
network of Public Housing Agencies (PHAs). Since the partnership began, 
HUD and FEMA have been working together to ensure that the transition 
of responsibility from one agency to the other is completed as smoothly 
as possible. FEMA has also partnered with the Department of Health and 
Human Services (HHS) to create a disaster case management program that 
can be in place within 72 hours after a declaration and can ensure that 
persons affected by a disaster are connected to disaster assistance, 
health care, mental health, and other social services necessary to make 
them self-sufficient again."
    In addition, FEMA has undertaken many initiatives to improve 
implementation of the Public Assistance Program. We have established a 
Public Assistance Steering Committee composed of senior Public 
Assistance staff in each of our 10 Regions and 10 State 
representatives. The purpose of the Committee is to serve as the Board 
of Directors for the Public Assistance Program and develop the vision, 
strategies and policies to ensure efficient, effective and consistent 
implementation of the program. We recently completed the Public 
Assistance Pilot Program authorized by PKEMRA and expect the report on 
the effectiveness of the pilot program to be delivered to Congress 
soon. FEMA will continue to refine its evacuee hosting guidance, and 
plans to complete five State hosting plans for large numbers of 
evacuees. These State Hosting Plans will help adjacent States that may 
host Gulf Coast evacuees. This effort is designed to synchronize 
separate State evacuation plans to create a more cohesive and unified 
effort. Teams engage with each State to identify requirements and 
capabilities, working to develop a plan that integrates shelter 
planning with transportation planning. The result of these efforts will 
be more organized, timely and better coordinated evacuation by those 
with their own transportation, as well as for those in need of 
assistance in evacuating by bus or air. FEMA is also completing 
enhancements to systems that support mass care and housing activities 
following a disaster,by implementing standard protocols and staff 
training for long-term recovery planning. FEMA will continue to refine 
plans and procedures for managing disaster assistance operations under 
the varying conditions of different catastrophic and extraordinary 
disaster scenarios.
    In FY 2009, FEMA will continue to improve its plans and 
capabilities for managing mass evacuations and the resulting displaced 
populations, including additional State and local plans and development 
and expansion of evacuee tracking systems. The agency will also 
continue to improve, test and exercise its capabilities for all of its 
Individual Assistance functions (mass care, emergency assistance, 
housing, and human services).
    FEMA worked with its partners, the Department of Health and Human 
Services (HHS) and the American Red Cross, to establish and implement a 
National Emergency Family Registry and Locator System and a National 
Emergency Child Locator Center to help those displaced find their loved 
ones. Through the Agency's 2008 Competitive Training Grant Program, we 
have awarded two grants in the amount of $1.7 million and $3.5 million 
to the American College of Emergency Physicians and the Partnership for 
Environmental Technology Education, respectively, to provide basic life 
supporting first aid and education, as well as all hazards preparedness 
training to children (grades 1-7), caregivers, parents and responders. 
The Agency also supports Teen Community Emergency Response Team (CERT) 
training, which targets high school students.

Engaging Federal, State, Tribal, Local, and Private Sector and 
Volunteer Partners
    PKEMRA enabled FEMA to strengthen partnerships that encompass the 
emergency management community and its key communities of interest 
through establishment of a Small State and Rural Advocate and a 
National Disability Coordinator. In keeping with the Act's intent to 
foster engaged partnerships, FEMA also established a Private Sector 
Office and appointed a Senior Law Enforcement Advisor.
    FEMA has greatly benefited from establishment of the National 
Advisory Council (NAC). The NAC is providing invaluable counsel on a 
number of important initiatives, and doing so earlier in the concept 
development phase of initiatives to solicit feedback and gain 
stakeholder buy-in before the initiatives are implemented. Recently, 
FEMA and the NAC coordinated a final review and revision of the 
National Incident Management System (NIMS), during which the NAC 
provided five areas of comments and recommendations to FEMA, all of 
which were welcome and endorsed by FEMA leadership. One example 
includes NAC members' recommendations to strengthen the system by 
advocating for a closer linkage between Incident Command System 
principles that represent best practices in emergency management and 
the Emergency Support Functions that operate during Federal responses 
to disasters. FEMA's coordination with the NAC on NIMS dramatically 
improved the publication and is a ringing endorsement of PKEMRA's goal 
of fostering partnerships that enhance the Nation's emergency 
management and national preparedness systems.
    This strengthened partnership practice has benefited FEMA in its 
engagement with other key stakeholders, such as collaboration with the 
American Red Cross in implementing the National Shelter System. 
Additionally, we are working more closely with States to identify 
potential gaps in functions or commodities where they anticipate 
needing Federal support, and doing so in a manner that is tailored to 
an individual State's needs.
    We are making strenuous efforts to incorporate the feedback, best 
practices and lessons learned from all of our stakeholders into our 
processes, procedures and planning. We have worked with State partners 
over the last two years to do a formal Analysis of Federal 
Requirements, where we cataloged Federal preparedness program 
requirements that were levied on State and local governments, visited a 
large sample of States, and solicited specific recommendations to 
streamline needed, or shed duplicative requirements. Our partners 
provided seventy-five specific recommendations that continue to help 
FEMA find ways to lessen the programmatic and bureaucratic burden on 
its partners where appropriate.

Enhancing Disaster Planning and Other Preparedness Activities
    In 2007, FEMA released the National Response Framework (NRF), which 
provides a clear picture of the resources and assets available through 
the Federal government and clarifies the agencies and programs that are 
brought to bear in disaster response and their role in support of State 
and local officials.
    Moving into FY 2009, FEMA's National Preparedness Directorate (NPD) 
will improve coordination of national exercises with State exercises, 
and will implement--for the first time--a national planning system 
focused on high-risk scenarios that will bring consistency to 
contingency planning at the Federal, Regional, State and local levels. 
By focusing on planning, exercising and evaluations, and more focused 
applications of grant funding, NPD will measurably lead the Nation to a 
higher level of preparedness.
    Another major area of improvement is in Mission Assignments. During 
response operations, FEMA uses the interagency ``Mission Assignment'' 
(MA) process to task and reimburse other Federal Departments and 
Agencies that provide essential disaster response assistance. Greater 
emphasis has been placed on the MA process, to include development of 
Pre-Scripted Mission Assignments (PSMAs), a mechanism used to 
facilitate rapid response. In 2006, FEMA had a total of 44 PSMAs with 2 
Federal agencies in place for support for Hurricane Season. Since then, 
FEMA increased the number of PSMAs in place to 236 with 29 agencies. 
This support ranges from heavy-lift helicopters from the Department of 
Defense (DoD), to generators from the United States Army Corp of 
Engineers (USACE), to Disaster Medical Assistance Teams from Health and 
Human Services (HHS), and Emergency Road Clearing Teams from the U.S. 
Forest Service.
    In addition, FEMA has instituted operational planning as a core 
Agency competency. Since 2007, FEMA Headquarters and Regions/Area 
Offices have been hiring operational planners--the first time FEMA has 
hired a group of individuals with this skill set--to provide the 
capability to perform sophisticated operational analyses, analyze 
trends, and improve planning for the response to ongoing and future 
events. Planners are currently being hired in each of the FEMA Regions 
and Area Offices to provide this capability in the field. At the 
Regional level, these planners will coordinate the development of 
Federal, State, and local operational plans to guide response 
activities and help build a national culture of preparedness. The 
operational planners will also facilitate and conduct regional 
evacuation planning.
    This year, FEMA will focus on the development of operational 
planning capabilities at all levels of emergency management, and 
operational planning for the National Planning Scenarios. We will 
continue to increase national readiness for site-specific catastrophic 
events, using scenario-driven plan development processes and supporting 
the development of vertically and horizontally integrated Catastrophic 
Response Plans.
    FEMA has also greatly improved its evacuation planning 
capabilities. We have completed a Mass Evacuation Incident Annex to the 
NRF and a supporting supplement is under development. For Hurricane 
Gustav, FEMA implemented the Gulf Coast evacuation plan which had been 
developed over the past two years in coordination with the State of 
Louisiana. Using the plan, FEMA coordinated the evacuation of more than 
2 million people in 48 hours to multiple receiving States using multi-
modal evacuation sources including air, train, and bus. Working with 
DoD, HHS, and the States, FEMA successfully coordinated large scale 
medical evacuations from Louisiana and Texas. More than 600 pre-
arranged ambulances were available to Louisiana for Hurricane Gustav 
and more than 300 ambulances were made available to support Texas for 
the Hurricane Ike response.
    In Florida in 2008, while preparing for and responding to Tropical 
Storm Fay and Hurricane Hanna, the State implemented and used the Lake 
Okeechobee Plan developed in preparation for and response to a Category 
5 Hurricane in Miami. This plan was developed as part of FEMA's 
Catastrophic Planning Initiative.
    We have also reinforced the critical and enduring need for personal 
preparedness, to encourage individuals to adequately prepare themselves 
for disaster events, recognizing that better individual preparedness 
translates into better community preparedness and situational 
resilience. At the same time, we continue to work with our partners to 
develop a more sophisticated culture of preparedness across America.
    Moreover, FEMA has continued working with the States to identify 
the gap between State resources and needs. The Gap Analysis Program was 
developed using a consistent, national approach to determine asset gaps 
at the local, State, and National levels. The initial focus in 2007 was 
on eight areas: debris, interim housing, sheltering, evacuation, 
commodity distribution, medical, and communication, and fuel in 18 
hurricane-prone States. The All-Hazards Gap Analysis Template is now 
being applied in all 10 FEMA Regions. This Gap Analysis will feed the 
Comprehensive Assessment System as called for in PKEMRA, which will 
function as a central repository for national preparedness data by 
integrating preparedness assessments in order to develop a more 
complete picture of national preparedness. It will also ensure we are 
not overburdening States with overlapping reporting requirements.
    These assessment and preparedness-related efforts will be guided by 
the revision and updating of ``risk-based target capabilities for 
Federal, State, local, and tribal governments'' that are ``specific, 
flexible, and measurable,'' as called for in PKEMRA. Since the release 
of the Target Capabilities List (TCL) in September 2007, we continue to 
refine the capabilities to make them more user-friendly; to provide 
guidance that distinguishes the appropriate level of capabilities 
different jurisdictions may wish to build and sustain based on their 
unique risks and needs; establish measurable readiness targets on which 
to base preparedness investments and assessments; and improve the 
usability of the capabilities to drive investments, equipment 
acquisition, plans, training, exercises, evaluation and improvement.


Increasing Regional Preparedness Capability, Capacity, and Coordination
    One of FEMA's primary reforms during 2007 was empowering and 
increasing the capacity of its regions. As the primary point of 
interface with States, FEMA Regions are essential to deliver on the 
promise of New FEMA.
    One of the most significant initiatives is the new package of 
blended capability in the form of: Regional Advisory Councils (RACs), 
Federal Preparedness Coordinators (FPCs), Regional IMATs, Regional 
Operational Planners and enhanced Regional Response Coordination 
Centers (RRCCs). Moreover, FEMA established Grants Management Branches 
in all 10 Regional offices and embedded 20 new Grant Management 
Specialists in the Regions to manage Emergency Management Performance 
Grants (EMPG), Metropolitan Medical Response System (MMRS), and Driver' 
License Security Grant Program funds. The Regions are also 
strengthening their ties to partners by the establishment of a Regional 
Advisory Committee and Regional Emergency Communications Coordination 
Working Groups (RECCWGs). Eight out of ten regions currently now have 
RECCWGs. Both of these new entities greatly expand the opportunity to 
communicate and exchange ideas with key constituency groups.

Improving Timely Delivery of Goods and Services and Tracking
    The Logistics Management Directorate (LMD) is FEMA's major program 
office responsible for policy, guidance, standards, execution and 
governance of logistics support, services and operations. Its mission 
is to effectively plan, manage and sustain national logistics response 
and recovery operations in support of domestic emergencies and special 
events--to act as the National Logistics Coordinator (NLC) or Single 
Logistics Integrator for National incident support. LMD is organized 
around four core competencies: Logistics Operations, Logistics Plans 
and Exercises, Distribution Management, and Property Management.
    LMD has worked diligently to strengthen its business processes and 
leverage the best practices by enhancing relationships with both the 
public and private sector through various initiatives for a more 
coordinated logistics response operation. Overall, LMD has contributed 
significantly to FEMA's forward leaning posture by putting in place 
contracts and interagency agreements (IAAs) that provide an enhanced 
logistics capability such as:
        <bullet> Logistics Management Transformation Initiative
        <bullet> Total Asset Visibility (TAV) to track supplies in 
        transit
        <bullet> National bus evacuation readiness
        <bullet> Demonstration Program Logistics Capability Assessment 
        Tool
        <bullet> Ready meals and water (IAA with the Defense Logistics 
        Agency)
        <bullet> Base camp support contracts
        <bullet> Single point ordering and tracking for Regions
        <bullet> Supplies and services (IAA with the General Services 
        Administration)
        <bullet> Vehicle drivers and fleet management
        <bullet> Vehicle maintenance
    We are confident that through these initiatives, an enhanced 
operational capability and improved alliances with logistics partners 
across the Federal family and with the private sector will strengthen 
our ability to better manage the logistics pipeline to insure needed 
supplies and resources arrive at a disaster site more quickly and 
efficiently.

Strengthening Contracting Practices to Enhance Preparedness and 
Accountability
    FEMA has implemented pre-positioned contracts in response to the 
need for enhanced planning and preparation in advance of disasters. 
FEMA currently has approximately 75 pre-positioned contracts in its 
inventory. For Gustav, FEMA activated its ground and air ambulance 
evacuation services contract with American Medical Response, Inc.; its 
rail evacuation services contract with AMTRAK; and its pre-positioned 
housing inspection services contract with PaRR Inspection Services.
    In terms of oversight, FEMA has made considerable strides in 
improving the contract management and oversight aspects of its 
acquisition duties. It has institutionalized the use of Contract 
Administration Plans (CAPs) to facilitate efficient and effective 
contract administration and improve the agency's post-award contract 
execution. CAPs also promoted task order competition while ensuring 
that services are available expeditiously to meet critical disaster 
response needs, while establishing consistent enterprise-wide contract 
administration processes for the Contracting Officer's Technical 
Representatives (COTRs) in various regions. CAPs also document the 
agreements between program offices and the Acquisitions Management 
Division and serve as a guide for continual actions related to a 
contract administration.
    The Agency has published the Emergency Acquisition Field Guide, 
which will ensure that non-1102 (contract specialist) personnel can 
effectively and appropriately contract for goods and services in an 
emergency situation. The guide defines the critical elements of an 
emergency acquisition in plain language so that any member of the 
disaster support team can understand and apply proper procedures. It 
includes information on purchase cards, program management, and 
contracting.

Employing Better Controls to Prevent Waste, Fraud and Abuse
    While we are committed to streamlining the process of getting 
disaster aid to victims, we are also steadfast in our responsibility to 
be good stewards of the Disaster Relief Fund. To this end, in FY 2007, 
we implemented new software that communicates real-time data to 
caseworkers and the auto-determination system to prevent duplicate 
housing payments for applicants already receiving assistance through 
direct housing.
    FEMA implemented checks in the National Emergency Management 
Information System (NEMIS) that flag ``high risk'' addresses such as 
check cashing stores, mail drops, cemeteries, and jails. Applications 
with high risk addresses require an intensive review prior to the 
delivery of assistance to prevent potential fraud.

Ensuring a Professional and Well-Trained Workforce with Effective Surge 
Capability
    Recognizing that our disaster reservists are the backbone of our 
agency--routinely accounting for 70 to 90 percent of any disaster 
response and recovery effort--FEMA created the Disaster Reserve 
Workforce Division in 2008. This Division has primary responsibility 
for the development, deployment and support of a disaster workforce 
ready for the national, all-hazard response needs of FEMA program 
managers and regional leadership. This office is led by a long-time 
FEMA senior executive and staffed with senior managers with leadership 
experience in managing other successful reserve programs.

Summary
    An improved level of preparedness and the enhanced performance of 
response and recovery actions in recent disasters have demonstrated 
noteworthy progress in implementing the PKEMRA reforms. More effective 
collaboration and cooperation between all partners--Federal, State, 
local, tribal, and voluntary organizations--has been the cornerstone of 
this progress. As a prime result of the PKEMRA legislation, our 
Nation's emergency response system is more anticipatory than ever; our 
Regions and the National Response Coordination Center have newfound 
capabilities, such as the ability to host daily video teleconference 
calls with Federal and State interagency partners; our national 
response teams are more numerous and more robust; we are more 
effectively pre-staging resources and commodities; and we are deploying 
new capacity such as our housing task force. New FEMA performs a unique 
national role in helping our States prepare for all hazards for all 
missions, and in ensuring we deliver on the key principles of effective 
response identified in the National Response Framework: engaged 
partnership; tiered response; scalable, flexible, and adaptable 
operational capabilities; unity of effort through unified command; and 
the readiness to act.
    Those principles reflect the inherent characteristics of our 
distributed and adaptive national emergency response system. The 
success of PKEMRA rests in the fact that the legislation capitalized on 
the strengths of this system. PKEMRA provided key enablers that when 
fully realized will serve us well as we face the dense complex of 21st 
century risks.
    Thank you again for the privilege of providing this report on our 
progress in implementing PKEMRA. I am prepared to respond to your 
questions.

    Mr. Cuellar. Mr. Gruber, thank you for your testimony.
    At this time, I would ask Ms. Troupe to summarize her 
statement for 5 minutes.

   STATEMENT OF MARY TROUPE, EXECUTIVE DIRECTOR, MISSISSIPPI 
            COALITION OF CITIZENS WITH DISABILITIES

    Ms. Troupe. Good morning, and thank you for this 
opportunity to be here with you today. I thank you for the 
opportunity to address these issues and to bring more 
conversation to these issues.
    First, let me tell you a little bit about the Mississippi 
Coalition for Citizens with Disabilities. We have been about 
advocating and working and assisting individuals with 
disabilities and families affected by Katrina immediately after 
the winds died down.
    I must tell you, it has not been easy, nor is it easy 
today, as my organization and others are turned away at every 
point in our efforts. Before Katrina, we urged state emergency 
management agencies, FEMA, Homeland Security, and state 
agencies to come together and work together to form a plan that 
addressed the unique needs of individuals with disabilities and 
those with special needs, but to no avail.
    We were literally told, ``We have our plans, and we know 
what we are doing. We will tell you what you need to know when 
you need to know it.''
    Today, I am sad to report that there is still resistance, 
even after the lessons learned from Katrina, and we are 
concerned about further disaster relief, recovery, and 
reconstruction efforts in the Gulf Coast areas.
    A disproportionate number of evacuees and survivors were 
and will be people with disabilities whose needs for basic 
necessities are compounded by chronic health conditions and 
functional impairments. Katrina cost tens of thousands of 
people with disabilities to be evacuated or displaced. People 
with disabilities affected by poor planning for emergencies and 
recovery efforts may never be able to return to their 
communities of origin and to their support systems.
    First, concerning the positive steps that the Post Katrina 
Management Reform Act has forced FEMA to take, for the 
Disability Act advocacy committee, the establishment of the 
FEMA position of disability coordinator in section 513 was very 
important.
    There were a number of excellent points mandated by the act 
and by the legislation, which is key to the effectiveness of 
the disability coordinator position, which I want to emphasize. 
The position was to be appointed by the FEMA administrator, and 
the position was to report directly to the FEMA administrator, 
in order to ensure that the needs of the individuals with 
disabilities are being properly addressed in emergency 
preparedness and relief and recovery efforts.
    Also, the 10 responsibilities of the disability coordinator 
position required that the Post Katrina Management Reform Act 
legislation guaranteed its effectiveness.
    Number one, providing guidance and coordination on matters 
related to individuals with disabilities.
    Two, interacting with the staff of the agency, the National 
Council on Disabilities, the Interagency Coordinating Council 
on Preparedness and Individuals with Disabilities, and other 
agencies of the federal government, state, local, and tribal 
government authorities.
    Third, consulting with organizations that represent the 
interests and rights of individuals with disabilities about the 
needs of these populations.
    Four, ensuring the coordination and dissemination of best 
practices and model evacuation plans for individuals with 
disabilities.
    Ensuring the development of training materials and 
curriculum for training of emergency response providers for 
state, and local, and tribal governments.
    Promoting the accessibility of telephone hotlines and Web 
sites.
    Working to ensure that the video program distributors, 
including broadcasters, cable operators, and satellites, and so 
forth, have accessible--are accessible to individuals with 
hearing and vision disabilities.
    Ensuring the availability of accessibility transportation 
options.
    Providing guidance and implementation policies to ensure 
the rights and wishes of individuals with disabilities are 
looked at during the post-evacuation residency and relocation.
    Ten, ensuring that meeting the needs of individuals with 
disabilities are included in the components of the national 
preparedness system, which is established under this act.
    We suggest some improvements can be made to further enhance 
FEMA's ability to plan for and respond to these events.
    Establish the FEMA national disability coordinator with 
appropriate staffing and parallel structures. While the 
legislation established a position in the Department of 
Homeland Security of the national disability coordinator, that 
position was placed in FEMA with the Office of Equal Rights.
    While the Office of Equal Rights is an entity committed to 
the promotion of affirmative employment, a discrimination-free 
workplace, and equal access to FEMA programs and benefits, and 
its responsibilities certainly some needs of individuals with 
disabilities, it does not entail the substantive obligations 
that this act, Post Katrina Emergency Management Reform, 
entrusts with the disability coordinator.
    In crafting section 513, Congress sought to ensure that 
individuals with disabilities would have a national voice in 
emergency preparedness, disaster relief, and recovery--have a 
single OER employee to address our concerns.
    Indeed, the affirmative responsibilities of the disability 
coordinator provide guidance, disseminate best practices, and 
consult with organizations. It extends far beyond the access of 
the OER encompasses and to the inclusion of Congress intended--
10 national disability coordinator responsibilities required by 
legislation far exceed the capabilities of a single individual, 
as is now the case.
    For example, the Department of Homeland Security Office of 
Civil Rights and Civil Liberties have five staff members. The 
human and services office of preparedness and emergency 
operation office for at-risk individuals has three staff 
members.
    Additionally and of great concern, there are the frequent 
issues being voiced from across the country about the lack of 
access to the disability coordinator during response--of 
incidences and the lack of flow of information between the 
public and private sectors in planning, as well.
    It bears repeating the legislation mandated that the 
national disability coordinator position report directly to the 
administrator, in order to ensure that the needs of individuals 
with disabilities are being properly addressed in emergency 
preparedness and relief. This is not the case.
    Finally, the National Council on Disability, which is a 
federal agency, reports ongoing difficulty in carrying out 
their post-Katrina obligations due to FEMA's--communications 
and the lack of inclusion with--as a partner across all--
emergency management.
    The following steps are recommended: Establish an office of 
disability coordinator in FEMA which reports directly to the 
administrator, and establish a national support within all 10 
FEMA regions in the form of regional disability coordinators--
2008 former FEMA administrator Paulison in a letter accepted 
his recommendations----
    Mr. Cuellar. Ms. Troupe, if we can summarize?
    Ms. Troupe. Yes, I am sorry. We believe that we do need to 
have these regional disability coordinators established within 
the areas by studying best practices in states such as 
California and Florida. The new administration could encourage 
the governor of all states also to appoint a state disability 
special needs coordinator.
    We need experience with community organizing, knowledge of 
the structure of the disability and other special needs, 
functional and working knowledge of emergency management 
structure, worked in an incident command system structure 
regarding how to plug in all skills sets and sets and match 
needs from the ground.
    These are some of the knowledge, skills and ability that a 
disability coordinator should possess.
    Disability advocate leaders from across the country worked 
together on these issues and have asked me to convey their 
support to you and their willingness to work with this 
committee to be a part of the solution process.
    Thank you.
    [The statement of Ms. Troupe follows:]

                   Prepared Statement of Mary Troupe

    Mr. Chairman, Members of the Committee, good morning. I am Mary 
Troupe, Executive Director, Mississippi Coalition for Citizens with 
Disabilities, and I thank you for the opportunity to appear before you 
and continue a conversation about the very important issues being 
explored here today.
    First, concerning the positive steps that the Post-Katrina 
Management Reform Act (PKEMRA) has forced FEMA to take.
    For the Disability Advocacy Community, the establishment of the 
FEMA position of Disability Coordinator in Section 513 was very 
important. There were a number of excellent points mandated by the 
PKEMRA legislation which were key to the effectiveness of this 
Disability Coordinator position which I want to emphasize:
        the position was to be appointed by the FEMA Administrator and
        the position was to report directly to the FEMA Administrator
    ``in order to ensure that the needs of individuals with 
disabilities are being properly addressed in emergency preparedness and 
disaster relief.''
    Also, the ten responsibilities of the Disability Coordinator 
position required by the PKEMRA legislation guaranteed its 
effectiveness:
    ``(1) providing guidance and coordination on matters related to 
individuals with disabilities
    ``(2) interacting with the staff of the Agency, the National 
Council on Disabilities, the Interagency Coordinating Council on 
Preparedness and Individuals with Disabilities, other agencies of the 
Federal Government, and State, local, and tribal government authorities
    ``(3) consulting with organizations that represent the interests 
and rights of individuals with disabilities about the needs of 
individuals with disabilities
    ``(4) ensuring the coordination and dissemination of best practices 
and model evacuation plans for individuals with disabilities;
    ``(5) ensuring the development of training materials and a 
curriculum for training of emergency response providers, State, local, 
and tribal government officials, and others on the needs of individuals 
with disabilities;
    ``(6) promoting the accessibility of telephone hotlines and 
websites regarding emergency preparedness, evacuations, and disaster 
relief;
    ``(7) working to ensure that video programming distributors, 
including broadcasters, cable operators, and satellite television 
services, make emergency information accessible to individuals with 
hearing and vision disabilities;
    ``(8) ensuring the availability of accessible transportation 
options for individuals with disabilities in the event of an 
evacuation;
    ``(9) providing guidance and implementing policies to ensure that 
the rights and wishes of individuals with disabilities regarding post-
evacuation residency and relocation are respected;
    ``(10) ensuring that meeting the needs of individuals with 
disabilities are included in the components of the national 
preparedness system established under section 644 of the Post-Katrina 
Emergency Management Reform Act of

Suggested Improvements
    I will now discuss improvements that can be made to further enhance 
FEMA's ability to plan for and respond to catastrophic incidents.
    Establish the FEMA National Disability Coordinator (NDC) with 
Appropriate Staffing and Parallel Structures: While the Post Katrina 
Legislation (HR 5441) established a position in Department of Homeland 
Security (DHS) of the National Disability Coordinator (NDC), that 
position was placed in FEMA with the Office of Equal Rights.
    However, the responsibilities envisioned by the legislation far 
exceed the capabilities of a single individual as is now the case.
    Additionally, there are frequent concerns being voiced from across 
the country about the lack of access to the Disability Coordinator, 
during response and recovery phases of incidents, and the flow of 
information between the public and private sectors in planning, as 
well.
    Further, the legislation mandated that the NDC position report 
directly to the Administrator in order to ensure that the needs of 
individuals with disabilities are being properly addressed in emergency 
preparedness and disaster relief; this is not now the case.
    Finally, the National Council on Disability (NCD) which is a 
Federal Agency reports ongoing difficulty in carrying out their Post-
Katrina Act obligations, due to FEMA's poor communication and 
negligible inclusion with it as a partner across all aspects of 
Emergency Management.
    I recommend the following:
    Establish an Office on Disability/ Office of Disability 
Coordination in FEMA which reports directly to the Administrator with 
adequate authority, resources and staff for the Disability Coordinator 
to fulfill the responsibilities of that position as mandated in PKEMRA.
    Establish additional support within all ten FEMA regions in the 
form of a Regional Disability Coordinator (RDC)
    On December 5, 2008, former FEMA Administrator Paulison in a letter 
accepted this recommendation of his National Advisory Council (NAC); 
also established in the same legislation) to establish additional 
support within all ten FEMA regions in the form of a Regional 
Disability Coordinator (RDC). However these positions will not be 
funded until FY 2011. A new administration could identify immediate 
funding to support this structure.
    Also, creation of a Regional Disability Coordinator position within 
each of the ten FEMA Regions would appropriately expand and enhance the 
work of the FEMA Disability Coordinator, both in maintaining 
relationships with volunteer groups and in coordinating response 
activities.
    Several states have a senior level official or office which 
coordinates with such volunteer groups and the FEMA Disability 
Coordinator serves as a point of contact for these entities at the 
federal level. FEMA Regional Disability Coordinators would provide a 
link between these state and federal networks.
    Additionally, given the number of open disasters at any particular 
time, response coordination responsibilities present a significant 
drain on the time and resources of the FEMA Disability Coordinator.
    Regional Disability Coordinators would multiply FEMA personnel 
available to be present in Joint Field Offices to coordinate and 
support outreach to victims with special needs when disaster strikes.
    The new administration should also encourage or mandate that each 
of the FEMA Region Administrators establish a Regional Advisory Council 
(RAC) to include a Special Needs Subcommittee as former Region II 
Administrator Steve Kempf, Jr. announced in August 2008. This would 
mirror the structure already established at the NAC level.
    Similarly, looking to states such as California, and Florida, the 
new administration could encourage the Governors of all states to 
appoint a State Disability/Special Needs Coordinator.
    And with at least the NDC and the RDC the new administration must 
ensure the most qualified individuals are selected for these posts by 
setting a qualification standard (KSA) with the assistance of both 
representatives of professional emergency management, for example, the 
International Association of Emergency Managers Special Needs 
Committee, as well as the disability community. These posts must be 
administrative with real-world experience applicable to overseeing 
field operations and operating on a regional basis:
    Examples of Recommended KSA's to include, but not limited to:
        <bullet> Experience with community organizing
        <bullet> Knowledge of the structure of the disability and other 
        special needs community within the region
        <bullet> Functional and working knowledge of the Emergency 
        Management structure
        <bullet> Worked in an ICS structure regarding how to plug in 
        skill sets and assets and match needs from the ground.
    Include expertise in emergency preparedness, response and recovery 
of People with Disabilities on the Domestic Policy Council team and all 
other areas throughout the administration charged with emergency 
preparedness.
    Enhance the composition and authority of the Interagency 
Coordinating Council formed under Executive Order 13347 to include 
private sector experts at the table.
    Disability advocacy leaders from across the country work together 
on these issues and have asked me to convey their support to you and 
their willingness to work with this Committee to be part of the 
solution process; we know that there is no easy single action which 
will solve all the issues; however, we stress the importance of 
integration of people with disabilities and special needs in all phases 
of emergency management at the Federal and the state levels. We must 
create a fully-inclusive culture of preparedness that respects both the 
needs and the independence of people with disabilities. There is a need 
to do more to fulfill both the taxonomy and the spirit of the PKEMRA 
legislation or PKEMRA becomes merely more glib lip service; I look 
forward with many committed colleagues to continue this dialog; I 
respectfully appreciate this opportunity and want you to know that the 
voice heard today represents many who worked together to focus and 
prioritize the comments to be most effectively pared with the topic of 
the hearing.

    Mr. Cuellar. Okay. Thank you very much.
    Let me, first of all, thank you for your testimony. We will 
now move into our final witness, Mr. Kaniewski, to summarize 
his statement for 5 minutes.

   STATEMENT OF DANIEL KANIEWSKI, DEPUTY DIRECTOR, HOMELAND 
  SECURITY POLICY INSTITUTE, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Kaniewski. Chairman Cuellar, Ranking Member Rogers, and 
distinguished members of this committee, thank you for the 
opportunity to testify before you today.
    The topic of today's hearing, PKEMRA, intersects with many 
of my research interests at G.W., as well as my professional 
experience on the White House staff, as well as a firefighter 
paramedic.
    My view is that the new presidential administration and 
Congress, policymakers should first assess how new or existing 
policies benefit the citizen.
    The bottom line is this: Will the new policies increase our 
level of readiness for natural or manmade disasters? If this 
question cannot be answered in the affirmative, the new 
administration should reflect and reassess, rather than rush to 
implement change.
    In the months following Hurricane Katrina, I began reliving 
my own experiences, day by day, minute by minute, and meshing 
those experiences with the massive research effort that had 
provided mountains of interview transcripts from people who had 
witnessed firsthand the response to the events as they 
unfolded.
    Under the leadership of my boss at the time, Fran Townsend, 
we published our findings and 125 recommendations in the 
official White House report, ``The Federal Response to 
Hurricane Katrina: Lessons Learned.'' At the White House, while 
my bosses, I, and my staff desperately wanted to improve our 
nation's response capabilities, others in the federal 
government saw the implementation of Katrina lessons learned as 
onerous, at best. There are parallels to PKEMRA here.
    On that point, though we at the White House saw significant 
utility in coordinating with our congressional counterparts on 
PKEMRA, the senior leadership of DHS was largely unwilling to 
negotiate with either the White House or with Congress. The DHS 
leadership even asked us to issue a veto threat on PKEMRA, 
something we at the White House would not consider.
    Why would DHS leadership want the president to issue a veto 
threat on legislation that aimed to correct FEMA's failures 
from Katrina? Quite simply, they were worried that a 
strengthened FEMA, particularly a FEMA that would be provided 
with direct reporting relationship, when appropriate, to the 
president and the Congress, would be to the detriment of DHS.
    Though we did not support this position on PKEMRA because 
we could not possibly recommend that the president threaten to 
veto a bill that would codify many of the changes that we had 
supported, I did respect Secretary Chertoff's view from a 
management perspective. After all, it was him, not me, who 
would have to go on television in the wake of a catastrophe and 
explain to the American people why FEMA failed again under his 
watch.
    I personally saw PKEMRA not only codified many of the 
Katrina lessons learned recommendations that we had made, but 
also forced reforms that many of us knew were necessary, yet 
were unable to achieve on our own.
    It required DHS to take the uncomfortable, but essential 
reforms that were necessary in the post-Katrina environment. In 
short, we as a nation are better off as a result of PKEMRA.
    At issue is whether FEMA should be an independent agency as 
it once was or stay within DHS. The debate is spoken in terms 
of access to the president and strength of the organization.
    While FEMA's place on an organizational chart is an 
important issue, a larger, more fundamental discussion must 
take place before the mission of FEMA and DHS--and the 
subsequent convergence or divergence--and how that affects our 
readiness to prepare for, respond to, and recover from 
disasters. In other words, policymakers should follow the 
principle that organization or form of FEMA should follow its 
function.
    Extracting FEMA could also cause bureaucratic confusion 
among agencies, as well as state and local officials who have 
labored to learn and abide by the current system's protocols. 
Congress would be required to provide significant legislation 
to redefine roles, responsibilities, and authorities, to 
include statutory authority and funding. Additionally, 
separating FEMA from DHS would result in an unknown increase in 
the federal budget to recreate separate governmental 
administration systems.
    Finally, there is the less obvious, but equally important 
issue of employee morale. If FEMA were to be removed from DHS, 
staff in both agencies would likely feel the strain from yet 
another reorganization. Many feel that FEMA is finally a core 
component of DHS and any changes would crystallize the 
perception that FEMA is in a never-ending state of flux.
    The bottom line is that consequence of extracting FEMA from 
DHS could lead to a lower level of national readiness to 
respond during disaster. Instead of focusing on current 
disasters and preparing for future ones, the agency would 
instead be hobbled with required statutory, policy, budgetary 
and other bureaucratic manifestations of reorganization.
    As shown by Hurricane Katrina and subsequent domestic 
incidents, Washington has a critical, but usually limited 
supporting role. The federal government cannot be a first 
responder, nor can it effectively manage an incident from 
inside the beltway.
    This will not be easy, but neither was the creation of the 
intelligence communities--excuse me, the committees--30 years 
ago. Congress also needs to reorganize itself.
    This committee is a testament to what needed to happen 
immediately following 9/11, and I encourage this committee, as 
well as the leadership of the House, to take the issue 
seriously of consolidating congressional oversight.
    Looking ahead, something that we have yet to do is clearly 
articulate FEMA's role. For example, FEMA is currently 
configured as a support and coordination entity for state and 
local governments, but the public often believes that the 
organization alone is capable of providing substantial boots on 
the ground.
    Policymakers must either confront the reality that FEMA is 
a disaster coordinator and appropriately manage the public's 
expectations or invest substantial resources to provide 
significant capabilities to FEMA. This would be an excellent 
issue for the administration's capable FEMA nominee, Craig 
Fugate.
    I witnessed firsthand Craig in action during my many 
disasters that struck the state during my tenure at the White 
House. I was always comforted when I saw Craig's face on the 
other end of the video teleconference amid crises in Florida. 
His confidence inspired confidence in the rest of us watching 
him from the comfort of our Washington offices.
    Should he be confirmed, I wish Craig good luck and hope 
that he continues to push FEMA on its upward trajectory.
    Thank you. I will be happy to take any questions you may 
have.
    [The statement of Mr. Kaniewski follows:]

               Prepared Statement of Daniel J. Kaniewski

    Chairman Cuellar, Ranking Member Rogers, and distinguished members 
of the subcommittee, thank you for the opportunity to appear before you 
today. The topic of today's hearing, ``;Post-Katrina Emergency 
Management Reform Act (PKEMRA) Implementation: An Examination of FEMA's 
Preparedness and Response Mission,'' intersects with many of my 
research interests as well as my professional experience.
    As a matter of background, I presently serve as the Deputy Director 
of The George Washington University Homeland Security Policy Institute 
(HSPI) at The George Washington University, a position I previously 
held from 2002-2005. During my three-year absence from HSPI, I served 
on the Homeland Security Council staff at the White House, most 
recently as Special Assistant to the President for Homeland Security 
and Senior Director for Response Policy.
    Just one month after arriving at the White House, I witnessed first 
hand the failures of the response to Hurricane Katrina from a bird's 
eye view. What I saw appalled me and as the event unfolded I committed 
to myself, and more importantly the nation, that I would do everything 
in my power to ensure we did not repeat the tragic failures of 
Hurricane Katrina.
    Let me first caveat my remarks by saying that clearly there were 
failures at all levels of government during Hurricane Katrina. For the 
purposes of this hearing, I will focus my remarks on the federal level, 
but in no way do I mean to imply that only the federal government was 
to blame; all levels of government must understand the lessons learned 
from the catastrophe and implement changes to ensure we do not again 
experience such a tragedy.
    Preparedness at all levels of government prior to an incident is 
important because any one broken ``link'' in the response ``chain'' 
imperils the national response system.\1\ When the system fails, as it 
did during Hurricane Katrina, the responsibility of managing the 
incident falls solely to those near the incident site--usually the 
first responders. As one of those first responders, I understand that 
such a situation puts those of us charged with saving lives in an 
untenable situation. Without the resources of the federal government, 
local and state governments will quickly become overwhelmed. Such a 
cascading failure can make a significant event a catastrophic one.
---------------------------------------------------------------------------
    \1\ I use the term ``national response system'' to include federal, 
State, local, county, tribal, volunteer and private sector entities; 
essentially any individual or organization involved in responding to an 
incident.
---------------------------------------------------------------------------
    The Federal Emergency Management Agency (FEMA) has been put to the 
test since the failed response to Hurricane Katrina in 2005. In 2008 
alone, the agency faced numerous natural disasters across the country, 
including very active hurricane and tornado seasons, intense wildfires, 
and widespread flooding. In fact the 2008 hurricane season broke two 
records: it was the first time that six consecutive tropical cyclones 
made landfall on the U.S. mainland and the first to have a major 
hurricane (Category 3 or higher) form in five consecutive months.\2\ 
Unlike the response to Hurricane Katrina, federal, state, and local 
officials were prepared, garnering resources well ahead of the storm 
and executing timely and effective evacuations. In the aftermath of the 
storms there were more stories of triumph than tragedy: largely 
successful responses at all levels of government.\3\
---------------------------------------------------------------------------
    \2\ ``Atlantic Hurricane Season Sets Records,'' National Oceanic 
and Atmospheric Administration (November 26, 2008), http://
www.noaanews.noaa.gov/stories2008/20081126_hurricaneseason.html 
(accessed March 13, 2009).
    \3\ ``Kind Words for New FEMA,'' USA Today editorial (October 2, 
2008), http://blogs.usatoday.com/oped/2008/10/kind-words-for.html 
(accessed March 13, 2009)'' and Fiore, Faye, ``FEMA Says It's Applying 
Hurricane Katrina's Lessons to Gustav,'' Los Angeles Times (September 
2, 2008), http://www.latimes.com/news/nationworld/nation/la-na-fema2-
2008sep02,0,7688528.story (accessed March 13, 2009).
---------------------------------------------------------------------------
    The triumph is not just in lives saved because of evacuations and 
other measures, but also in the ability of the national response 
system--including the convergence of local, state and federal efforts--
to support response and recovery to the benefit of America's 
communities.
    The government's improved response to natural disasters is more 
than a feel-good story. As America's homeland and national security 
policy is guided by a new presidential administration and Congress, it 
is an important reminder for policymakers to first assess how new or 
existing policies benefit the citizen. The bottom line is this: will 
these new policies increase our level of readiness for natural or 
manmade disasters? If this question cannot be answered in the 
affirmative, the new Administration should reflect and reassess, rather 
than rush to implement change.
    Today I will first outline the evolution of policies following 
Hurricane Katrina. Then I will explain why FEMA should remain within 
the Department of Homeland Security (DHS). Next I will demonstrate the 
need for stronger homeland security regions. I will then mention the 
role of the Secretary of Homeland Security. And finally I will turn to 
the need to consolidate congressional oversight of DHS.

Katrina Lessons Learned/PKEMRA
    In the months that followed Hurricane Katrina, I began re-living my 
own experiences, day by day, minute by minute, and meshing those 
experiences with the massive research effort that had provided 
mountains of interview transcripts from people who had witnessed first 
hand the response to the events as they unfolded. It was through this 
prism that I helped to separate the facts from fiction, and pinpoint 
the crux of the problems. Under the leadership of my boss Fran 
Townsend, we published our findings and 125 recommendations in the 
official White House report The Federal Response to Hurricane Katrina: 
Lessons Learned.
    I should mention that the Katrina Lessons Learned report was 
published without any formal review by departments and agencies. For a 
public report issued by the White House to lack such review, in my 
assessment, is unprecedented. Officials from departments and agencies 
were interviewed, but there was no guarantee that the opinions they 
held would be published; it was the facts that we cared most about, and 
as one of the only writers of the report, it was largely up to a 
handful of us to draw the conclusions and make the recommendations. 
Given the desire to give an objective, and often critical, view of the 
federal government's response, I agree with my boss Fran Townsend's 
decision, and so did the President.
    Following the publication of this report, I became part of the 
small team at the White House overseeing the implementation of the 
recommendations in the report, eventually becoming the leader of this 
team. I give this background because it is directly applicable to the 
topic at today's hearing. You see, though I, my bosses, and my staff 
desperately wanted to improve the nation's response capabilities, 
others in the federal government saw the implementation of the Katrina 
Lessons Learned recommendations as onerous at best.
    Some agencies stepped up and accepted their responsibility not just 
because the White House told them to do so, but because they truly 
believed it would improve our national response system. Luckily for all 
of us, FEMA was one such agency. I can take little credit for this. The 
credit is instead due to the leadership of FEMA Administrator David 
Paulison and his deputy Harvey Johnson. They were able to move forward 
with their vision of ``New FEMA,'' which implemented the White House 
recommendations, and took them even further. They did this against the 
resistance of some FEMA staff who had seen reform come and go over the 
years. This reform, however, stuck. Why? One reason was the leadership 
of Paulison and Johnson. But even they couldn't move against both 
internal resistance from some of their subordinates and the more 
daunting resistance from their leadership at DHS. It would be Congress, 
not the White House that would overcome this feud.
    About the time that Paulison and Johnson were developing a strategy 
for ``New FEMA,'' Congress was completing its review of the Hurricane 
Katrina response failures. There was increasing talk that there would 
soon be reform legislation. White House staff, including myself, 
reviewed proposed language from congressional staff and provided 
feedback in an informal capacity.
    Unfortunately, though we at the White House saw significant utility 
in coordinating with our congressional counterparts, the senior 
leadership of DHS was largely unwilling to negotiate with either the 
White House or Congress. The DHS leadership even pressed the White 
House to issue a veto threat on PKEMRA; something that we would not 
consider. Why would DHS leadership want the President to issue a veto 
threat on a legislation that aimed to correct FEMA's failures during 
Katrina? Quite simply they were worried that a strengthened FEMA, 
particularly a FEMA that would be provided a direct reporting 
relationship, when appropriate, to the President and Congress, would be 
to the detriment of DHS. Though I disagreed with their view, DHS 
leaders were acting rationally: Secretary Chertoff himself often 
expressed to us that he knew better than anyone what would happen if 
FEMA failed to effectively respond to the next disaster. Thus he should 
have complete responsibility to make sure that FEMA was up to the job. 
Though we did not support his position on PKEMRA because we could not 
possibly recommend that the President threaten to veto a bill that 
would codify many of the changes we supported, I did respect his view 
from a management perspective. After all, it was him, and not me, who 
would have to go on television in the wake of a catastrophe and explain 
to the American public why FEMA failed again under his watch.
    I personally saw that PKEMRA not only codified many of the Katrina 
Lessons Learned recommendations that we had made, but it also forced 
reforms that many of us knew were necessary, yet were unable to achieve 
on our own. It required DHS to take the uncomfortable, but essential 
reforms that were necessary in the post-Katrina 
environment.<SUP>4,}5</SUP> in short, we as a nation are better off as 
a result of PKEMRA.
---------------------------------------------------------------------------
    \4\ For a summary of Post Katrina Emergency Management Reform Act 
implementation efforts, see, ``Implementation of the Post-Katrina 
Emergency Management Reform Act And Other Organizational Changes,'' 
U.S. Department of Homeland Security (updated October 7, 2008), http://
www.dhs.gov/xabout/structure/gc_1169243598416.shtm (accessed March 13, 
2009). See also, Bea, Keith, ``Federal Emergency Management Policy 
Changes After Hurricane Katrina: A Summary of Statutory Provisions,'' 
Congressional Research Service RL33729 (December 15, 2006), http://
www.fas.org/sgp/crs/homesec/RL33729.pdf (accessed March 13, 2009).
    <SUP>T14</SUP>Relyea, Harold C., ``Organizing for Homeland 
Security: The Homeland Security Council Reconsidered,'' Congressional 
Research Service RL22840 (November 26, 2008), http://www.fas.org/sgp/
crs/homesec/RS22840.pdf (accessed March 11, 2009).
    \5\ For an assessment of overall progress of implementing the Post 
Katrina Emergency Management Reform Act, see, Skinner, Richard, 
``Statement before the Committee on Homeland Security and Government 
Affairs, (April 8, 2008), http://hsgac.senate.gov/public/_files/
040308Skinner.pdf (accessed March 11, 2009).

FEMA within DHS
    The debate over the FEMA's placement within the executive branch is 
a well-worn one. In 2002, during the debate over the legislation 
creating DHS, it became a polarizing issue.\6\ The debate again 
surfaced in 2006 as Congress considered, and ultimately passed, 
PKEMRA.\7\ So it is not surprising that once again policymakers and 
pundits alike are calling for various proposals to keep FEMA in DHS or 
move it out.\8\
---------------------------------------------------------------------------
    \6\Keith Bea outlines the key issues in the 2002 debate on the 
placement of FEMA fostered by the 107th Congress. See Bea, Keith, 
``Proposed Transfer of FEMA to the Department of Homeland Security,'' 
Congressional Research Service RL31510 (July 29, 2002), http://
www.law.umaryland.edu/marshall/crsreports/crsdocuments/
RL31510_07292002.pdf (accessed January 12, 2009).
    \7\The Post Katrina Emergency Management Reform Act of 2006 became 
law on October 6, 2006. See, ``Can Congress Rescue FEMA,'' The 
Washington Post, (June 26, 2006), A19, http://www.washingtonpost.com/
wp-dyn/content/article/2006/06/25/AR2006062500645.html (accessed 
January 12, 2009).
    \8\ For example, Congressman James Oberstar (D-MN) authored a 
memorandum to then President-elect Barak Obama calling for FEMA to be 
``re-instated as an independent cabinet-level agency reporting directly 
to the President,'' because it has ``consistently failed to meet the 
expectations of the American people and Congress'' since its 
incorporation into the Department of Homeland Security--a place where 
its mission has been ``distorted by a focus on terrorism'' and where 
state, local, and its relationship with local and state entities has 
been ``impeded.'' See, Oberstar, James, ``Memorandum: An Independent 
FEMA,'' as obtained by Congressional Quarterly (December 17, 2008), 
http://homeland.cq.com/hs/flatfiles/temporaryItems/
20081218FEMAletter.pdf (accessed January 12, 2009). However, 
Representative Bennie Thompson (D-MS), called for FEMA to stay where it 
is as quoted in a recent interview: ``Pulling FEMA out of the 
department will once again fracture the nation's ability to respond to 
all types of catastrophes--whether natural or man-made,'' he said. 
Instead of ``focusing on dismantling the department,'' the emphasis 
should be on ``strengthening its components.'' See, Fowler, Daniel, 
``Oberstar Appeals to Obama to Create an Independent FEMA,'' 
Congressional Quarterly (December 18, 2008), http://homeland.cq.com/hs/
display.do?docid=2999304&sourcetype=31&binderName=news-all (accessed 
January 12, 2009). Most recently, Richard Skinner, the Inspector 
General of the Department of Homeland Security, determined that FEMA 
should stay within the Department of Homeland Security. See, Skinner, 
Richard, ``FEMA: In or Out?'' Office of the Inspector General, U.S. 
Department of Homeland Security OIG-09-25 (February 2009), http://
www.dhs.gov/xoig/assets/mgmtrpts/OIG_09-25_Feb09.pdf (accessed March 
11, 2009).
---------------------------------------------------------------------------
    FEMA is an easy target; its four-letter acronym is often used as 
shorthand to convey all of Hurricane Katrina's response failures. But 
FEMA is just one piece of the preparedness puzzle. The organization is 
relatively new by historical standards, having been created as an 
independent agency in 1979. Before that time, disaster-response 
activities were scattered amongst some 100 federal agencies. In 2003, 
FEMA was brought under the DHS. Regardless of the agency's placement in 
the federal bureaucracy, there are fundamental misunderstandings of 
FEMA's role and mission, which drive false expectations by the public.
    At issue is whether FEMA should be an independent agency as it once 
was, or stay within DHS. The debate is spoken in terms of access to the 
president and strength of the organization.\9\ While FEMA's place on an 
organizational chart is an important issue, a larger, fundamental 
discussion must take place about the mission of FEMA and DHS--and their 
subsequent convergence or divergence--and how that affects our 
readiness as a nation to prepare for, respond to, and recover from 
disasters. In other words, policymakers should follow the principle 
that organization--or form--of FEMA should follow its function.\10\
---------------------------------------------------------------------------
    \9\ For example, the National Association for Emergency Managers 
calls for FEMA to become ``an independent agency reporting directly to 
the President.'' See, ``IAEM-USA Requests for Consideration by the 
President-elect,'' IAEM (December 8, 2008), http://www.iaem.com/
committees/GovernmentAffairs/documents/
IAEMrequestsforconsiderationbyPres-Elec120808.pdf (accessed January 12, 
2009). Additionally, the New York Times believes that under the 
Department of Homeland Security, FEMA ``degraded into a patronage-
ridden weakling,'' and lifting it to the level of the President's 
cabinet will redeem it from this status. See, ``Fixing FEMA,'' New York 
Times editorial (November 24, 2008), http://www.nytimes.com/2008/11/24/
opinion/24mon3.html (accessed January 12, 2009).
    \10\ Cilluffo, Frank J. and Daniel J. Kaniewski, Jan P. Lane, Gregg 
C. Lord, and Laura P. Keith, ``Serving America's Disaster Victims: 
FEMA: Where Does It Fit?,'' Homeland Security Policy Institute Issue 
Brief (January 13, 2009), http://www.gwumc.edu/hspi/pubs/
HSPI_FEMA_IssueBrief_.13.09.pdf (accessed March 11, 2009).
---------------------------------------------------------------------------
    The mission of FEMA is ``to reduce the loss of life and property 
and protect the Nation from all hazards, including natural disasters, 
acts of terrorism, and other man-made disasters, by leading and 
supporting the Nation in a risk-based, comprehensive emergency 
management system of preparedness, protection, response, recovery, and 
mitigation.'' \11\ FEMA itself is more of a facilitator and coordinator 
of federal support to state and local officials, rather than a massive 
federal department with organic response assets. It relies heavily on 
other federal departments and agencies, contractors, and state and 
local assets to perform its coordination mission.
---------------------------------------------------------------------------
    \11\ Federal Emergency Management Agency website, ``About Us,'' 
online at: http://www.fema.gov/about/index.shtm (accessed January 12, 
2009).
---------------------------------------------------------------------------
    So even if state and local officials request the federal 
government's help, there are no ``FEMA'' ambulances, helicopters, and 
buses. FEMA coordinates amongst all levels of government, contracts 
with the private sector, and leverages personnel and resources from the 
federal government. Sometimes this system works well, as is the case 
with the greatly strengthened relationship between FEMA and the 
Department of Defense; other times not, such as when Louisiana's pre-
established contract for buses fell through as Gustav approached, 
forcing the State and FEMA to quickly consider other options. Thus, 
FEMA is only as strong as its weakest link, with ``FEMA'' failing if a 
contractor, or a local, state or federal agency, stumbles.'' \12\
---------------------------------------------------------------------------
    \12\ Kaniewski, Daniel J., ``Not Your Father's FEMA,'' Washington 
Times (September 10, 2008), http://washingtontimes.com/news/2008/sep/
10/not-your-fathers-fema/ (accessed March 11, 2009). See also, 
``Regionalizing Homeland Security: Unifying National Preparedness and 
Response,'' Homeland Security Policy Institute (June 30, 2006), http://
www.gwumc.edu/hspi/pubs/hspiregion.pdfhttp://www.gwumc.edu/hspi/pubs/
hspiregion.pdf (accessed March 11, 2009).
---------------------------------------------------------------------------
    Consistent with its coordination mission, FEMA led the effort to 
revise the 2005 National Response Plan (NRP) and replace it with the 
National Response Framework (NRF), a guide for how the nation 
``conducts all-hazards response--from the smallest incident to the 
largest catastrophe.'' \13\ The NRF establishes a revised ``response 
doctrine'' and calls for ``engaged partnerships'' amongst all levels of 
government, non-governmental organizations and the private sector. I 
oversaw this project at the White House and can confidently say that it 
is more than just a simple name change; The NRF is an example of FEMA's 
capacity to serve as a facilitator at the national level, while 
simultaneously empowering local, state, and federal authorities to 
respond quickly and efficiently during crises.
---------------------------------------------------------------------------
    \13\ ``National Response Framework: Frequently Asked Questions,'' 
Federal Emergency Management Agency, http://www.fema.gov/pdf/emergency/
nrf/NRF_FAQ.pdf (accessed January 12, 2009).
---------------------------------------------------------------------------
    Finally, despite the organizational changes over the years, 
leadership seems to have been a significant contributing factor for 
FEMA's successes or failures. FEMA leaders such as James Lee Witt have 
been lauded for their leadership of the agency. Director Witt inherited 
the beleaguered agency in 1993 following a widely criticized response 
to Hurricane Andrew the year before.\14\ Infamously, FEMA Director Mike 
Brown failed to respond effectively to Hurricane Katrina. Most point to 
Brown as the culprit for the failings, but some feel FEMA's placement 
in DHS contributed as well. However, Brown's successor David Paulison 
reinvigorated FEMA's role and capabilities by making dramatic changes 
inside the organization as well as building bridges within DHS, the 
executive branch, and with state and local officials. The results were 
clear: much improved federal responses to the many natural disasters 
that occurred under Paulison's leadership.
---------------------------------------------------------------------------
    \14\ ``Coping With Catastrophe,'' National Academy of Public 
Administration for the U.S. Congress and the Federal Emergency 
Management Agency (February 1993), http://71.4.192.38/NAPA/
NAPAPubs.nsf/17bc036fe939efd685256951004e37f4/
78f9632b737c132b85256886007eb4bc/$FILE/93-01--
Coping+with+Catastrophe.pdf (accessed January 12, 2009).
---------------------------------------------------------------------------
    If DHS is to execute its incident management responsibilities, it 
should be vested with the critical preparedness and response missions 
of FEMA. Without FEMA, DHS will have little statutory or organizational 
capability to effectively manage the response to an incident.\15\ With 
the Secretary of Homeland Security representing FEMA's interests, FEMA 
has a powerful advocate within the executive branch. As a Cabinet 
Secretary, the DHS Secretary has the standing to raise issues with and 
garner the attention of his or her Cabinet peers and the President. The 
Secretary can also direct DHS resources to the FEMA mission during a 
disaster.\16\ Additionally, as provided for in the subject of today's 
hearing--PKEMRA--FEMA has a direct line to the President during 
crisis.\17\
---------------------------------------------------------------------------
    \15\ For a full listing of FEMA statutory authority, see, ``Robert 
T. Stafford Disaster Relief and Emergency Assistance Act,'' P.L. 93-
288, as amended, 42 U.S.C. 5121-5207, and Related Authorities, Federal 
Emergency Management Agency (June 2007), http://www.fema.gov/pdf/about/
stafford_act.pdf (accessed January 12, 2009).
    \16\ In just one example, FEMA worked effectively with another DHS 
agency, Customs and Border Protection, which provided a ``real-time 
streaming aerial video of damaged levees, roads, bridges and oil 
terminals over a secure Internet feed to 1,200 personnel from multiple 
federal agencies who worked . . . at the Federal Emergency Management 
Agency's joint field office. Federal officials in Washington, as well 
as state and local officials throughout Louisiana, could access the 
feed.'' Brewin, Bob, ``Customs and Border Protection Lends Aerial 
Vehicle for Hurricane Damage Assessment,'' Next Gov.Com (September 5, 
2008), http://www.nextgov.com/nextgov/ng_20080905_9890.php (accessed 
January 12, 2009).
    \17\ See, P.L. 109-295, &sect; 611(11), new HSA Sec. 503(c)(4)(A), 
120 Stat. 1397, http://frwebgate.access.gpo.gov/cgi-bin/
getdoc.cgi?dbname=109_cong_public_laws&docid=f:publ295.109.pdf 
(accessed January 12, 2009).
---------------------------------------------------------------------------
    Extracting FEMA could also cause bureaucratic confusion among 
agencies, as well as state and local officials who have labored to 
learn and abide by the current system's protocols. Congress would be 
required to provide significant legislation to re-define roles, 
responsibilities, and authorities, to include statutory authority and 
funding. Additionally, separating FEMA from DHS would result in an 
unknown increase of the federal budget to re-create separate 
governmental administration systems.
    Finally, there is the less obvious, but equally important issue of 
employee morale. If FEMA were to be removed from DHS, staff in both 
agencies would likely feel the strain from yet another 
reorganization.\18\ Many feel that FEMA is finally a core component of 
DHS and any changes would crystallize the perception that FEMA is in a 
never-ending state of flux.\19\
---------------------------------------------------------------------------
    \18\ See, Baker-McNeil, Jena, ``Cabinet-level FEMA Not Needed,'' 
The Heritage Foundation Web-Memo #2153 (December 4, 2008), http://
www.heritage.org/Research/HomelandSecurity/wm2153.cfm (accessed January 
12, 2009).
    \19\ For more on FEMA at HSPI, see Paulison, David, ``FEMA: 
Capabilities, Coordination and Capacities for the Future,'' remarks at 
Homeland Security Policy Institute (January 13, 2009), http://
www.gwumc.edu/hspi/hspi_paulison_01.13.09.pdf (accessed March 11, 
2009).
---------------------------------------------------------------------------
    The bottom line is that the consequence of extracting FEMA from DHS 
could be a lower level of national readiness to respond to 
disaster.\20\ Instead of focusing on current disasters and preparing 
for future ones, the agency would instead be hobbled with required 
statutory, policy, budgetary and other bureaucratic manifestations of 
reorganization.
---------------------------------------------------------------------------
    \20\ Grorud, Larry J., Harold A. Schaitberger, and William Jenaway, 
``Letter to President-elect Obama,'' Congressional Fire Services 
Institute (December 22, 2008), http://www.iafc.org/associations/4685/
files/ntlRegResp-gr_IAFC-IAFF-CFSI-081222-LtrToPresElectObamaReFEMA.pdf 
(accessed January 12, 2009).

Local, State, and Regional Response
    The vast majority of incidents that occur daily in the U.S. are 
handled at the local level. Some require assistance from surrounding 
local jurisdictions, counties, the State, or multiple States. Few 
involve federal assistance.
    For example, an industrial fire will most often be handled by a 
local fire department. However, if this is a particularly large 
industrial fire the local fire department may request assistance from 
neighboring jurisdictions to help douse the flames. If specialized 
assets, such as hazardous materials teams, are not available locally 
the local fire department may request these assets from the county or 
the state. If the industry is considered nationally critical 
infrastructure; has significant environmental, human or economic 
impacts; or a terrorism nexus is suspected, specialized federal assets 
may be requested to assist.
    As shown by Hurricane Katrina and subsequent major domestic 
incidents including hurricanes, tornados, wildfires, and industrial and 
infrastructure accidents, ``all response is local.'' \21\ Washington 
has a critical, but usually a limited supporting role. The federal 
government cannot be a first responder; nor can it effectively manage 
an incident from inside the Beltway. Local officials that determine 
critical response requirements and make informed judgments about unmet 
needs are absolutely essential for the national response system to be 
effective. Having a regional office to coordinate with the local and 
state officials ensures that federal response meets the needs of the 
victims, and is not duplicative or, worse, in competition with local 
and state response efforts. A standing presence builds relationships 
among local, state, and federal responders and other public officials. 
Regional offices have the potential to reach every level, from the 
individual citizen and communities to federal officials in Washington. 
Indeed, ``regionalizing our national preparedness system is the very 
linchpin that connects all of the elements of our preparedness and 
response.'' \22\
---------------------------------------------------------------------------
    \21\ Borrowing the line ``All politics is local'' from former 
Speaker of the House Tip O'Neill.
    \22\ Cilluffo, Frank J., ``Hurricane Katrina: Recommendations for 
Reform,'' testimony before the Committee on Homeland Security and 
Government Affairs, U.S. Senate (March 8, 2006), http://www.gwumc.edu/
hspi/congress/March8_06.htm (accessed March 11, 2009).
---------------------------------------------------------------------------
    Though FEMA regions exist, there are no true ``homeland security'' 
regions that translate all the headquarters elements of DHS to the 
state and local levels. And since DHS does not even have its own 
consolidated regional offices, there remains much more work to be done 
if the regional offices are to include the full spectrum of homeland 
security functions, including core homeland security missions of other 
departments and agencies.\23\ Finally, public-private partnerships are 
the buzz in Washington, but there is little evidence that significant 
efforts are underway at the regional level.\24\
---------------------------------------------------------------------------
    \23\ The U.S. Government Accountability office agrees. See, Dalton, 
Patricia A., ``Homeland Security: Effective Regional Coordination Can 
Enhance Emergency Preparedness,'' U.S. Government Accountability Office 
(GAO-04-1009) (September 15, 2004), http://www.gao.gov/new.items/
d041009.pdf (accessed March 11, 2009). See also, Carafano, James and 
David Heyman, ``Homeland Security 3.0: Building a National Enterprise 
to Keep America Safe, Free, and Prosperous,'' The Heritage Foundation 
SR23 (September 18, 2008), http://www.heritage.org/Research/
HomelandDefense/upload/sr_23.pdf (accessed March 11, 2009).
    \24\ Cillufo, Frank J., ``Hurrican Katrina: Recommendations for 
Reform'' testimony before the Committee on Homeland Security and 
Government Affairs, U.S. Senate (March 8, 2006), http://www.gwumc.edu/
hspi/congress/March8_06.htm (accessed March 11, 2009).

Role of the Secretary of Homeland Security
    The Secretary of Homeland Security, just like all other Cabinet 
secretaries, is the CEO of her organization; and managing a large 
federal bureaucracy is not an easy job. But the Secretary of Homeland 
Security has an additional duty, unique to her position: she is the 
``principal Federal official for domestic incident management,'' 
responsible for coordinating among all federal departments and agencies 
to ensure an effective response to man-made and natural disasters.\25\ 
This interagency role is most important during catastrophic incidents 
when virtually every federal department and agency contributes to the 
federal response. This means that the Secretary must view other federal 
departments and agencies as equivalent stakeholders in the response, 
not just those agencies within DHS. Though DHS possesses substantial 
response capabilities, it certainly does not have all of the 
capabilities required to respond to incidents of every scope and 
magnitude. Capabilities outside DHS such as aircraft at the Department 
of Defense, medical response teams at the Department of Health and 
Human Services, and hospitals in the Department of Veterans Affairs 
network, for example, are equally important to the federal response as 
those assets located within DHS.
---------------------------------------------------------------------------
    \25\ ``Homeland Security Presidential Directive 5: Management of 
Domestic Incidents,'' (February 28, 2003), http://www.dhs.gov/xabout/
laws/gc1214592333605.shtm#1 (accessed March 13, 2009). See also, 
``Homeland Security Act of 2002,'' P.L.107-296, (November 28, 2002), 
http://www.dhs.gov/xlibrary/assets/hr5005enr.pdf (accessed March 13, 
2009).
---------------------------------------------------------------------------
    Congress should emphasize the Secretary's interagency incident 
management role, and consider measures to further clarify this role. 
One suggestion I wish to offer is for the Deputy Secretary to be 
responsible for coordinating internal DHS agencies during an incident, 
thereby freeing the Secretary to coordinate response efforts with 
external departments and agencies. I feel that this action would better 
delineate the Secretary's dual roles.

Congressional Oversight
    Prior to 9/11, I was on staff here in the House of Representatives 
as a Homeland Security Fellow. In this capacity I conducted research on 
congressional coordination for homeland security. The answer to me was 
as obvious then as it is today: there are too many committees, each 
with competing priorities that have oversight of DHS. I had proposed a 
House Select Committee on Homeland Security in June 2001, and 
subsequently published my findings in February 2002.\26\ As you know, 
the House Select Committee on Homeland Security became a reality on 
June 19, 2002 with the adoption of H. Res. 449 during the 107th 
Congress.\27\ Then, for several years thereafter I published policy 
papers and op-eds calling for the consolidation of committees that I 
had earlier described.\28\ Now after a three-year absence from writing 
and speaking on this issue, I again call upon the Congress, and 
particularly the House, to consolidate congressional authorizations and 
oversight under a single committee. This is almost so rational that I 
find little need to explain the need.\29\
---------------------------------------------------------------------------
    \26\ Kaniewski, Daniel J. ``Create a House Select Committee on 
Homeland Security and Terrorism,'' Journal of Homeland Security 
(February 2002), http://www.homelandsecurity.org/newjournal/articles/
kaniewskilegislative.htm (accessed March 12, 2009).
    \27\ ``To establish the Select Committee on Homeland Security,'' 
H.Res. 449 (June 19, 2002), http://frwebgate.access.gpo.gov/cgi-bin/
getdoc.cgi?dbname=107_cong_bills&docid=f:hr449eh.txt.pdf (accessed 
March 13, 2009).
    \28\ Cilluffo, Frank J. and Daniel J. Kaniewski, ``Consolidating 
the House's Homeland Security Efforts: The Time To Act is Now,'' 
Homeland Security Policy Institute Issue Brief (December 29, 2004), 
http://www.gwumc.edu/hspi/news/
HS_Jurisdiction_Report_for_109th_Congress.pdf (accessed March 11, 
2009). See also, Cilluffo, Frank J. and Daniel J. Kaniewski, 
``Commission's Proposals Fall on Deaf Ears,'' Roll Call (August 16, 
2004), http://www.gwumc.edu/hspi/pubs/rc_08-16-04.pdf (accessed March 
13, 2009); Kaniewski, Daniel J., ``War Requires Homeland Panels' 
Attention, Too,'' Roll Call (March 24, 2003),
    \29\ Crowley, P.J. ``Safe at Home: A National Security Strategy to 
Protect the American Homeland, the Real Central Front.'' Center for 
American Progress (February 2008), 62, http://www.americanprogress.org/
issues/2008/02/pdf/safe_at_home.pdf (accessed March 11, 2009); Peters, 
Catherine McIntire, ``Congressional Oversight of Homeland Security 
Comes Under Fire Again,'' Government Executive (July 30, 2008), http://
www.govexec.com/story_page.cfm?articleid=40599&ref=rellink (accessed 
March 11, 2009); Chertoff, Michael, ```Letter to Representative Peter 
King on Time and Resources DHS Devotes to Congressional Inquiry,'' U.S. 
Department of Homeland Security (September 4, 2007), http://
www.dhs.gov/xlibrary/assets/sectr-chertoff-king-congressionaloversight-
20070904.pdf (accessed March 11, 2009).
---------------------------------------------------------------------------
    The only aspect that I wish to add to this now after having 
participated in the debate for more than seven years is the role of the 
White House in the contemporary debate. During my time at the White 
House we considered committee consolidation as a policy priority on a 
few occasions, but given the competing priorities and the increasingly 
tense relations between the Hill and the White House, it was clear to 
all at the time that this issue could not have conceivably been a 
priority for the President. Now, with a new President, during a time of 
unified government, again the talk inside the Beltway has turned to the 
potential for the President to call upon Congress to reform itself. 
While I see this as a noble thought, it is unrealistic to think that 
the President would expend his political capital to make this rather 
wonky proposal a priority, especially given the crises domestic and 
abroad. I believe that reform must come from within, with the 
Congressional leaders taking the initiative and working with the 
stakeholder committee chairmen and ranking members. It will not be 
easy, but then again neither was the creation of the intelligence 
committees 30 years ago. But that doesn't mean it isn't necessary.
    To quote our December 2004 HSPI issue brief on the subject:
        Now is the time to act. Congress must not let its homeland 
        security efforts remain unfocused and dispersed. Consolidation 
        of authority under a single permanent standing committee is the 
        best answer to a problem that has already persisted two years 
        too long.\30\
---------------------------------------------------------------------------
    \30\ Cilluffo, Frank J. and Daniel J. Kaniewski, ``Consolidating 
the House's Homeland Security Efforts: The Time To Act is Now,'' 
Homeland Security Policy Institute Issue Brief (December 29, 2004), 3, 
http://www.gwumc.edu/hspi/news/
HS_Jurisdiction_Report_for_109th_Congress.pdf (accessed March 11, 
2009).
---------------------------------------------------------------------------
    More than four years later, there's still no better time than now 
to fix this problem.

Looking Ahead
    There is little controversy over the fact that since Hurricane 
Katrina, FEMA has demonstrated substantial progress. The challenge for 
those on both sides of the debate will be to demonstrate that this 
progress will not be lost, benefits will be realized and that 
opportunity costs will not outweigh the benefits. Such a discussion 
could take place during the upcoming Quadrennial Homeland Security 
Review.
    Something that has yet to be done is to clearly articulate FEMA's 
role. For example, FEMA is currently configured as a support and 
coordination entity for state and local governments, but the public 
often believes that the organization alone is capable of providing 
substantial ``boots on the ground.'' Policymakers must either confront 
the reality that FEMA is a disaster coordinator and appropriately 
manage the public's expectations, or invest substantial resources to 
provide significant capabilities to FEMA. This would be an excellent 
first step for the Administration's capable FEMA nominee, Craig Fugate. 
I witnessed first hand Craig in action during the many disasters that 
struck the state during my tenure at the White House. I was always 
comforted when I saw Craig's face on the Video Teleconference amid 
crises in Florida; his confidence inspired confidence in the rest of us 
watching him from the comfort of our Washington offices.
    Looking back to what HSPI Director Frank Cilluffo testified to in 
March 2006, he properly captured the issues of a post-Katrina FEMA: 
``Our problem is not one of organizational design--the requisite policy 
and law exists. The challenge is one of management and leadership. The 
future leadership of FEMA must understand that they are part of an all 
hazards preparedness team--that response and recovery complement 
preparedness and protection. FEMA supports a system of systems--our 
focus must be on fixing what is wrong with the four major functions 
originally housed within FEMA: preparedness, response, recovery, and 
hazard mitigation. Therefore, the debate should not center on FEMA--it 
must be focused on what's needed from the perspective of the 
``customer''--those on the frontlines charged with the awesome 
responsibility of turning victims into patients and survivors. There 
are numerous customers with different needs: disaster victims, first 
responders, state and local governments, the faith-based community, and 
the private sector. What they have in common is the need to receive the 
right ``thing'' (service, equipment, personnel, or relief supply) at 
the right time and in the right place. This requires inter- and intra-
agency coordination among all levels of government and the private 
sector. Therefore form must follow function, with a clear chain of 
command, unencumbered by bureaucratic obstacles and based upon timely 
and effective supply chains enabling the response effort. \31\
---------------------------------------------------------------------------
    \31\ Cilluffo, Frank J., ``Hurricane Katrina: Recommendations for 
Reform,'' testimony before the Committee on Homeland Security and 
Government Affairs, U.S. Senate (March 8, 2006), http://www.gwumc.edu/
hspi/congress/March8_06.htm (accessed March 11, 2009).
---------------------------------------------------------------------------
    Thank you for your time and I will be happy to answer any questions 
you may have.

    Mr. Cuellar. Thank you again for your testimony.
    I want to thank all, also, the witnesses.
    And at this time, I remind each member that he or she will 
have 5 minutes of questioning the panel. I will recognize 
myself for 5 minutes of questioning.
    Mr. Skinner, your testimony indicates that FEMA performed 
relatively well in most of the recent disasters. Is FEMA 
stronger now than it was in 2005 or even in the 1990s, when it 
was independent?
    Mr. Skinner. In our opinion, most certainly. As I pointed 
out in my statement, when FEMA came into DHS, it brought with 
it many of its own material weaknesses. And if you look back at 
many of the reports issued not only by my office, but by GAO 
and other studies, we learn that FEMA was never prepared to 
deal with a catastrophic-type disaster and all the issues there 
associated or the response requirements that are associated 
with that type of an event, for example, a national housing 
strategy, an evacuation strategy, a strategy to go with those 
with handicaps.
    And the difference--what we are seeing today is the fact 
that the spotlight is on FEMA. Katrina put the spotlight on 
FEMA. The failures that we observed during that period of time 
should not have been a surprise to anyone.
    The only difference between Katrina and prior disasters is 
that they were just amplified. It was larger. FEMA would have 
prepared no--would not have prepared any better had it been an 
independent agency or prior to its incorporation into DHS.
    People tend to right now--I hear that it is because of its 
incorporation into DHS is one of the causes for its poor 
performance, and that is simply not true. Because of the Post 
Katrina Act, that is bringing structure and operational 
capability back to FEMA. And its reorganization, its all-
hazards emergency management approach is now making--it is 
stronger now than it ever was in its history.
    Mr. Cuellar. In your February 11th memorandum to the 
secretary, Napolitano, and you--the subject in or out, there 
are two--in the conclusion, you talk about two points that were 
important.
    One, if you can just elaborate how it takes years to have a 
complex organization developed, number one. And then the other 
point is, on success, what is more important? Is it the 
organizational structure? And that can apply for any 
organization. Or is it the leadership that is provided?
    Could you comment on those two?
    And, Mr. Jenkins, if you want to add on those two points, 
too.
    Mr. Skinner. Organizational structure and placement, of 
course, is important, but it shouldn't--but organizations in 
all academics, if you study in organizations, you see that 
there always will be an informal organization. You are going 
to--an organizational structure is just a reflection of the 
personality and the management that has been put in place, the 
leadership been put in place.
    Very, very important to have strong leaders in place that 
have an understanding of those that they are leading. I don't 
expect to be a leader over in Iraq, nor should we expect people 
to leading FEMA in an area of emergency management that do not 
have that expertise or those capabilities.
    Leadership is very important. Organizational structure is, 
in my opinion, is not as important. What concerns me here is 
that we are just going through several reorganizations, 
starting with DHS in 2003, then again with the reorganization 2 
years later under Secretary Chertoff, then again with the 
reorganization as a result of the lessons learned from Katrina.
    And I think it is time to let the dust settle. Let's grow 
some roots. We have now clear direction under the Post Katrina 
Reform Act that can guide us, that insulates and protects FEMA. 
And I think, by staying within FEMA, letting it grow, and using 
the capabilities that exist within FEMA will make it a stronger 
organization.
    Mr. Cuellar. Okay.
    Let me--do you want to finish, or add to this, Mr. Jenkins? 
And then I have one general question, and I will pass it on.
    Mr. Jenkins. I would just make two points. One is, I agree 
with Mr. Skinner. I think that organization is necessary, but 
not sufficient.
    On the other hand, the organization is important, because 
it really needs to align clearly with the missions that they 
have been defined so that they can carry those missions out.
    But the leadership is absolutely critical. I think that the 
fact that Mr. Paulison had the respect that he did in the 
emergency management community and the interpersonal skills 
that he had in his experience made an enormous difference in 
FEMA's ability to make the progress that it is made.
    So I agree with Mr. Skinner, as well, that the--neither one 
are sufficient unto themselves. You need both. And I would also 
agree that you can have the best organization in the world, but 
if you don't have the leadership that can make it happen, it 
doesn't--it is not going to get you there.
    Mr. Cuellar. Right. Thank you.
    Question--and give myself a little bit of extra time, and I 
will share the same thing to all of the members, give them the 
same courtesy--are there any actions that Congress can take 
legislative to further strengthen FEMA? Because, like anything 
else, there is always fine-tuning that comes along, as we see 
the impact on the environment.
    Mr. Skinner, Mr. Jenkins, and, of course, Ms. Troupe, you 
gave us a few of the suggestions. I appreciate that.
    And, Mr. Kaniewski, also.
    So, Mr. Gruber, also.
    So if you can just--each of you just highlight what 
legislative actions we should take to make FEMA stronger.
    Mr. Skinner. Well, with regards to the reform act, I think 
maybe you might want to go back and take a look at some of the 
restrictions we put on our--FEMA's ability to contract and 
subcontract, the 65 percent rule. I appreciate--and everyone 
understands what the intent of that rule is, but I don't think 
that that rule in itself is going to encourage or cause 
businesses--small businesses to have equal footing with the 
large firms and, in fact, it may actually impede their ability 
to get contracts or subcontracts, and at the same time it may 
impede the state and FEMA's ability to provide timely response.
    I think what--two things--two points I would like to make 
with regards to, what can Congress do now? One is to continue 
to support FEMA and invest in its development and its growth.
    Secondly, we need to discontinue or stop tweaking with its 
organization and talking about reorganization, taking FEMA in 
or FEMA out. That is having a debilitating effect on the staff 
within FEMA--not just FEMA, but within DHS, and that has a 
domino effect down at the state and local levels.
    The thing, I think, that Congress should be looking at 
right now--and these are lessons learned from Katrina, Ike, 
Gustav, and lessons learned even prior to its incorporation 
into DHS, is the Stafford Act. I think we might--that needs 
major overhaul. It is 30 years old. And through the course of 
the last 30 years, we build bureaucratic rules, roadblocks, and 
regulations that are hard to interpret, are misinterpreted, and 
actually restrict FEMA's ability to deliver its programs in a 
timely, effective and efficient manner.
    I think we ought to take steps--this is a great opportunity 
to step back and take a look at that bill. What we might want 
to--particularly what I am interested in is taking a look at 
how we deliver our public assistance program. We need to get 
the community, the locals and the states more actively 
involved. They need to become owners of their own recovery.
    We should be taking a performance-based approach, as 
opposed to a project-based approach, to helping communities 
recover. There are certain--a lot of issues within the Stafford 
Act, I think, that needs to be examined. It is not a Band-Aid 
approach, but a wholesale review of the Stafford Act and 
possibly rebuilding the Stafford Act.
    Mr. Cuellar. Is there a way to make some changes to the 
Post Katrina Act on the act of--using that as a vehicle, 
instead of the Stafford Act? Or do we still have to go and make 
changes with the Stafford Act? Do you see what I am trying to 
get at?
    Mr. Skinner. I see where you are going. I don't want to 
pretend to be an expert on--on the laws that--or how the 
Congress does--but, yes, I have seen many changes. 
Incidentally, I started working with FEMA in 1991, so I have a 
long history with them. And during that course of time, I have 
seen a lot of changes made to the Stafford Act through other 
mechanisms.
    During the 1990s, it was done primarily through the 
appropriations process. So I don't see that there would be any 
impediment doing that through amendments to the Post Katrina 
Reform Act.
    But it is not a Band-Aid approach. You really need to take 
a look at--take a global approach to this whole thing and how 
we are approaching it, but we need to start thinking about, 
what is the end game? What do we intend to accomplish here 
after a disaster and maybe simply the entire process?
    Mr. Cuellar. Right. And let me--so I can go ahead and pass 
my time on to--could I ask Mr. Skinner, Mr. Jenkins, Mr. 
Gruber, Ms. Troupe, and Mr. Kaniewski--could you all sit down 
with our staff and give us some very specific changes, 
legislative changes?
    Let's forget about generalities and then go into very 
specific--and I would ask you to work with our staff and make 
sure with all staffs, make sure that we get some very specific 
changes.
    Again, I guess I will go back to my 30-day timeline and ask 
you all to do that within 30 days.
    Mr. Skinner. I would be glad to. We are prepared to do 
that.
    Mr. Cuellar. But, again, specific, very specific.
    Okay, and I am asking all five panel members to coordinate 
with our staff.
    At this time, I will go ahead and recognize the ranking 
member, the gentleman from--Mr. Rogers for his 5 minutes-plus.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Gruber, you made reference to a small state and rural 
advocate in your opening remarks. Tell me more about that 
position, where it is, and what it does.
    Mr. Gruber. The position, of course, is in FEMA reporting 
to the administrator. And the intent was to have----
    Mr. Rogers. Reports directly to the administrator?
    Mr. Gruber. Yes, to have an advocate in FEMA that would be 
able to address the needs specifically of rural areas and the 
smaller states, to provide assistance, for example, in the 
disaster declaration process. So it was an intent to have a 
representative there that made sure that the balance was struck 
between advocacy for rural areas of the nation or smaller 
states.
    Mr. Rogers. And how is that working?
    Mr. Gruber. I think it has worked very effectively. I think 
that it is not just, obviously, the advocate. It is a--and I 
think we talked about a leadership and organizational 
structure. It is also changing culture in the organization.
    It is an ability to, I think, based on not only what PKEMRA 
has done for us and other legislative changes, to think in a 
clearer way, to be able to articulate the needs and disaster 
declaration process more effectively than we have done in the 
past, a lot of discussion about transparency, about providing 
assistance to that process.
    So I think, again, it is not just the advocate; it is an 
overall process that has helped to make those procedures more 
transparent.
    Mr. Rogers. Great, thanks.
    Ms. Troupe, first, I like the way you talk.
    Ms. Troupe. Thank you.
    Mr. Rogers. It is uncommon for me to get----
    [Laughter.]
    Ms. Troupe. And I work so hard at it.
    Mr. Rogers. I am up here with all these Yankees, and when I 
hear you talk, it just gives me a warm, comfortable feeling.
    Ms. Troupe. Well, let's go have sweet tea after this. How 
about that?
    Mr. Rogers. I hear you. Sounds like a winner to me. Tell 
me, I would like you to put a face on what you were describing 
in your statement about how FEMA seemed to be callous to the 
needs of those individuals with disabilities post-incident. 
Give me one or two examples in your experience where you saw 
that demonstrated.
    Ms. Troupe. Well, first of all, the population was not 
prepared and is not prepared even now. We are still--as I said 
in my statement, we are still having--you know, ``We will let 
you know what the plans are and what we want you to do when we 
want you to do it.''
    Mr. Rogers. But who got that response? I guess is what--I 
am trying to put a face on it and give it a human degree.
    Ms. Troupe. Okay. Organizations such as mine that were 
working with individuals, as I said, we tried to meet with FEMA 
and emergency management and so forth to work on plans and to 
bring the unique issues of the disability and the special needs 
populations and----
    Mr. Rogers. So you are talking in a planning, not in--
event?
    Ms. Troupe. In the planning. And then in the stages of the 
evacuation. There were no plans, so there were no stages to the 
evacuation. And I will have to say, even in Gustav, it was 
better to some extent, but we still had a lot of problems with 
accessible transportation, people actually knowing where they 
are going.
    For instance, I am in Jackson, Mississippi. And with 
Katrina, within 24 hours, our population had doubled. We were 
not prepared for that. And as we started looking for housing, 
we started looking for places for people to go, for assistance 
for people, we were not prepared for that. FEMA was not 
prepared for that. Homeland Security was not prepared for that. 
The city wasn't prepared for that. And we still are not 
prepared for that.
    Mr. Rogers. Well, I would urge you to visit with this small 
state and rural state advocate and see if that person can help 
you get some attention to your needs. And if not, I would like 
to hear back from you.
    Ms. Troupe. Well, then we also have a disability 
coordinator.
    Mr. Rogers. Well----
    Ms. Troupe. And that--they have some----
    Mr. Rogers. --obviously, you haven't been getting a lot of 
results----
    Ms. Troupe. Exactly.
    Mr. Rogers. --with the disability coordinator. That is why 
I say, I ask you to go--since you are, like me, from a small, 
rural state, I would like to know if you are finding that this 
advocate is, in fact, an advocate for your needs.
    I would like to ask Mr. Skinner, you know, first, I want to 
amen everything you said about letting the dust settle and 
roots grow into the ground with FEMA. There has been enough 
reorganization, and I think it is terribly--the thought of 
reorganizing again or, worse, taking FEMA out of DHS.
    But I was struck by the fact--and I think it was echoed by 
Mr. Jenkins and Mr. Gruber, that you made the point--and you do 
have a long history with FEMA--that FEMA was not prepared for a 
catastrophic incident prior to coming to DHS and dealing with 
Katrina and having to grow and mature.
    Why even have a Federal Emergency Management Agency if it 
is not prepared for a catastrophic event? Was it just that we 
didn't realize it wasn't prepared or that that was seen as not 
its role?
    Mr. Skinner. I believe that they understood that was its 
role. And, yes, they did realize they were not prepared. The 
argument that was often presented at least to--it was my 
understanding that it was a cost-benefit analysis issue. That 
is----
    Mr. Rogers. So you have a Federal Emergency Management 
Agency, but you don't really want to spend the money to make it 
what it needs to be?
    Mr. Skinner. And----
    Mr. Rogers. And they knew that?
    Mr. Skinner. And the bar would be set depending on the 
nature of the disaster. For example, Andrew set a new bar. Then 
Loma Prieta--or not Loma Prieta, but the Northridge earthquake 
raised the bar even a little bit higher. The Oklahoma incident 
raised the bar. The New York attacks raised the bar.
    So it was--a lot of it was budget-driven. The cost to sit 
down and to start preparing the nation and not just the federal 
government, but the states and the locals, and all the 
activities and issues associated with preparing for--for 
example, dealing with disabilities--the disabled population, 
mass transportation--evacuation, housing, things of that 
nature, were very costly.
    There was efforts early on, I believe, when they became in 
DHS to start studying some of these issues, but it was--I think 
it was the budget that was driving the costs down, which 
prohibited them to start thinking in those terms.
    Ms. Troupe. Congressman, if I might speak to that a little 
bit, too, is that I think--you know, cost keeps coming up, but 
I also think that it is very important for us to realize that, 
when you are dealing with certain populations, such as the 
disability and special needs population, it is imperative that 
these--that FEMA and Homeland Security or whomever, that they 
work with these communities, that they work with these 
advocates, and that they work with these organizations that 
know these people, know where they are, know what their needs 
are.
    And that also will address, in many ways, the costs, 
because we do a lot of work with ADA. And sometimes we have 
people tell us all the time, well, it costs so much to do this, 
that, and the other. Let us come and show you what you can do 
for lots of less money and how you can really and truly help 
people and keep them safe, instead of putting them--moving--in 
many cases, what happens, they move them out of harm's way into 
harm's way.
    Mr. Rogers. Right. Well, you know, I think what Mr. Skinner 
just described pretty vividly in the growth and the maturation 
of FEMA was that basically it was the horrors of these 
occurring incidents that forced the country to spend the money 
it needed and, obviously, the worst horror being Katrina. It 
forced the country to recognize that it had to make FEMA an 
organization that could deal with a catastrophic incident, 
which is what it should have been from the beginning.
    And that is why I keep asking you to put a face, talking 
about--you know, tell us about somebody who had a disability 
that was stranded, or injured, or got killed, or whatever. That 
is what I was talking about a while ago.
    I want to ask right quick, Mr. Gruber, are we doing a 
better job post-Katrina--and I will tell you why--about 
prepositioning and preparing in advance for what we are going 
to do after the incident?
    I mean, when I went down to New Orleans, Mississippi and 
Alabama, the coastal areas after Katrina with the speaker, 
Hastert at that time, Leader Pelosi, we had a large delegation. 
And what we heard everywhere was, the things the local 
governments wanted most was for us to get out of their business 
and let them pre-arrange contracts for debris removal, for all 
the services that they now realize they need, whether it is, 
you know, brought to their--before their mind about how--what 
they would need post-event.
    Let us get out of their way and not say, ``The only way you 
get funding is if you use our contractor who may be coming from 
Texas or somewhere.'' Have we done a better job of getting out 
of the locals' way and saying, ``You can prearrange these 
contracts at calm times, at arm's-length deals, and then we 
will work with you to compensate you''?
    Mr. Gruber. Yes, sir. I think that is an important point. 
That advanced contracting, whatever can be done on behalf of 
the local community and the state government is to all of our 
advantage, to have them have the capacity and the capability 
that they need to deal with these events.
    But we also know--we have done very deliberately since 
Katrina a gap analysis, where we work with the states to 
determine where there are specific functions or commodities 
where we would anticipate they would need federal help.
    So where they can accommodate and address specific 
requirements, whether it is through debris removal or feeding 
or others, we have much clearer understanding, working with the 
state and local communities, about their posture so that then 
we can take advantage of the capability we have in our 
distribution system or our advanced contracting or in our pre-
scripted missions assignments to fill where there might be 
shortfalls in the local or state capacity.
    Mr. Rogers. Last question. Would you agree with that, Mr. 
Kaniewski? You talked a little while ago about this 
relationship between the state and locals and the Feds with 
that observation. Have we gotten out of their way?
    Mr. Kaniewski. Absolutely. I think the national response 
framework document has gone a long way to enforce that, which 
is that the expectations are set. FEMA supports state and local 
officials. It is the state and local officials that ask and 
direct FEMA when they need assistance.
    Mr. Rogers. Thank you.
    I yield.
    Mr. Cuellar. Thank you, Mr. Rogers.
    At this time, the chair will recognize other members for 
questions that they may wish to ask the witnesses. In 
accordance with our committee rules and practices, I will 
recognize members who were present at the start of the hearing 
based on the seniority of the subcommittee, alternating between 
majority and minority. Those members coming in later will be 
recognized in the order of their arrival.
    At this time, the chair recognizes for 5 minutes the 
gentlewoman from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    My first--I have three questions, so if we could be as 
brief as possible in the answers, because I would like to get 
them all done.
    Mr. Jenkins, you have my first question. Back on September 
of 2007, you had published in the national preparedness 
guidelines that we have still yet failed to develop the 
guidelines to assess target capabilities and to identify the 
capability gaps throughout the federal, state and local 
preparedness and response capabilities.
    Could you let us know where we are on track to begin to 
address that?
    Mr. Jenkins. We have a report that will come out in April 
that is going to address that in detail. And because it is in 
draft, I can't say exactly what it is going to say, but I will 
say that it is not complete, still not complete, and it still 
needs work.
    Ms. Richardson. So what are we going to do to complete? 
Because given the fact that I come from a district that is 
considered on the list of many criterias, whether it is the two 
ports that bring forth 45 percent of the entire nation's cargo, 
whether it is an airport, whether it is a water treatment 
facility that we have, on and on and on, having this addressed 
now is important.
    Mr. Jenkins. I agree. And we do have some--we will have 
recommendations in that report on what needs to be done and to 
speak this up a little bit.
    Mr. Rogers. A little bit in--when was this originally due?
    Mr. Jenkins. Well, they started this in--we reported this 
in 2005 initially. And they were sort of in the process. They 
had identified the target capabilities. They had not identified 
measures for the target capabilities, that is, what the 
performance measures were.
    That sort of got the inside track by Katrina, that effort 
got--Katrina and got us started again in late 2006, 2007. They 
are--have a goal--FEMA has a goal--and I think Mr. Gruber can 
correct me if I am wrong--but they have a goal of completing 
the--the revision of the target capabilities in the metric 
study end of 2010 or 2011.
    Ms. Richardson. So that would be 5 or 6 years later?
    Mr. Jenkins. Right.
    Ms. Richardson. Okay. So I would just like to express for 
the record on this committee that I find that to be very poor.
    My second question has to do with--and if you could get us 
a copy of the report as quickly as possible in April--my second 
question is to Mr. Skinner or Mr. Gruber relating to section 
671.
    It talks about at the focal point with FEMA and the ECPC 
is, among other things, to set as the focal point of the 
information clearinghouse for federal interagency 
communications efforts. I will tell you that, again, I live in 
a district and represent a community where I had to recently 
fight through the appropriations process to have Signal Hill, 
one of my smaller police departments, to have operable radios.
    So I would like to understand from you the memorandum of 
understanding among the federal agencies has yet to be 
finalized. Moreover, the ECPC has not fulfilled the statutory 
requirement of submitting an annual strategic assessment 
regarding the federal coordination to advance operable and 
interoperable capabilities nearly 3 years since the enactment 
of this act.
    Mr. Skinner or Mr. Gruber?
    Mr. Skinner. That is something that our office has not 
studied to date. And I think Mr. Gruber might be in a better 
position to comment on that.
    Mr. Gruber. We have been working hard, with Congress's 
help, obviously, on the challenge that interoperable 
communications present. I think, to date, through our grant 
programs, for example, states have spent--state and local 
governments have spent over $2.8 billion.
    We have set up regional emergency communications, working 
groups. We have 8 of 10 of those estimated in our regions. We 
have a person charged with that responsibility at the region. 
In two of the regions, one person was just hired. The second 
region is about to hire their person, so we can establish a 
working group.
    We are working very hard with our office of emergency 
communications in the department, another element of the 
department. They attend those working group meetings. The 
national communications system has hired personnel specifically 
charged with responsibilities to help coordinate on a regional 
basis with private-sector entities, so we are making progress, 
but it is one of the greatest challenges, I think, we face.
    The interoperable communications problem, Mr. Chairman, 
those we have talked about just in the past, is a very 
significant--states have all worked on state communications, 
interoperable plans. We have used those. They have been peer-
reviewed, so----
    Ms. Richardson. Do you intend to make this a priority with 
the secretary?
    Mr. Gruber. I can tell you that we have heard and we have 
submitted to the secretary in the action directives that she 
posed out information about what we are doing in interoperable 
communications. I am confident she will have guidance for us 
about the priority that this deserves.
    Ms. Richardson. Okay, and finally--and I am now out of 
town, Mr. Jenkins. As I said, I represent a district that has 
often had major earthquakes, Long Beach being one of them. In 
your testimony, you point to the catastrophic incident annex, 
to the national response plan, and it has not been finalized.
    Mr. Jenkins. The annex has been done. It is the supplement, 
the operational supplement to the annex which provides much 
more detail about the response and how it should be done and 
who should be--that is what is not completed. The annex has 
been completed, but it is the operational supplement that puts 
real meat on the bones that has not been completed.
    Ms. Richardson. And when can we expect to see them meet 
that?
    Mr. Jenkins. Mr. Gruber, I think, is better positioned to 
answer that than I am.
    Mr. Gruber. We are working with our disaster operations 
directorate and my directorate of national preparedness to 
update the execution timeline, the transportation schedules 
that are in that document. We worked through our--what is 
called our emergency support function leaders group.
    We are going out to the various departments and agencies 
that are all in that group to provide input back for that 
update process, so I think we are talking probably later this 
summer. It is a very detailed and large-scale document, 
although it is relatively current, because it was originally 
published in 2006, so it is really a matter of an update to the 
document, but we are actively working on that.
    Ms. Richardson. Okay. We look forward to these reports as 
quickly as possible.
    Thank you.
    Mr. Cuellar. Thank you, Ms. Richardson.
    At this time, I recognize the gentleman from Louisiana, Mr. 
Cao, for 5 minutes.
    Mr. Cao. Thank you, Mr. Chairman.
    Thank you, Ranking Member, for this hearing.
    First of all, let me convey my appreciation and gratitude 
for everything that FEMA has done for the Second Congressional 
District in the state of Louisiana.
    However, I do also have issues concerning FEMA. And it 
seems to me that FEMA has been viewed, fairly or not, as an 
organization in opposition rather than a partner in the 
rebuilding process.
    Mr. Skinner, I fully support everything that you have said, 
and I would like to know from you whether or not this problem--
is that a problem of leadership or is that inherent within the 
Stafford Act?
    Mr. Skinner. I think it is inherent in the Stafford Act in 
how it has been interpreted over the last 30 years and the 
guidelines and the rules that have been just added on, added on 
over 30 years. That, coupled with the fact that the opportunity 
for misinterpretation of the rules, different interpretations 
of the rules, training of the staff that are on the ground, 
kicking the tires, and actually interacting with the locals and 
dealing with some very tough, complex questions.
    That is why I suggest that--I don't think we ought to want 
to just react to individual problems that we encounter, whether 
it be in Louisiana or whether it be in Texas or whether it be 
in California, but instead we need to step back and take a look 
as to what we want to see to be the end game. What do we want 
to see at the end of the recovery process? How can simplify the 
process? How can we engage and turn over or give ownership to 
the recovery effort, to the locals, and to the state?
    And I think that is where I believe the attention or our 
emphasis should be right now, coupled with, also, preparedness, 
mitigation, those other issues, as well, that I would be 
willing to talk about and I will talk about with the staff very 
shortly.
    Mr. Cao. And this question goes to the panel, whoever has 
knowledge in connection with this question. I have lived 
through the post-Katrina recovery in New Orleans for the past 
3-1/2 years. And it seems to me that there has been or there 
has been a lack of communication between the different federal 
agencies in the recovery process.
    It seems to me that there is no coherent recovery plan out 
there from which the different agencies can work together in 
order to help a region rebuild, for example, HUD, SBA, EDA, and 
FEMA. I would like to know, FEMA as an agency, how can it 
assist in coordinating the different federal agencies in the 
recovery process?
    Mr. Gruber. Sir, I will be happy to take a first stab at 
that. Of course we have an emergency support function that is 
part of the national response framework. It talks about long-
term recovery.
    And we will tell you that the Post Katrina Reform Act 
tasked us with developing a strategy for recovery and, just as 
late as last week, I was meeting with SBA, HUD, Health and 
Human Services, other departments and agencies that would have 
that active partnership in recovery talking specifically about, 
how would we develop a counterpart to the national response 
framework that would lay out a roadmap for recovery that is 
comparable?
    I would argue that it is a more complex issue, as you well 
know, as you have lived through it, but it obviously deserves 
the doctrine and the structures and the authorities that 
address recovery in the broadest sense.
    Ms. Troupe. I would like to state that, within working with 
the disability community, that regional disability coordinators 
within each of the 10 FEMA regions would be very beneficial, 
because these 10 regional disability coordinators could work 
with these entities and help them to know what the needs are 
and to plan for the recovery, as well as plan for the emergency 
situations, but also to plan for the recoveries of these 
populations.
    These are some of the most vulnerable populations, and I 
would dare say have been, for FEMA and other organizations, 
especially FEMA, have been the most difficult to work with. And 
it is because of the lack of knowledge of these populations.
    Mr. Cao. And I have one last question to ask. I have been 
talking with my staff to come up with a plan to rebuild the 
Second District. And we are approaching the rebuilding process 
one issue at a time. And I would just like to ask for, Mr. 
Gruber, your opinion, or Mr. Skinner, or whoever, might have 
the knowledge to assess what is in this process.
    We are trying to, let's say, tackle the first issue of 
criminal justice in the Second District. And I would like to 
sit down with all of the federal agencies along with the state, 
along with the city and see, how can each agency contribute 
in--with respect to just one issue? And then we can progress to 
health care and see how can all of these agencies contribute in 
this whole rebuilding process.
    Let's have EDA sit down and say, ``We can do this,'' FEMA 
sit down and say, ``We can do this,'' HHS sit down and say, 
``We can do this,'' and set a timeline with respect to when to 
do it, how much money each agency is going to allocate, what is 
the function of the state, how can the state contribute, how 
can a city contribute. What do you see in that approach?
    Mr. Gruber. Maybe I will just take a first stab at that, 
sir. Obviously, that makes great sense. We look forward to 
working with your staff on that.
    I think you know, since you were visiting with the 
secretary and Acting Administrator Ward, their commitment in 
that regard. And we would look forward, I think, partnering 
with the Department of Justice as appropriate when it comes to 
the criminal justice issue, Health and Human Services and 
others, to work with your staff to address those issues.
    Mr. Skinner. Under the Stafford Act, as it is now 
structured, you are almost forced to address everything on a 
project-by-project basis. And that is what I proposed maybe we 
start looking at the Stafford Act and step back and look 
outside the box.
    And the approach that you are taking is something that I 
think that would be an end-game type of approach. It would be 
performance-based. For example, in your school district, if you 
had 10 schools and 5 of them were destroyed, do we want to 
project-by-project rebuild each school or do you want to take 
and look at the education as a category or as a function as a 
whole?
    What do we want when we are finished? Do we want 10 schools 
or do we only want 5 schools or 2 schools to service our 
community? And you should be in a position--the locals should 
be in a position then to make those decisions. And that would 
hold true, also, for example, in law enforcement or any other 
category that--part of your infrastructure rebuilding.
    We need to look out--we need to step outside the box and 
rethink how we want to approach this whole business of 
recovery.
    Mr. Cuellar. Mr. Chairman, if you will allow me just one 
short follow-up question, Mr. Skinner, so basically, in what 
you just said, do we have to amend the Stafford Act first 
before we can approach addressing the issue of recovery one 
category at a time?
    Mr. Skinner. It would appear that we would, but I think, 
also, that the secretary and the administrator of FEMA may 
have--and I would have to look at what the issues are--does 
have a lot of flexibility, but we shouldn't have to keep doing 
this after every disaster.
    It appears that, every time we have a disaster, we are 
treated as the first time we are doing it with the--it is the 
first time we are reacting or responding or assisting state and 
local governments to respond and recover from a disaster.
    Depending on what the issues are, you may have to do it 
project by project. I think Corey might be in a better position 
to interpret some of the provisions of the public assistance 
program in the Stafford Act, but there are flexibilities that 
you--alternatives that you may want to explore, but we don't 
want to do this after every disaster. We need to fix the 
Stafford Act so we don't have to do this 5, 6, 7 times a year.
    Mr. Cao. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Cao.
    At this time, I would like to recognize the gentlewoman 
from the state of Nevada, Ms. Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to ask Mr. Skinner a question, please. As you 
know, the Post Katrina Act called on FEMA to strengthen its 
field offices. Well, I represent Las Vegas, and Las Vegas is 
certainly unique and has unique challenges.
    Along one street, we have the pyramids of Egypt, we have 
the Eiffel Tower, we have a circus big top, and we have the 
Doge Palace. So we have certain challenges.
    But we are in with the region nine, and that field office 
is based in Oakland, and that is almost 600 miles away. In 
addition, this field office is charged with a region that 
ranges from Guam to Arizona, and that is an area that 
encompasses 386,000 square miles, with a lot of variety.
    So Mr. Jenkins stated that the regional emergency 
communications coordination working group for this region has 
never even been formed, while some of the others have met a 
number of times, some, I think, eight times since Post Katrina, 
the act was passed.
    So I want to know why this group doesn't have--at least 
have this coordination working group, how it can possibly deal 
with the variety in that large and diverse of an area, and what 
we can do to be sure that these regional field offices are 
really accomplishing what they are set up for, using Las Vegas 
as an example for needs of unique planning?
    Mr. Gruber. Well, ma'am, let me start by saying, you know, 
the regions have grown significantly since the Post Katrina 
Emergency Management Reform Act. Let me just give you a few 
examples, but specifically to your point about the emergency 
communications working group.
    The region just in January hired their emergency 
communications coordinator, so they have every intent of 
beginning the meetings for the working group. We needed to have 
the coordinator in place before we did that, so that was the 
first step in that process.
    Ms. Titus. Now, where will that person be located? I am 
sorry.
    Mr. Gruber. It will be at the regional office in Oakland. I 
will say, though, that we are working, again, with others, the 
Office of Emergency Communications and other entities, to 
partner in those efforts, so it is not just the regional staff 
alone.
    I might also offer to you that we have positioned in each 
one of the regions a federal preparedness coordinator and staff 
to support them. So now we have--which we have never had 
before--is an individual that is responsible for serving as the 
integrator for all of our preparedness programs.
    We have new grant staff in the regions. We have new 
operational planners in the regions. So there is a more robust 
capability than there has been in the past to serve the needs 
of all the states and their regions.
    Ms. Titus. How about this particular region?
    Mr. Gruber. Yes, ma'am----
    Ms. Titus. Besides just the coordinator?
    Mr. Gruber. Yes, ma'am. They have the federal preparedness 
coordinator, the operational planners, new grant staff, so they 
have grown in strength like the other regions.
    Ms. Titus. Mr. Jenkins?
    Mr. Gruber. We can give you the specifics, certainly, if 
you would like those.
    Ms. Titus. I would like to see that. I would like to see 
just what role Las Vegas is playing in determining some of 
these plans that you have for a region that is as diverse as 
Guam and the Las Vegas strip.
    Mr. Gruber. Yes.
    Ms. Titus. If I could just kind of continue along the lines 
about the unique nature of Las Vegas, Mr. Jenkins, you wrote 
that great improvements have been made in the area of emergency 
communications among the different governmental levels, and you 
made a small note concerning the involvement of the private 
sector.
    Well, in Las Vegas, we have some of the most qualified 
personnel and highest technology for private security of any 
place in the world. Everybody knows about the eye in the sky in 
Las Vegas.
    I wonder, what is being done to try to coordinate with that 
private-sector security that we can take advantage of? Because 
I think they do an awfully good job. That might be something 
that FEMA could learn from.
    Mr. Jenkins. Well, it is--I think emergency communications, 
as Mr. Gruber said, is one of the most challenging, because it 
has been approached largely as an issue of equipment, and it is 
really an issue of governance. It is an issue of, what are the 
needs? And how are we going to develop those? Who is going to 
be involved? And that has been the big challenge.
    And it is certainly important to know what the range of 
capabilities are that could be used. I mean, we have national 
communications system which is essentially a partnership with 
private telecommunications firms, and then we have the state 
emergency management plan.
    So one of the--where this can really come in is the office 
of emergency communications provides technical assistance to 
states and regions in developing their emergency communications 
plans. And then one of the things that is supposed to take 
account of is not only public assets, but private assets, and 
where they can be used.
    So they should be incorporated--those kinds of issues 
should be incorporated and considered in the state emergency 
communication plans that were submitted by the states in April. 
And then the Office of Emergency Communications provides 
training, in terms of developing those, as well as technical 
assistance. So that is where it comes in.
    But I would agree with you that that is an important 
component of emergency communications.
    Ms. Titus. Thank you, Mr. Chairman.
    Ms. Troupe. If I might--excuse me, within the communication 
realm that we are talking here to, it is a very important that 
we also remember that we need to make these communications 
across the board accessible, whether it be alternate formats or 
whether it be with different languages and interpreting, also. 
This needs to be a major priority.
    Ms. Titus. Interoperability, it seems to be a problem, too.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you very much, Ms. Titus.
    At this time, I would like to recognize the gentleman from 
Missouri, Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Chairman, I think I would put my colleague, Ms. Titus', 
southern accent alongside that of Ms. Troupe. I think my 
colleague should get special consideration having lived in Las 
Vegas and still able to speak southern.
    Mr. Skinner, I was talking with a reporter from the Kansas 
City Star, my hometown, Kansas City, Missouri, and all of the 
newspapers are in trouble. I think there are about nine on a 
list that probably won't be in business next month, including 
some of the largest newspapers.
    And he was telling me how troublesome it is for him to do 
his writing, his daily column, because, you know, no matter how 
profound it is, the reality is there that any day they could 
walk in and say, ``You know, the paper is closing down,'' 
because newspapers are not making money.
    I am wondering if that is the same thing happening at--in 
homeland security with FEMA. I mean, what are the employees 
realizing that there is discussion going on about whether or 
not FEMA should be here or there or anywhere, whether they are 
in or out, whether all of that talk is somehow creating some 
morale issues inside FEMA? Could you respond to that?
    Mr. Skinner. Yes, it is creating morale problems. And it is 
demoralizing within the organization, because, after spending 
12 years there, I still have a lot of good friends there and I 
interact with many of those people on almost a daily--or at 
least weekly basis, in one fashion or another.
    And it is not only just the issue of where we are going to 
be organizationally tomorrow. It is also the spotlight that has 
been put on many of the employees there.
    I once testified saying, you know, these are some of the 
most hardworking people I have ever had the pleasure to stand 
next to. And they are doing the best they can with the tools 
that they have been given. And many times, although FEMA is--
needs to be criticized for its inability, because its lack of 
the programs to provide programs to provide timely response and 
recovery, as we experienced in Katrina, it is unfair, I think, 
to attack the individual employees, because they are just doing 
the best they can with the tools they have.
    I once said you can't expect Hank Aaron to hit 755 homeruns 
with a Wiffle Ball bat. And that is what we have given these 
people. We just have not given them the tools to be able to do 
the job the best they can.
    That is now changing. And I think we are heading--because 
of the reform act and because of the maturing that is taking 
place within DHS, in the way we are starting to work together 
as a team, we are starting to integrate.
    What is discouraging now is the talk that, well, this may 
all come to an abrupt start and we may have to reorganize and 
start again. Everyone talks about the effect that has on FEMA; 
it is also having an effect on the people within DHS, because 
FEMA's tentacles--DHS's tentacles go into FEMA, but FEMA's 
tentacles also go into DHS. And it would hurt both sides and 
weaken both organizations if we reorganized at this point in 
time in our history.
    Mr. Cleaver. Thank you.
    Mr. Kaniewski, this is not necessarily a policy question, 
but when you begin to read about the debate about FEMA, 
Homeland Security, inevitably you come up with the James Lee 
Witt discussion, where people will declare that he was the best 
director in the history of the agency and maybe the history of 
the planet, maybe the galaxy.
    And I don't want to--I am not suggesting that he wasn't; I 
am saying that the only reason we know that Muhammad Ali was a 
great fighter was because he had a lot of fights. And the truth 
of the matter is, when Mr. Witt was there, we didn't have 
Katrina, Gustav. I mean, we didn't have these major events.
    So it seems to me there is a leadership issue. I mean, 
obviously, they--to me, just reading about him, but he had 
enormous leadership skills. But can the agency depend just on 
leadership skills or should there be policies in place so that, 
no matter who the leader is, that he or she will be able to 
keep the agency operating at the optimum level, instead of just 
depending on a person's leadership skills and Mr. Witt's 
unusual relationship with the White House?
    I don't think we can discount that, that he had a personal 
relationship with the president, which also gave him access. 
That is about----the question went far longer than I intended, 
but----
    Mr. Kaniewski. I think you summarized it very well. And, in 
fact, I agree with everything you said.
    I think the leadership is a significant factor. And I think 
that both James Lee Witt and Dave Paulison were tremendous 
leaders and, you know, they have their--it shows.
    I will also say their structure matters, in some sense. It 
matters that there are standard operating procedures, there are 
processes in place to address how FEMA should work in every 
disaster, because, without that, it is not going to be an 
effective organization. That is why I was so happy with PKEMRA.
    Though FEMA was on its own, improving dramatically under 
Dave Paulison's leadership, my concern was, what happens when 
Dave Paulison leaves? What is going to be left behind? What 
organization is going to survive maybe without a leader like 
Dave Paulison?
    I can say that things like PKEMRA are important. There is 
no question. I can also say that both Dave Paulison and James 
Lee Witt inherited a beleaguered organization. Remember, James 
Lee Witt got it right after Hurricane Andrew; Paulison took the 
reins right after Katrina.
    So it is impossible for any of us to say, you know, what 
percentage each of these factors played, but leadership and the 
fact that a capable organization that is guided by statute that 
you guys put in place was very important.
    Mr. Cleaver. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Cleaver. The whole galaxy? Hey, 
I like that.
    Mr. Cleaver, thank you very much, Ms. Titus.
    I want to thank all of you all for being here. The only 
thing, Mr. Skinner--, actually for all of you all, since you 
are all going to be--before you all walk out of the room, if 
you all can just talk about this.
    I do want to just emphasize what Mr. Cao had talked about 
is--on the suggestions, give us some performance measures that 
measure results and not activity. As you know, there is a big 
difference between measures that count how many pencils we have 
out there than seeing the end result.
    So I would ask you all to give us some performance measures 
that measure the results, also, so you give us suggestions.
    Again, I want to thank you very, very much. If you can do 
this within 30 minutes--I mean, 30 days. And we want to do 
this--30 minutes would be beyond anything in this galaxy we can 
do this. But if I could have you work with our staff and, of 
course, the Republican staff, make sure we do this in a 
bipartisan way.
    Again, I want to thank all the witnesses for the valuable 
testimony for being here, the members for their questions. The 
members of the subcommittee may have additional questions for 
the witnesses, and, again, we ask you to respond to them as 
soon as possible.
    Hearing no further business, members, this meeting is 
adjourned. Thank you very much.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                        Questions and Responses

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

                   Responses from Richard L. Skinner

    Question 1.: The Office of Inspector General has conducted a number 
of audits on FEMA since the passage of the Post Katrina Emergency 
Management Reform Act of 2006 (PKEMRA). Based on this body of work, 
which specific PKEMRA provisions would you propose be amended?
    In our audit, Hurricane Katrina Multitier Contracts (OIG-08-81), we 
reported that prime contractors, rather than small businesses, were 
hired by the government to help repair the massive damage caused by 
Hurricanes Katrina and Rita. These prime contractors engaged smaller 
businesses, creating layers of subcontractors between the prime 
contractors and those actually performing the work. We reviewed the 
extent to which multitier subcontracting was increasing costs, limiting 
opportunities for local businesses, and resulting in layers of 
subcontractors being paid profits and overhead while adding little 
value to the work performed. Multitier subcontracting alone did not 
increase costs, and national prime contractors hired significant 
numbers of local businesses. It was not clear if such subcontractors 
profited without adding value to the contracts, because subcontractor 
invoices do not contain specific information on lower tier 
subcontractors.
    Although Section 692 of the Post-Katrina Emergency Management 
Reform Act of 2006 would limit subcontracting to 65% of total contract 
costs, nothing in this legislation specifically restricts the number of 
tiers of subcontractors. Further, by limiting subcontracting, Section 
692 could restrict funding available to small and local businesses 
while potentially impairing FEMA's ability to respond quickly to future 
catastrophic disasters. The Department of Defense has promulgated less 
restrictive rules to control multitiering that reduce the risks 
inherent in Section 692. In our report, we recommended that FEMA 
officials work with DHS officials, the Office of Federal Procurement 
Policy and Congress to promulgate less restrictive rules over multitier 
contracting.

    Question 2.: FEMA administers a complex web of grant programs that 
are sometimes overlapping.
        a. From the Office of Inspector General's vantage point, is the 
        current grant structure the most efficient means of helping 
        states and localities prepare for all-hazards incidents?
        b. What recommendations do you have to improve the efficiency 
        and effectiveness of homeland security and emergency management 
        grant programs?
    Public Law 110-53, Implementing Recommendations of the 9/11 
Commission Act of 2007, August 3, 2007, requires the Office of 
Inspector General to audit the State Homeland Security Program and 
Urban Areas Security Initiatives grants awarded to each state and 
territory at least once before August 3, 2014. The OIG is to report 
annually to Congress on the audits completed the prior fiscal year, and 
is required to address the effectiveness of the grants, specifically 
the extent to which funds awarded enhanced the ability of a grantee to 
prevent, prepare for, protect against, and respond to natural 
disasters, acts of terrorism and other man-made disasters. The first of 
these audits are expected to be completed in summer 2009.
    Our office has also just begun an audit, ``Efficacy of DHS Grant 
Programs'' that specifically addresses the questions above. The 
objective of the audit is to determine whether the Federal Emergency 
Management Agency and other components of the department have 
identified and taken steps to mitigate restrictions, duplication, or 
redundancy within the department's various grant programs that impede 
the ability of recipients to apply grant funds toward their most urgent 
homeland security and emergency management needs and priorities. We 
expect to issue a final report late in calendar year 2009. When this 
audit is completed, we will be in a position to make detailed 
recommendations that will help the agency in developing a more 
efficient and effective grants framework.
    At this time, I can state from my experience that the current grant 
structure is generally unwieldy and difficult for our state and local 
homeland security partners to navigate. Additionally, DHS has not yet 
developed a structure of meaningful performance measures by which to 
determine the effectiveness of the grant funds. I would like to see DHS 
consolidate its grant programs to address all-hazards. I believe states 
should receive funding to put together comprehensive plans for homeland 
security and emergency management. Once our state and local partners 
develop a sound homeland security/emergency management plan, they would 
receive financial assistance to implement that plan from a single grant 
administered by FEMA. This would eliminate the need for jurisdictions 
to submit multiple grant applications to address various needs. The 
approved plan would serve as the baseline from which program officials 
could evaluate performance and measure progress, and additional 
financial assistance would be linked to outcomes addressing specific 
performance benchmarks.

    Quuestion 3.: Under the National Response Framework (NRF), Federal 
agencies other than FEMA bear primary responsibility for certain 
functions.
        a. Has an assessment been conducted that tells us whether these 
        other Federal agencies are fully prepared to carry out their 
        responsibilities?
        b. How would you suggest such an assessment be conducted?
    Other than evaluations undertaken following Hurricane Katrina to 
assess federal, state and local response efforts, there has not been a 
comprehensive assessment to determine if federal agencies are fully 
prepared to fulfill their roles in emergency management.
    We would suggest such an assessment be conducted under the auspices 
of the newly formed Council of Inspectors General for Integrity and 
Efficiency (CIGIE). This group was formerly known as the President's 
Council on Integrity and Efficiency and the Executive Council on 
Integrity and Efficiency (PCIE/ECIE). In November 2006, the Inspections 
and Evaluations Committee of PCIE/ECIE prepared ``An IG's Guide to 
Evaluating Agency Emergency Preparedness.'' This guide could be used to 
assess emergency management preparedness for each federal agency that 
has a role in the National Response Framework; we could then prepare a 
consolidated report to present findings systemic across the federal 
government. Our Office of Emergency Management Oversight is well 
positioned to lead this assessment through a CIGIE subgroup that we 
used to coordinate federal Inspectors General oversight of Hurricane 
Katrina disaster relief.

    Question 4.: PKEMRA contains a provision (SEC. 693--Oversight and 
Accountability of Federal Disaster Expenditures) that allows the FEMA 
Administrator to designate up to 1% of the total amount provided to a 
Federal agency for a mission assignment as oversight funds to be used 
by the recipient agency.
        a. Since this provision was enacted, to your knowledge has the 
        FEMA Administrator designated such funds for oversight?
        b. If not, how does this impact your ability and the ability of 
        other Inspectors General to properly provide oversight of 
        mission assignment funding?
    Section 693 of PKEMRA, Oversight and Accountability of Federal 
Disaster Expenditures (6 U.S.C. 793), allows the FEMA Administrator to 
designate up to 1 percent of the total amount provided for a mission 
assignment as oversight funds. To date, the FEMA Administrator has not 
implemented this provision by providing a small percentage of mission 
assignment funding to ensure appropriate oversight.
    Typically, the larger a disaster, the more funding FEMA provides to 
other agencies through mission assignments. However, those agencies' 
Offices of Inspector General do not receive additional funding to 
provide oversight of the mission assignment activities. This hampers 
OIGs' abilities to conduct appropriate oversight of federal disaster 
funds.
    We would propose that Congress require the Administrator to provide 
such oversight funding by amending Section 693 of PKEMRA, changing the 
word may to shall in the first sentence of section (a): The 
Administrator shall designate up to 1 percent of the total amount 
provided to a Federal agency for a mission assignment as oversight 
funds to be used by the recipient agency for performing oversight 
activities carried out under the Agency reimbursable mission assignment 
process.
    Question 5.: What are the strengths and weaknesses of FEMA's use of 
Disaster Assistance Employees as a ``surge capacity'' force?
    FEMA's Disaster Assistance Employees (DAEs) are temporary employees 
deployed from a pool of candidates maintained by FEMA or hired as 
needed to provide a ``surge capacity'' in times of disaster. FEMA's 
permanent staff is not large enough, nor does it have the range of 
technical expertise needed, to respond to a catastrophic disaster, 
necessitating the use of temporary employees. Because DAEs do not 
always stay for the duration of the recovery, there is constant 
turnover of staff. FEMA must continually re-educate new disaster staff, 
which can lead to duplicate requests for documentation and varying 
interpretations of laws, regulations, policies, and procedures. This 
frustrates local government officials and often delays the recovery 
process.
    Technically, DAEs are required to contact their FEMA cadre manager 
every 30 days to remain on the active list. Failure to report for duty 
once agreeing for service may be grounds for termination from the 
program. However, we know anecdotally that one of FEMA's frustrations 
is that some DAEs ``pick and chose'' their disasters. Because DAEs are 
temporary hires, when they are called, they have the option of turning 
down the assignment. This sometimes makes it difficult for FEMA to 
deploy enough DAEs quickly. FEMA also faces a management challenge in 
terms of incentivizing the DAE workforce because the more efficiently 
and effectively those workers complete their work, the sooner they are 
out of a job. This is an issue that bears further examination to find 
the right incentive structure in order to have a reliable surge 
workforce incentivized to do the best job possible.

    Question 6.: At its core, disaster response is a local and state 
responsibility. The Federal government's support, coordinated by FEMA, 
is meant to supplement state and local efforts when those entities 
become overwhelmed. Are states fulfilling their responsibilities with 
regard to ensuring they are prepared for future catastrophes?
    While we believe that FEMA is better prepared to handle future 
catastrophic events, we do not know whether the states are better 
prepared for such events. I agree with DHS Secretary Napolitano's 
remarks last month before the National Emergency Management Association 
when she said that the public perception of FEMA needs to change, that 
FEMA is not the first responder. That role belongs to local and state 
government. In responding to emergency situations, whether natural or 
man-made, current doctrine dictates that government agencies and 
organizations most local to the situation act as first responders. This 
means that state and local governments must invest in preparedness, but 
it is hard to get state and local governments to invest their limited 
funding in preparedness activities.
    Based on my experience, I believe incentives are one of the best 
ways to get states to invest in something, even when they would rather 
spend their funds elsewhere. One option for providing such an incentive 
would be to tie states' investments in preparedness to their cost-
sharing responsibilities after a disaster.
    Under the Stafford Act, most federal assistance after a disaster 
comes with a requirement that the state provide a percentage cost-
share, which in most cases is 25%. In recent disasters, this cost-share 
has sometimes been waived, with the federal government providing 100% 
of the funding. I believe 100% funding should rarely be used, and then 
only in truly catastrophic events. For other disasters, I believe we 
could incentivize states to invest in preparedness by predicating an 
increased percentage of federal funding based on pre-disaster 
preparations by the state that include having approved plans and 
approaches in place prior to a disaster. These could include:
        <bullet> Administrative plans
        <bullet> Mitigation plans
        <bullet> Capability assessments
        <bullet> Housing strategy including identification of group 
        sites
        <bullet> Evacuation plans
        <bullet> EMACs/regional assistance plans
    Ideally, states would engage in more preparedness because it is the 
right thing to do for their citizens. But I recognize that state 
legislators are faced with tough budget decisions. The right incentives 
could help them make the decision to invest more in disaster 
preparedness.

    Question 7.: Are there tools that the Office of Inspector General 
currently does not have that would increase your ability to perform 
your job?
    There are several important legislative changes that Congress could 
enact that would enhance my office's ability to fulfill our mission:
        1. DHS OIG Access to Contractor Records and Employees

A. Proposed language:

    SEC. __. The Inspector General Act of 1978, as amended, (5 U.S.C. 
App.), is amended by redesignating sections 12 and 13 as sections 13 
and 14, respectively, and by adding the following new section:

    Sec. 12. INSPECTOR GENERAL ACCESS TO CERTAIN RECORDS AND EMPLOYEES.
    With respect to each contract or grant awarded using Federal funds, 
any representative of an appropriate Inspector General appointed under 
section 3 or 8G of the Inspector general Act of 1978, as amended, (5 
U.S.C. App.), is authorized----
        (1) to examine any records of the contractor or any of its 
        subcontractors, the grantee or any subgrantee, or any State or 
        local agency administering such contract or grant, that 
        directly pertain to, and involve transactions relating to, the 
        contract, subcontract; grant, or subgrant; and
        (2) to interview any officer or employee of the contractor, 
        subcontractor, grantee, subgrantee, or State or local agency 
        regarding such transactions.

B. Explanation/Justification
    Under the Inspector General Act of 1978, as amended, Inspectors 
General are tasked to conduct, supervise, and coordinate audits and 
investigations related to the programs and activities of Federal 
agencies. Because many agencies now rely so heavily on contractors to 
carry out their programs and activities, the Inspectors General require 
more and greater access to contractor employees and records. Likewise, 
the amount of Federal dollars awarded through grants has increased 
significantly since fiscal year 2000. Grant spending averages almost 20 
percent of total Federal spending, slightly more than contract 
spending. Delays in responding, failures to provide complete responses, 
and refusals to respond to Inspector General requests for contractor 
and grantee documents and for interviews of employees disrupt the work 
of the Inspector General.
    Inspector General subpoenas issued pursuant to section 6(a)(4) of 
the Inspector General Act, as amended, and enforceable in United States 
district courts are the most commonly used and versatile tool in 
investigating civil fraud cases. They are limited to documentary or 
other tangible evidence. The Inspector General has no similar authority 
to obtain interviews of contractor and grantee employees. Many fraud, 
waste, and abuse matters are brought against companies, and being able 
to compel interviews from employees or other witnesses during 
investigations, audits, and inspections, would be invaluable in 
detecting fraud, waste, and abuse.
    In a report issued by the DHS Inspector General, Acquisition of the 
National Security Cutter, U.S. Coast Guard, OIG-07-23, the office 
describes the impediments experienced in obtaining access to contractor 
employees and records related to the particular audit. At one point, 
audit fieldwork was suspended until access issues could be resolved. 
Because of the burdensome procedures imposed by the contractors 
involved and the refusal of the contractors to allow the Inspector 
General unsupervised access to contractor employees most knowledgeable 
of the design and performance issues of the cutter, the Inspector 
General was denied the benefit of those informed perspectives. These 
hurdles are unacceptable in light of the statutory mandates on 
Inspectors General; the critical importance of Federal programs and 
activities; and the expenditure of billions of taxpayer dollars that 
are invested with contractors to provide the Government needed goods 
and services and with grantees to achieve defined public purposes.

2. Enhanced OIG Authority for Computer Matching

Proposed Language:
    Notwithstanding 5 U.S.C. Sec. 552a, the Department of Homeland 
Security Inspector General may match any Federal or non-Federal records 
while conducting an audit, inspection, or investigation authorized 
under the Inspector General Act of 1978, as amended, to identify 
control weaknesses that make a program vulnerable to fraud, waste, or 
abuse and to detect improper payments and fraud.

Explanation/Justification:
    The Computer Matching and Privacy Protection Act of 1988 (Pub. L. 
100-503) (CMPPA), as amended, revised the Privacy Act to add procedural 
requirements that agencies must follow when matching electronic 
databases. The requirements include formal matching agreements between 
agencies, notice in the Federal Register of the agreement before 
matching may occur, and review of the agreements by Data Integrity 
Boards at both agencies. While CMPPA provides an exemption to law 
enforcement from these administrative requirements, the exemption 
applies only when a specific target of an investigation has been 
identified. Moreover, the Government Accountability Office, as an arm 
of the Legislative Branch, is not subject to CMPPA.
    The legislative history of CMPPA identifies Inspectors General as 
among the earliest users of computer matching as an audit tool to 
detect fraud, error, or abuse in Federal benefit programs. Interagency 
sharing of information about individuals can be an important tool in 
improving the integrity and efficiency of government programs. By 
sharing data, agencies can often reduce errors, improve program 
efficiency, identify and prevent fraud, evaluate program performance, 
and reduce the information collection burden on the public by using 
information already within government databases.
    The work of the Department of Homeland Security (DHS) Inspector 
General in identifying control weaknesses within agency programs and 
detecting fraud would be facilitated by expanding the current law 
enforcement exemption to permit the Inspector General, as part of 
audits or inspections, not only targeted investigations, to match 
computer databases of Federal and non Federal records. Because the 
Inspector General rarely controls the databases to be matched, much 
effort and time is involved now in encouraging the agency system 
managers that matching is appropriate and necessary and to cooperate 
with the Office of Inspector General (OIG) to fulfill the CMPPA 
administrative requirements. This allows agencies to delay, and even 
obstruct, legitimate OIG oversight because the OIG is dependent on the 
cooperation of the agencies to meet the CMPPA requirements.
    Even though the Inspectors General at the Department of Homeland 
Security, Department of Agriculture, Department of Housing and Urban 
Development, and the Small Business Administration pursued computer 
matching agreements in the aftermath of Hurricane Katrina to facilitate 
audits and investigations, only one agreement was executed. In June 
2006, almost 10 months after Hurricane Katrina struck, the Department 
of Housing and Urban Development successfully executed a computer 
matching agreement with the Federal Emergency Management Agency. The 
absence of computer matching agreements forced the Hurricane Katrina 
Fraud Task Force to rely on manual record searches to detect improper 
payments and fraud. The authority to conduct data sharing would have 
greatly enhanced the DHS OIG's ability to quickly begin review of 
hurricane victim assistance programs to detect internal control 
weaknesses and fraud before benefits were issued.

                                 <all>

</pre></body></html>
